<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2011

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Patrick J. Leahy (chairman) 
presiding.
    Present: Senators Leahy, Mikulski, Landrieu, Specter, 
Gregg, Bennett, Bond, Brownback, and Voinovich.

                          DEPARTMENT OF STATE

                           Secretary of State

STATEMENT OF THE HONORABLE HILLARY RODHAM CLINTON, 
            SECRETARY OF STATE


                 statement of senator patrick j. leahy


    Senator Leahy. Secretary Clinton, I commend you for your 
unbelievable energy, not only in the work you do at the State 
Department but around the world in representing the United 
States. I understand this is one of four times you're going to 
be testifying here on Capitol Hill and we appreciate it very 
much, Madam Secretary.
    The President's fiscal year 2011 budget request for the 
Department of State and foreign operations totals $56.6 
billion. It's a 10.6 percent increase over last year. Most of 
the increase is for three countries: Afghanistan, Pakistan, and 
Iraq.
    For the remainder of the world, the increase is about the 
rate of inflation and, as the President has pointed out, the 
total request for foreign operations is about 1 percent of the 
entire Federal budget.
    If we cut all these programs, it wouldn't make a dent in 
our deficit but it would cause many other problems around the 
world, especially as it would affect America's leadership 
position.
    The funds are all we have, besides the U.S. military, to 
protect the security and other interests of the American people 
in an increasingly dangerous and divisive world.
    That is not to say we can't do more to get full value for 
our tax dollars, that's always been mine and Senator Gregg's 
goal on this subcommittee. If there are programs that are not 
effective or no longer necessary, then we will eliminate them. 
As we listen to the complaints about broken Government or 
paralysis in Washington, this is a bill that, over the past 
number of years, has had overwhelming bipartisan support.
    If anybody wants to see whether bipartisanship still exists 
in Congress, they do not have to look any further than this 
subcommittee. Every member of this panel, Republican and 
Democrat alike, has a stake in what's in here. We work 
together. For example, our global health programs help to 
prevent outbreaks of deadly viruses and other infectious 
diseases that are only a plane ride away. If such viruses 
spread and become pandemics, they could kill millions of 
people, including Americans.
    Funding provided in this bill also addresses the continuing 
need to stop terrorism, organized crime, and other 
transnational crime that are growing threats to Americans and 
the citizens and governments of other nations, especially 
governments whose institutions are prone to corruption. There 
are many other examples.
    We know this budget is not going to solve every problem in 
the world but at least it ensures that the United States is 
equipped to play a leadership role.
    The Secretary has done her part and, Madam Secretary, I 
must say I appreciate the fact that you have been the face of 
America around the world. I know that it is physically 
strenuous, both for you and your staff, but it is important 
that you are there.
    Today, more than ever, we appreciate the need for fully 
staffed and secure embassies, effective diplomacy, and strong 
alliances. I want to commend the dedicated men and women of the 
State Department and the U.S. Agency for International 
Development (USAID), who are serving America here at home and 
at posts around the world and, I should note, often at great 
personal risk.
    After Senator Gregg makes his opening remarks and the 
Secretary testifies, we'll have 7-minute rounds for questions. 
The Senators will be recognized in order of arrival, 
alternating back and forth.
    Senator Gregg.


                    STATEMENT OF SENATOR JUDD GREGG


    Senator Gregg. Thank you, Mr. Chairman, and I want to 
second your opening comments. I especially want to pick up 
where you left off which is saying thank you to not only 
yourself, Madam Secretary, but the extraordinary staff that 
works for you at the State Department.
    Those of us who've had a chance to travel to some more 
severe regions in this world, such as Afghanistan, Syria, 
Pakistan, of course Iraq, recognize that the men and women who 
serve us in the State Department are on the frontlines and 
doing an extraordinary job of trying to carry out American 
policy and assist those nations in moving toward more 
democratic forms of government and to be constructive citizens 
in the world. They put their lives at risk as our military 
people do, and we very much appreciate their service.
    I also want to thank you personally for what you're doing. 
Your presentation around the world has been extraordinary and 
it's been very positive for us, for our Nation, to have you out 
there as our spokesperson, along with the President, of course.
    There are so many areas of concern that come to mind that 
rather than taking them all up in my opening statement, I'd 
rather hear your thoughts on them.
    So I will turn to you, but I just want to highlight one 
that doesn't get a lot of attention and that is an issue I've 
had interest in for almost 15 years now which is to make sure 
that you have the best technology and the best capability so 
that the support is there for the people who do such wonderful 
things for us in the field. I'd be interested in your thoughts 
on where we stand in that area and also in the area of 
facilities.
    I'd like to spend some time on that. I'm especially 
concerned about the cost of the Iraqi mission and the new 
building and the complex there and how that's going to drain 
away funds from other initiatives.
    I'd rather hear from you than talk myself. So I'll turn it 
over to you, Madam Secretary.
    Senator Leahy. Thank you. Secretary Clinton, please go 
ahead.


              SUMMARY STATEMENT OF HILLARY RODHAM CLINTON


    Secretary Clinton. Thank you very much, Chairman Leahy, and 
Senator Gregg, and members of the subcommittee.It really is a 
pleasure to be back here in the Senate and to be with all of 
you today.
    When I was last here to discuss our budget, I emphasized my 
commitment to elevating diplomacy and development as core 
pillars of American power. Since then, I have been heartened by 
the bipartisan support of this subcommittee and the rest of 
Congress and I want to take this opportunity to thank you on 
behalf of the men and women who work every day around the world 
at the State Department and USAID who put our foreign policy 
into action, and I will certainly convey the very kind words of 
both the chairman and the ranking member to them.
    The budget we're presenting today is designed to protect 
America and Americans and to advance our interests and values. 
Our fiscal year 2011 request for the State Department and USAID 
totals $52.8 billion. That's a $4.9 billion increase over 2010. 
Of that increase, $3.6 billion will go to supporting efforts in 
frontline states, Afghanistan, Pakistan, and Iraq.
    Other funding will grow by $1.3 billion and that is a 2.7 
percent increase and with that money, we will address global 
challenges, strengthen partnerships, and ensure that the State 
Department and USAID are equipped with the right people, the 
right technology, and the right resources.
    Over the past 6 weeks in Haiti, I've been reminded again of 
the importance of American leadership. I'm very proud of what 
our country has done. We will continue to work with our Haitian 
and international partners to address ongoing suffering and 
transition from relief to recovery.
    I'm also well aware that this is a time of great economic 
strain for many Americans here at home. As a former Senator, I 
know what this means for the people you represent. For every 
dollar we spend, we have to show results. That is why this 
budget must support programs vital to our national security, 
our national interests, and our leadership in the world, while 
guarding against and rooting out waste, redundancy, and 
irrelevancy. I believe this budget achieves those goals.
    These figures are more than numbers on a page. They tell 
the story of the challenges we face and the resources we need 
to overcome them. We are fighting two wars that call on the 
skill and sacrifice of our civilians as well as our dedicated 
military troops.
    We've pursued a dual-track approach to Iran that has 
exposed its refusal to live up to its responsibilities and 
helped us achieve a new unity with our international partners. 
Iran has left the international community little choice but to 
impose greater costs and pressure in the face of its 
provocative steps. We're not working actively with our partners 
to prepare and implement new measures to pressure Iran to 
change its course.
    We have achieved unprecedented unity in our response to 
North Korea's provocative actions, even as we leave the door 
open for a restart of the Six Party Talks, and we're moving 
closer to a fresh nuclear agreement with Russia, one that 
advances our security while furthering President Obama's long-
term vision of a world without nuclear weapons.
    With China, we are seeking areas of common purpose while 
standing firm where we differ. We're making concrete our new 
beginning with the Muslim world. We're strengthening 
partnerships with allies in Europe and Asia, with our friends 
here in the hemisphere, with countries from those that are 
rising and emerging powers to those who have challenges, and 
we're working hard every day to end the impasse and the 
conflict between Israelis and Palestinians.
    At the same time, we're developing a new architecture of 
cooperation to meet transnational global challenges, like 
climate change, the use of our planet's oceans, proliferation 
of weapons of mass destruction, health problems which, as the 
chairman said, are no respecter of boundaries.
    In so many instances, our national interests and the common 
interests converge and so from our hemisphere across the world 
we are promoting human rights, the rule of law, democracy, 
Internet freedom. We're fighting poverty, hunger, disease, and 
we're working to ensure that economic growth is broadly and 
inclusively shared.
    Now our agenda is ambitious, I admit that, but I think the 
times demand it. America is called to lead and we need the 
tools and resources to exercise our leadership wisely and 
effectively. We can bury our heads in the sand and pay the 
consequences later or we can make hard-nosed targeted 
investments now, addressing the security challenges of today 
while building a more lasting foundation for the future.
    Let me just highlight three areas where we're making 
significant new investments. First, the security of frontline 
states. In Afghanistan this past year, we've tripled the number 
of civilians on the ground and this presence will grow by 
hundreds more with the $5 billion in this budget. Our diplomats 
and development experts are helping institutions, expand 
economic opportunities and provide meaningful alternatives for 
insurgents ready to renounce violence and Al Qaeda and join 
their fellow Afghans in the pursuit of peace.
    In Pakistan, our request includes $3.2 billion to combat 
extremism, promote economic development, strengthen democratic 
institutions, and build a long-term relationship with the 
Pakistani people. This includes funding of the Kerry-Lugar-
Berman initiative. Our request also includes a 59 percent 
increase in funding for Yemen to help counter the extremist 
threat and build institutions there, as well.
    In Iraq, we're winding down our military presence and 
establishing a more normal civilian mission. Our civilian 
efforts will not and cannot mirror the scale of the military 
presence, but they, rather, should provide assistance 
consistent with the priorities of the Iraqi Government and the 
United States. So our request includes $2.6 billion for Iraq.
    These are resources that will allow us to support the 
democratic process, ensure a smooth transition to civilian-led 
security training, and operational support. These funds will 
allow civilians to take full responsibility for programs and 
the Defense budget for Iraq will be decreasing by about $16 
billion and that's a powerful illustration of the return on 
civilian investment.
    We are blessed, as we all in this room know, with the best 
troops in the world and we've seen that time and time again in 
today's wars, but we also need to give our civilian experts the 
resources to do the jobs we're asking them to do and this 
budget takes a step in the right direction.
    It includes $100 million for a State Department Complex 
Crisis Fund, replacing the 1207 Fund which the Defense 
Department used to direct money toward crisis response. It also 
includes support for the Pakistan Counterinsurgency Capability 
Fund which previously fell under the Defense Department, as 
well.
    The second major area is investing in development. So we're 
making targeted investments in fragile societies which, in our 
interconnected world, bear heavily on our own security and 
prosperity. These investments are a key part of our effort to 
get ahead of crises rather than just responding to them.
    The first of these is in health. Building on our progress 
treating HIV, malaria, and tuberculosis, our Global Health 
Initiative will invest $63 billion over 6 years, starting with 
$8.5 billion in fiscal year 2011, to help our partners address 
specific diseases and build strong sustainable health systems.
    The administration has also pledged to invest at least $3.5 
billion in food security over 3 years and this budget includes 
a request for $1.6 billion, of which $1.2 billion is funded 
through the State Department. This will focus on countries that 
have developed effective, comprehensive strategies where 
agriculture remains central to prosperity and hunger is 
widespread.
    On climate change, we've requested $646 million to promote 
the United States as a leader in green technology and to 
leverage other countries' cooperation, including through the 
Copenhagen Accord, which for the first time brings developed 
and developing countries together. This is part of the 
administration's total request of $1.4 billion to support core 
climate change activities in developing nations.
    Our request also includes $4.2 billion for humanitarian 
assistance. Our efforts in Haiti have made clear that State and 
USAID must be able to respond quickly and effectively, but we 
believe these initiatives will enhance American security and 
they will help people in need and they will give the American 
people a strong return on this investment.
    Our aim is not to create dependency but, rather, to help 
countries learn to fish, as the old Proverb tells it, and what 
we want to do is focus on equality and opportunity for women 
and girls because we know that is the key driver of economic 
and social progress.
    And then, finally, our third area of investment. None of 
what we intend to do can be accomplished if we don't recruit, 
train, and empower the right people for the job.
    The State Department and USAID are full of talented and 
committed public servants, but we have too often neglected to 
give them the tools they need to carry out their missions on 
the ground and rather than building our own expertise, we have 
too often relied on contractors, sometimes with little 
oversight and often at greater cost.
    This budget will allow us to expand the Foreign Service by 
over 600 positions, including an additional 410 for the State 
Department and 200 for USAID. It will also allow us to staff 
the standby element of the Civilian Reserve Corps which is a 
crucial tool in our efforts to respond to crises.
    Now while deploying these personnel generates new expenses 
in some accounts, it will reduce costs by changing the way we 
do business. As we are ending our over-reliance on contractors, 
we're actually showing we can save money, plus bringing these 
functions inside and improving oversight and accountability.
    So, Mr. Chairman and ranking member and members, one thing 
should be clear from this budget, the State Department and 
USAID are taking a lead in carrying out the United States' 
foreign policy and national security agenda.
    As we finish the first-ever Quadrennial Diplomacy and 
Development Review (QDDR), we have a unique opportunity to 
define the capabilities we need and to match resources with 
priorities. This budget aligns our investments with the 
strategic imperatives of our time.
    The QDDR will also help ensure we are more effective and 
accountable. As I have reported to you before, filling the 
first-ever Deputy Secretary of State for Management and 
Resources with Jack Lew, a former OMB Director, has given us an 
extra advantage in developing this budget and reviewing it to 
make sure that every item is economical and effective.


                           PREPARED STATEMENT


    Now at this time of change and challenge around the world, 
we need to make these investments and I believe that this 
subcommittee understands why. I look forward to your questions, 
but even more so I look forward to working with you in 
partnership in the months and years ahead.
    Thank you, Mr. Chairman.
    [The statement follows:]

              Prepared Statement of Hillary Rodham Clinton

    Thank you very much, Chairman Leahy and Senator Gregg and members 
of the subcommittee. It really is a pleasure to be back here in the 
Senate and to be with all of you today. When I was last here to discuss 
our budget, I emphasized my commitment to elevating diplomacy and 
development as core pillars of American power. Since then, I have been 
heartened by the bipartisan support of this committee and the rest of 
Congress. And I want to take this opportunity to thank you, on behalf 
of the men and women who work every day around the world at the State 
Department and USAID who put our foreign policy into action. And I will 
certainly convey the very kind words of both the Chairman and the 
Ranking Member to them.
    The budget we are presenting today is designed to protect America 
and Americans and to advance our interests and values. Our fiscal year 
2011 request for the State Department and USAID totals $52.8 billion. 
That's a $4.9 billion increase over 2010. Of that increase, $3.6 
billion will go to supporting efforts in ``frontline states''--
Afghanistan, Pakistan, and Iraq. Other funding will grow by $1.3 
billion, and that is a 2.7 percent increase, and with that money we 
will address global challenges, strengthen partnerships, and ensure 
that the State Department and USAID are equipped with the right people, 
the right technology, and the right resources.
    Over the past 6 weeks in Haiti, I have been reminded again of the 
importance of American leadership. I am very proud of what our country 
has done. We will continue to work with our Haitian and international 
partners to address ongoing suffering and transition from relief to 
recovery.
    I am also well aware that this is a time of great economic strain 
for many Americans here at home. As a former Senator, I know what this 
means for the people you represent. For every dollar we spend, we have 
to show results. That is why this budget must support programs vital to 
our national security, our national interests, and our leadership in 
the world, while guarding against and rooting out waste, redundancy, 
and irrelevancy. I believe this budget achieves those goals. These 
figures are more than numbers on a page. They tell the story of the 
challenges we face and the resources we need to overcome them.
    We are fighting two wars that call on the skill and sacrifice of 
our civilians as well as our dedicated military troops. We have pursued 
a dual-track approach to Iran that has exposed its refusal to live up 
to its responsibilities and helped us achieve a new unity with our 
international partners. Iran has left the international community 
little choice but to impose greater costs and pressure in the face of 
its provocative steps. We are now working actively with our partners to 
prepare and implement new measures to pressure Iran to change its 
course.
    We have achieved unprecedented unity in our response to North 
Korea's provocative actions, even as we leave the door open for a 
restart of the Six-Party Talks. And we are moving closer to a fresh 
nuclear agreement with Russia--one that advances our security while 
furthering President Obama's long-term vision of a world without 
nuclear weapons.
    With China, we are seeking areas of common purpose while standing 
firm where we differ. We are making concrete our new beginning with the 
Muslim world. We are strengthening partnerships with allies in Europe 
and Asia, with our friends here in our hemisphere, with countries from 
those that are rising and emerging powers to those who have challenges. 
And we are working hard every day to end the impasse and the conflict 
between Israelis and Palestinians.
    At the same time, we are developing a new architecture of 
cooperation to meet transnational global challenges like climate 
change, the use of our planet's oceans, proliferation of weapons of 
mass destruction, health problems--which, as the Chairman said, are no 
respecter of boundaries. In so many instances, our national interest 
and the common interest converge, and so from our hemisphere across the 
world, we are promoting human rights, the rule of law, democracy, 
Internet freedom; we are fighting poverty, hunger, and disease; and we 
are working to ensure that economic growth is broadly and inclusively 
shared.
    Now, our agenda is ambitious, I admit that, but I think the times 
demand it. America is called to lead--and we need the tools and 
resources to exercise our leadership wisely and effectively. We can 
bury our heads in the sand and pay the consequences later, or we can 
make hard-nosed, targeted investments now--addressing the security 
challenges of today while building a more lasting foundation for the 
future.
    Let me just highlight three areas where we are making significant 
new investments.
    First, the security of frontline states. In Afghanistan, this past 
year, we have tripled the number of civilians on the ground, and this 
presence will grow by hundreds more with the $5 billion in this budget. 
Our diplomats and development experts are helping build institutions, 
expand economic opportunities, and provide meaningful alternatives for 
insurgents ready to renounce violence and al-Qaida and join their 
fellow Afghans in the pursuit of peace.
    In Pakistan, our request includes $3.2 billion to combat extremism, 
promote economic development, strengthen democratic institutions, and 
build a long-term relationship with the Pakistani people. This includes 
funding of the Kerry-Lugar-Berman initiative. Our request also includes 
a 59 percent increase in funding for Yemen, to help counter the 
extremist threat and build institutions there as well.
    In Iraq, we are winding down our military presence and establishing 
a more normal civilian mission. Our civilian efforts will not and 
cannot mirror the scale of the military presence, but they rather 
should provide assistance consistent with the priorities of the Iraqi 
Government and the United States. So our request includes $2.6 billion 
for Iraq. These are resources that will allow us to support the 
democratic process, ensure a smooth transition to civilian-led security 
training and operational support. These funds will allow civilians to 
take full responsibility for programs, and the Defense budget for Iraq 
will be decreasing by about $16 billion--and that's a powerful 
illustration of the return on civilian investment.
    We are blessed, as we all in this room know, with the best troops 
in the world, and we have seen time and time again in today's wars. But 
we also need to give our civilian experts the resources to do the jobs 
we're asking them to do. And this budget takes a step at the right 
direction. It includes $100 million for a State Department complex 
crisis fund--replacing the 1207 fund which the Defense Department used 
to direct money toward crisis response. It also includes support for 
the Pakistan Counterinsurgency Capability Fund, which previously fell 
under the Defense Department as well.
    The second major area is investing in development. So we're making 
targeted investments in fragile societies--which, in our interconnected 
word, bear heavily on our own security and prosperity. These 
investments are a key part of our effort to get ahead of crises rather 
than just responding to them. The first of these is in health. Building 
on our progress treating HIV, malaria, and tuberculosis, our Global 
Health Initiative will invest $63 billion over 6 years, starting with 
$8.5 billion in fiscal year 2011, to help our partners address specific 
diseases and build strong, sustainable health systems. The 
Administration has also pledged to invest at least $3.5 billion in food 
security over 3 years, and this budget includes a request for $1.6 
billion, of which $1.2 billion is funded through the State Department. 
This will focus on countries that have developed effective, 
comprehensive strategies, where agriculture remains central to 
prosperity and hunger is widespread.
    On climate change, we've requested $646 million to promote the 
United States as a leader in green technology and to leverage other 
countries' cooperation--including through the Copenhagen Accord, which 
for the first time brings developed and developing countries together. 
This is part of the Administration's total request of $1.4 billion to 
support core climate change activities in developing nations.
    Our request also includes $4.2 billion for humanitarian assistance. 
Our efforts in Haiti have made clear that State and USAID must be able 
to respond quickly and effectively.
    But we believe these initiatives will enhance American security, 
and they will help people in need, and they will give the American 
people a strong return on this investment. Our aim is not to create 
dependency, but rather to help countries learn to fish, as the old 
proverb tells it. And what we want to do is focus on equality and 
opportunity for women and girls, because we know that is the key driver 
of economic and social progress.
    And then finally, our third area of investment. None of what we 
intend to do can be accomplished if we don't recruit, train, and 
empower the right people for the job.
    The State Department and USAID are full of talented and committed 
public servants, but we have too often neglected to give them the tools 
they need to carry out their missions on the ground. And rather than 
building our own expertise, we have too often relied on contractors, 
sometimes with little oversight and often at greater cost. This budget 
will allow us to expand the Foreign Service by over 600 positions, 
including an additional 410 for the State Department and 200 for USAID. 
It will also allow us to staff the standby element of the Civilian 
Reserve Corps, which is a crucial tool in our efforts to respond to 
crises. Now, while deploying these personnel generates new expenses in 
some accounts, it will reduce costs by changing the way we do business. 
As we are ending our over-reliance on contractors, we're actually 
showing we can save money, plus bringing these functions inside and 
improving oversight and accountability.
    So, Mr. Chairman and Ranking Member and members, one thing should 
be clear from this budget: The State Department and USAID are taking a 
lead in carrying out the United States' foreign policy and national 
security agenda. As we finish the first-ever Quadrennial Diplomacy and 
Development Review, we have a unique opportunity to define the 
capabilities we need and to match resources with priorities. This 
budget aligns our investments with the strategic imperatives of our 
time. The QDDR will also help ensure we are more effective and 
accountable. As I have reported to you before, filling the first-ever 
Deputy Secretary of State for Management and Resources with Jack Lew, a 
former OMB director, has given us an extra advantage in developing this 
budget and reviewing it to make sure that every item is economical and 
effective.
    Now, at this time of change and challenge around the world, we need 
to make these investments. And I believe that this committee 
understands why. I look forward to your questions.
    But even more so, I look forward to working with you in partnership 
in the months and years ahead.
    Thank you, Mr. Chairman.

                                  IRAN

    Senator Leahy. Thank you, Madam Secretary. Let me first ask 
you about a country that concerns all of us: Iran.
    We know that the Iranian people have relied on the Internet 
and satellites to get news, often of the outside world, but 
sometimes even of what's going on in their own country.
    The Iranian Government has spent millions of dollars to 
block Internet and social media connections inside of Iran. To 
me that's a sign of a regime that is afraid of its own people 
and that wants to hide its actions from the rest of the world.
    In an earlier time, oppressive regimes trapped their people 
behind an Iron Curtain. The Iranian Government is trying to 
muzzle its people behind an electronic curtain, and I'm 
troubled by what they're doing, not just to their own people 
but also stopping the programs of other countries.
    You made a recent speech, which I thought was superb, at 
the Newseum spelling out principles of global Internet freedom 
for the benefit of people everywhere and that was well received 
around the globe.
    It appears that Iran has broken international agreements by 
doing this, is that correct?
    Secretary Clinton. Yes.
    Senator Leahy. We have worked with the State Department and 
others on this issue. Beginning in fiscal year 2008, we 
provided funds to facilitate Internet communication by people 
around the world in closed societies.
    I noticed an article in the Washington Post on February 18 
that mentioned the National Security Council discouraged the 
Broadcasting Board of Governors, the Board that oversees the 
Voice of America (VOA) and other U.S. international 
broadcasters, from signing a statement with the BBC and 
Deutsche Welle denouncing Iranian jamming of their broadcasts. 
In the end, VOA ended up signing that statement.
    Is there disagreement in the administration of the need to 
strongly protest internationally this violation of 
international agreements by Iran?
    Secretary Clinton. Mr. Chairman, there is no disagreement. 
As I said in my Internet Freedom speech, the development of new 
tools that enables citizens to exercise their rights of free 
expression and virtual assembly, because I think it's rooted in 
both, needs to be protected and advanced, and we need these new 
tools, particularly in Iran but not only in Iran.
    So the State Department is looking very closely at what 
more we can do to try to work with the private sector in 
partnership to unblock the Internet, to get information 
flowing, to speak out against the kinds of abuses that we see 
going on out of Internet.
    We are providing funds to groups around the world to make 
sure that these new tools get to the people who need them. We 
are--we have been assisting in those areas for some time and 
thanks to this subcommittee, which has helped to pioneer the 
funding for these efforts, but there's so much more that we can 
and should do and inside the State Department, I've created a 
group of young tech-savvy diplomats.
    We're doing what we call ``21st Century Statecraft'' and 
they are working, again as I say, with the private sector, this 
is not all just American government efforts, in order to be 
able to unjam and circumvent with our technologies the kind of 
blockades that the Iranians are using.
    There's still a lot to be done and I think that the 
discussion inside the administration is what are the most 
effective ways of doing it. Some of the technology, for 
example, that we would very much like to see used to unblock 
Iran is very valuable technology. We have to be careful about 
how it is utilized so it doesn't get into the wrong hands.
    Senator Leahy. Sure.
    Secretary Clinton. We're focused on this, Mr. Chairman.
    Senator Leahy. But we also have to be working, I would 
assume, with other countries if there's a violation of a 
bilateral agreement.
    I've heard that some of their blocking efforts not only 
block satellite transmission into neighboring countries but in 
one instance as far away as Italy.
    Secretary Clinton. Well, when they bring down the cellphone 
networks, that has broad ramifications.
    Senator Leahy. The satellite is not just Voice of America. 
I know we've tried to tighten bilateral sanctions against Iran, 
targeting the Revolutionary Guard. We're seeking the support of 
Russia, China, and other countries for U.N. sanctions.
    Are there other things we should be doing? I know the House 
and Senate have passed legislation imposing sanctions on 
petroleum companies that do business with Iran. What about 
that?
    Secretary Clinton. Well, Mr. Chairman, we support the 
purpose and the principles of the bills, both the bill in the 
House and the sanctions bill that recently was passed by 
unanimous consent here in the Senate.
    We want to have as strong a partnership with the Congress 
as possible. We need to enlist every possible tool that we can 
bring to bear on this, and we look forward to working with the 
Congress. What we're hoping for is that whatever sanctions 
emerge from the conference committee have some flexibility that 
will support our ongoing efforts because you rightly pointed 
out, we are working very hard with our partners in the Security 
Council.
    We've already made it clear that we stand ready to do both 
unilateral and multilateral sanctions on top of whatever comes 
out of the Security Council, but while we're in the midst of 
these negotiations, it would be very useful for us to be in 
close consultation with the Congress so that whatever is done 
here supplements and supports what we're trying to get done in 
the Security Council.

                         ECONOMIC SUPPORT FUNDS

    Senator Leahy. Let us follow up on that in another 
discussion. The administration has requested increases in 
Economic Support Fund assistance for Afghanistan, Pakistan, and 
Iraq. I worry about the billions that were wasted in the years 
past because there seemed to be an emphasis on burn rates more 
than on results. I think you and I should discuss that more as 
we go forward with the bill.

                             TRAVEL TO CUBA

    I will also be talking to you about a group of Vermont high 
school students who wanted to travel to Cuba to set up a sister 
school relationship with Cuban students. After doing their own 
research, and getting ready for the trip, they ran into U.S. 
travel restrictions.
    It seems so beneath a nation as powerful as ours to tell 
kids they can't go back and forth and talk to students in Cuba. 
They can go to Russia, they can go to China, they can go 
everywhere else. Then there's Cuba. It makes no sense. You 
don't have to answer, but we'll talk further about that.
    Senator Gregg.
    Secretary Clinton. Thank you, Mr. Chairman.

                                 JORDAN

    Senator Gregg. Thank you, Mr. Chairman. First, one of our 
closest allies in the Middle East is Jordan and they've really 
borne the brunt of a lot of our policies in the forms of cost 
of refugees and border security issues. They requested $300 
billion additional assistance in the supplemental.
    I was wondering if the administration supports this 
request.
    Secretary Clinton. Well, Senator Gregg, as you know, Jordan 
is a stalwart ally and their work with us over the years has 
been extraordinarily helpful.
    We, in this budget, hit the targets that were set in the 
memorandum of understanding that we--we certainly abide by 
which gives us about over $600 million. The supplemental amount 
is something that we are considering and looking at.
    Obviously in this time of real budget constraints, it's--
it's a challenge, but we know how much Jordan has done. We just 
have to try to see whether it's--it's doable within the 
confines of the budget.
    Senator Gregg. Well, considering what we're spending in 
Iraq and Afghanistan, Pakistan, it would seem to me to be 
dollars well spent and probably have a much better impact in 
the area of stabilization in the region.
    Let me ask you two specific areas that I'd be interested in 
getting your thoughts on because they appear to be energizers 
of most of our problems.
    The first is the issue of where you think the Palestinian 
issue is going and where you think Israel is going in 
relationship to Palestine, and, second, the issue of the India-
Pakistan relationship and what we're doing to try to create 
some comity there so that we can take advantage of our 
friendships or participate with the friendships in both 
countries.
    Secretary Clinton. Well, Senator Gregg, those are two 
issues that we spent a lot of time working on.

                              MIDDLE EAST

    First, with respect to the Palestinians, there are really 
two aspects of our engagement with the Palestinian Authority. 
The first is our continuing effort under the leadership of 
former Senator Mitchell for the Israelis and the Palestinians 
to resume negotiations.
    We hope that that will commence shortly. We think it's 
absolutely essential that they begin to talk about the final 
status issues that divide them, that have perpetuated the 
conflict over all of these years, but we're well aware of the 
difficulties that confront us on this.
    At the same time, we continue to work with the Palestinian 
Authority to support their efforts to build their capacity, 
particularly in security. General Dayton has done a superb job 
working with Prime Minister Fayed in creating a Palestinian 
Security Force that is respected by the Israelis, that 
demonstrates a capacity to perform under difficult 
circumstances.
    We have encouraged other countries to provide funding 
directly to the Palestinian Authority so that they can help 
build their judicial system, their prosecutorial system, their 
corrections system. It's not enough just to have a good 
security force, you've got to have the rest of the law 
enforcement, judicial apparatus functioning, and we're getting 
support to do that given directly to the Palestinian Authority.
    So on both of those tracks, there are certainly challenges 
ahead, particularly on the first, the political negotiation 
track, but the progress that is being made on the second track 
actually increases the leverage and the credibility of the 
Palestinians in negotiations with the Israelis.

                           INDIA AND PAKISTAN

    Second, with respect to India and Pakistan, we've 
encouraged the resumption of the direct talks which were 
suspended when President Musharraf left office. Those talks 
between President Musharraf and Prime Minister Singh had 
actually been quite productive, particularly in producing 
results on the ground in Kashmir, but they've been in abeyance 
now for I think slightly more than 2 years.
    So we've encouraged both countries to begin a dialogue. 
They are going to be doing so. There will be a meeting within 
days, as I recall the date, and we are sensitive to the 
concerns that they each have that it's--it's their issues that 
they have to address, but we continue to raise it and make the 
case to each separately as to why it's in their mutual 
interests to proceed.
    What's going on in Pakistan right now is very significant. 
The increasing efforts by the Pakistani Military and 
Intelligence Services to capture Taliban leaders, which they've 
done, to work with the United States, both on the civilian and 
the military side, better to assist in what they're doing to 
reclaim territory from Swat to North Waziristan.
    We're trying to create a new relationship with Pakistan 
that is of longer duration and--and making the Pakistanis know 
that we're in it for the long term.
    With India, we've had a very successful start to this 
administration building on, frankly, the success and the 
investment of the prior two administrations in working with 
India, creating more opportunities for investment, more 
relationship-building between our two governments.
    So I think that in these two areas, which are two of the 
most significant areas for America's long-term security, we are 
working very hard and, you know, trying to make even, you know, 
very small but significant progress in any way we can.

                                 SYRIA

    Senator Gregg. Thank you. I noticed we just appointed an 
Ambassador to Syria. There has been some slight opening, very 
slight opening of dialogue there.
    Can you tell us where you see that going?
    Secretary Clinton. Senator, we have. We decided to return 
an Ambassador. We've been without one since 2005. We have a 
very experienced diplomat, Robert Ford, who has served in Iraq 
as the political director, is fluent in Arabic, lots of 
experience in the region.
    I agree with your characterization that there's a slight, a 
slight opening for us to build on. We've had high-level visits, 
highly ranking Members of Congress have also gone to Syria in 
the last year, but there are a lot of issues between our 
Government and the Syrian Government, and we've been absolutely 
clear about those issues.
    Just recently Under Secretary Bill Byrnes had very intense 
substantive talks in Damascus and we have laid out for the 
Syrians the need for greater cooperation with respect to Iraq, 
the end to interference in Lebanon, and the transport or 
provision of weapons to Hezbollah, a resumption of the Israeli-
Syrian track on the peace process which had been proceeding 
through the auspices of the Turks the last years, and generally 
to begin to move away from the relationship with Iran which is 
so deeply troubling to the region as well as to the United 
States.
    There are many specifics under each of those big ticket 
items that we have discussed with the Syrians and, you know, we 
are going to resume ambassadorial level representation, but 
these issues have to be addressed continually.
    Senator Gregg. Thank you, Madam Secretary.
    Senator Leahy. Thank you. Senator Mikulski.
    Senator Mikulski. Madam Secretary, it's so great to welcome 
you back to the Senate. We miss you, and we know today you've 
really presented an appropriations request representing your 
role as the CEO of the State Department as well as America's 
top diplomat.
    Reading the budget, I see where the President, with your 
advice and to us, meets compelling human need around the world. 
It's in our strategic interest. It re-establishes relationships 
with treasured allies, and I know I speak in a heartfelt way 
that the focus on women and girls in development.
    Also, I note the--your desire to reinvigorate and re-
establish the professionalism that once was the hallmark of 
AID. So we appreciate that.

                                  IRAN

    Let me get right to my questions. One--one, I want to 
associate myself with the remarks of Senator Leahy about Iran 
and we would hope to discuss after this hearing how we could 
follow up on that close alignment, but do you--I'm concerned 
that there is a lack of intensity in the international arena as 
we push or advocate for sanctions.
    My concern is that Russia and China are slow walking us. 
You might or might not want to comment on that, but is it your 
view and the administration's view that we'll move with our own 
sanctions after the international community acts or are we not 
going to wait for them or is that yet to be determined?
    Secretary Clinton. Thank you, Senator, and thank you for 
your encouragement and support of our initiatives, particularly 
around women and girls. I--I appreciate that very much.
    With respect to Iran, I feel the intensity of our efforts 
very personally because I have been out there engaged in 
bilateral and multilateral diplomacy with countries that we are 
moving toward an acceptance of the need for greater pressure on 
Iran.
    You know, when President Obama came to office, he very 
clearly, and I think correctly, laid out what we needed to do. 
He said, look, we'll extend our hand, but you have to unclench 
your fist, and from the very beginning he said we will have a 
two-track process. We will engage, but it's a two-way street. 
There has to be something coming back and we will pursue 
pressure and sanctions in order to change behavior and to send 
as clear an international signal as possible that Iran's 
pursuit of nuclear weapons will not be allowed.
    Now, I believe that because of the President's policy of 
engagement, we are in a much stronger position today than we 
would have been in the absence of all of our efforts. We have 
kept the so-called P5+1, which is the United Kingdom, France, 
Germany, China, Russia, and us, united until now. We have 
issued very strong statements, with both Russia and China 
signing on, endorsing this dual track approach.
    We have demonstrated to countries that are somewhat 
ambivalent, to say the least, about going against Iran what it 
is we are trying to achieve and pointing out the problems that 
Iran poses to them.
    So just in the last, you know, month, I've attended a 
London conference on Afghanistan and Pakistan but spent an 
enormous amount of time in bilateral negotiations with all of 
the major parties about Iran. I went to Saudi Arabia and Qatar 
last week. I'm on my way to Latin America next week, and Iran 
is at the top of my agenda, and in the Security Council our 
negotiations are very intensely under way.
    There's been an enormous amount of work done by the 
Treasury Department and the State Department to design 
sanctions that will be aimed at the Revolutionary Guard. I 
think we've made tremendous progress with Russia and I believe 
it is due to the President's engagement with Medvedev and our 
very clear, consistent message over this past year about the 
way we see Iran which the Russians now are endorsing.
    With China, because of their dependence on Iranian oil, our 
arguments to them are somewhat different, that because of their 
dependence, they, above all, should be supporting a sanctions 
pressure track because an arms race in the gulf that would 
further destabilize the major oil producers is not in China's 
interests and I think we've made a lot of progress.
    Now we don't come out and do a press conference every time 
we have these meetings, but I have seen over the past year the 
attitudes about Iran evolve. So even countries that are still 
not sure they want to sign up to sanctions, they're not sure 
they want to oppose them, they now understand why the United 
States views Iran's behavior as a threat.
    And, finally, Senator, I want us to work in tandem as a 
United States Government. The administration and the Congress 
together focused on what are the smartest, toughest sanctions 
that can be legislated that will assist our efforts because we 
want to make sure that we don't send wrong messages before we 
get everybody signed up to whatever we can achieve 
internationally.
    Senator Mikulski. Well, thank you very much, Madam 
Secretary. It's very clear we appreciate your personal hands-on 
robust involvement in moving this agenda forward and we salute 
you for identifying the risk of a lackluster response to Iran 
that would not only endanger our security, treasured allies', 
but also the rest of the world. So we thank you for that.
    We also want to thank you for your speech on China and the 
cyber world. Senator Bond and I are on the Intelligence 
Committee. I'm on a task force on the--on the cyber terrorism 
issue. We want to work--today, this is not the environment to 
have this conversation. A more classified one would be 
appropriate.
    But I believe that cyber terrorism, cyber intrusion is 
really one of the biggest threats facing the United States and 
the free world. If the terrorists can attack and steal our 
ideas or place our critical assets into jeopardy, it is--has 
the potency that I believe is far more dangerous than even 
nuclear and other weapons of mass destruction. So that's a 
topic for other discussion.

                                 HAITI

    But I'd like to just shift in my time left to a compassion 
issue which is Haiti. We really want to salute the 
administration and work with the Congress on our response to 
Haiti as well as President Bill Clinton's Global Initiative.
    I worry about compassion fatigue, not of our country but of 
allies, and I wonder how you see that and, number 2, what do 
you see are the future sustained efforts?
    I represent a substantial number of NGOs that are 
headquartered in Maryland, like Catholic Relief, and then 
there's another issue that I'd like you to consider and follow 
up with your staff. That is the issue of amputees.
    Secretary Clinton. Yes.
    Senator Mikulski. In all of the terrible tragedy, so much 
of the population has suffered amputation. My colleague, 
Senator Leahy, has been one of the leaders. I had the great 
honor of being with him in Mozambique where he had created a 
low-tech but highly effective industry where people who had 
been victims of land mines, children, adults, the elderly, and 
I saw where they could make their own products that could help 
them sustain themselves in a very rugged environment.
    I was so proud of what Senator Leahy did, and I really 
bring this to the attention that Senator Leahy, with his 
leadership as the Chair, your work in Haiti, that we take 
special attention to that.
    I've reached out to the Bloomberg School of Public Health. 
I have a list of people who've done this around the world where 
there are models and lessons learned, but again it was the 
Leahy leadership in Africa and your work here because what I 
fear is, after the TV cameras leave and we want to go rebuild a 
country that's 80 percent agriculture, they won't be able to do 
the work and also could that also be another source of 
employment right there in country.
    So you might not have the answer today, but I'd like to lay 
that out as a policy direction that perhaps we could pursue.
    Secretary Clinton. Could I take a little time, Mr. 
Chairman, to respond because this is----
    Senator Leahy. Sure.
    Secretary Clinton. I was smiling because I had a meeting--
--
    Senator Leahy. I should note that the Secretary, when she 
was in----
    Senator Mikulski. Are you all aware of this?
    Senator Leahy [continuing]. The Senator supported me on 
every one of these efforts to help with amputees----
    Senator Mikulski. Well, he's been the leader.
    Senator Leahy [continuing]. As has the Senator from 
Maryland.
    Secretary Clinton. Well, I was meeting with Dr. Roj Shah, 
our new USAID Administrator, telling him about this work that 
Senator Leahy has led and that so many of us supported for 
exactly the reasons that you're pointing out, Senator Mikulski.
    The amputation issue is going to be one we have to address. 
We're trying to put together a plan now and I would like to 
come back to all of you who are concerned about this to make 
sure that you know what we're doing, that we have all the 
information you have at your fingertips, the experience that 
resides here on this subcommittee, and that we have adequate 
funding to address it because I think that is a wonderful 
compassion initiative for the United States.
    But to your other point, Senator, I am very heartened by 
what I see happening in the international community. Every 
single country in the Western Hemisphere has contributed 
something to Haiti and they have made a collective commitment 
of money, plus individual countries, like Brazil and Mexico, 
that have more capacity, but even poor countries, like 
Guatemala. The Dominican Republic has been extraordinary in 
what it has done for its neighbor.
    We're having a conference that is co-hosted by the United 
States, the United Nations, and major donor countries at the 
United Nations on March 31 to really nail down these 
commitments.
    The United States is working very closely with the Haitian 
Government to stand up a development authority that will be 
supported to fulfill the reconstruction and recovery work now 
that the relief phase is ending.
    But I think this is an opportunity for us. Our military 
performed admirably and just completely eliminated any of those 
old canards about the United States military in our hemisphere. 
We had a very robust public diplomacy effort.
    Under Secretary Judith McHale, whom you know, drove this 
and we basically looked at every press coverage in the world 
about what we were doing in Haiti. If there was a story that 
was inaccurate or unfair, we immediately responded and the net 
result is that I think the United States is seen as the leader 
that we have been in doing this work.
    Senator Mikulski. Well, that's fantastic. My time is up. I 
have--I have a constituent who's in a Burmese prison and I'd 
like to talk to you. Your staff has been great, but I'd like to 
talk with you about more, perhaps other avenues for his 
release.
    Secretary Clinton. Good.
    Senator Leahy. And the Secretary's been wonderful in being 
accessible to us. I want to make sure everybody gets a chance 
before she has to leave.
    Senator Bond has been one of the hardest-working members of 
this subcommittee. I want to make sure he gets a chance to be 
heard.
    Senator Bond. Mr. Chairman and I join with you and Senator 
Gregg in issuing a very warm welcome to the Secretary back to 
the Senate and I certainly join them in applauding your 
leadership at the State Department.
    I personally am delighted with your active support of the 
concept of smart power, particularly in nations where we see 
the threat of extremist violent terrorism in Islamic lands 
threatening not only their people, our interests, their 
neighbors, but the United States, and smart power, through the 
use of diplomatic efforts, personal visits, economic 
cooperation, two-way trade, investment, and educational 
exchanges can work.
    But one of the things that I have seen as I've traveled 
around the world is the great need for more of your personnel 
on the ground and I join with Senator Gregg in supporting--and 
the chairman--in supporting your budget to rebuild our civilian 
foreign assistance capacity. That's very important.

                        ASSISTANCE TO INDONESIA

    As you may know, as you know, I'm interested in Southeast 
Asia which the 10 nations comprise our fifth largest two-way 
trading partner, equal--exports equal almost what we send to 
China, and the keystone of that whole area is Indonesia.
    I thank you for recognizing Indonesia's importance. One of 
your first official visits was ensuring that the President can 
go there. No better--no better example of our friendship, and I 
just visited with President Yudhoyono last month who was 
interested in far more United States investment and 
participation.
    And I guess the first question is does the administration 
support any conditionality at all on the foreign military 
assistance, foreign aid and foreign assistance to Indonesia?
    Secretary Clinton. Senator, thank you for those--those 
comments, and as you know, President Obama will be going to 
Indonesia----
    Senator Bond. Right.
    Secretary Clinton [continuing]. In March with his family, 
and we have been working hard with the Indonesian Government to 
be able to be in a position where we can resume support for 
vital security functions and we are looking at ensuring that 
the Indonesian democracy that has taken hold there will make 
sure that there's no resumption of any human rights abuses or 
other kinds of behaviors that we, you know, deplore.
    This is an area where Chairman Leahy has been a real 
leader. We hope to be able to come before the President's trip 
and brief you on how we would like to be able to move into a 
new era of cooperation because the Indonesians have been very 
helpful to us on counterterrorism. I think a lot of what 
they've done in their own--in dealing with their own threats 
has really been first, you know, first-rate in the sense of the 
results that they've gotten, but we just have to make sure that 
we're complying with all the legislative criteria and we think 
we can do that.
    Senator Bond. Well, Madam--Madam Secretary, I believe 
there's a new era. It's been totally changed.
    Secretary Clinton. I do.
    Senator Bond. President Yudhoyono has reformed the 
military, a former general. He stepped out of the military. 
He's working to establish--and we need much stronger 
cooperation to make sure the military leaders understand that 
they are under civilian rule. We need to fight corruption and--
and ensure continued support. They need our active support 
militarily but they need the support of private businesses and 
I--as I've visited those countries, I find that American 
business people abroad are penalized, facing double taxation.
    I visited Thailand. The American Chamber of Commerce, there 
is probably one of the best public diplomacy outreaches we 
have. They have adopted school programs. They're constructing 
playgrounds, libraries, water tanks, water filtration, helping 
children with dental deformities, but the problem is that our 
system of taxation penalizes the CEOs, so all the American 
companies that could be leading for America have to be 
Australians, Brits, or Kiwis because of our extra-territorial 
taxation.
    I just--I know that's a sensitive subject. I've been 
fighting it, but what's your view of the role that private 
American businesses' investment and participation in developing 
countries can do to strengthen our relationship?
    Secretary Clinton. Well, I believe very strongly that 
American business is critical to American interests and 
American security and prosperity.
    I met this morning with two of our leading company CEOs, 
Indra Nooyi from Pepsico and Jeff Immelt from GE, talking about 
how the State Department and our commercial diplomacy efforts 
need to be more in support of what American businesses are 
doing because the competition is so rough.
    Senator Bond. Right. And we--if we--with the double 
taxation, the punitive taxation, we penalize them putting 
American CEOs in--in charge of it.

                              AFGHANISTAN

    I have lots more questions, but on--I want to turn to 
Afghanistan. My staff met with Joann Herring, who's founded the 
Marshall Fund Charities and during Charlie Wilson's Days in the 
1980s, she was working to help the people of Afghanistan. She 
has some views on a comprehensive approach to reconstruction 
and development bringing NGOs together, and I would ask, number 
1, that you at least give a hearing to them. They would like 
USAID dollars. I hope you'll consider that.

                              AGRICULTURE

    Also, I hope that you will--that the additional funds for 
USAID will help them take agricultural experts. For 2 years, 
this subcommittee supported me in putting $5 million in the 
budget to send agriculture extension agents several years ago 
to Afghanistan. They never got one there. The Missouri National 
Guard has the Agricultural Development Team which is making a 
tremendous difference in Nangahar Province.
    I hope that there can be continued cooperation and 
providing military--military-civilian support for improving 
agriculture, teaching them not only to fish but to grow crops.
    Secretary Clinton. Well, Senator, again, I mean, you are 
singing my song here because we are absolutely committed to 
agricultural exports.
    I don't know if this subcommittee has gotten a copy of the 
Afghanistan and Pakistan Regional Stabilization Strategy. If 
not, we will get copies to you. But in the section on 
Rebuilding Afghanistan's Agricultural Sector, just a few 
highlights. Eight-ninety agricultural experts, 64 from the U.S. 
Department of Agriculture (USDA), 25 from USAID, on the ground 
in Afghanistan, working in the south and the east sectors with 
our PRTs, our district support teams.
    We've got USAID issuing vouchers to farmers in 18 
provinces, particularly in Helmand and Kandahar, for inputs 
offering, you know, better fruits, assistance with irrigation 
and the like, and, finally, we're doing a high-impact 
irrigation initiative because all of our agricultural experts 
have told us that's key.
    But there's a lot more, Senator, that I would like you to 
know about because you have been right about this for years and 
I think finally we're getting around to implementing it and we 
are looking for assistance from land grant colleges and asking, 
as well, that as we embed our civilians in with our military, 
which is how we're getting into these combat or post-combat 
zones, that we have the support that is needed to be able to 
get out there and deliver these services to farmers and we're 
doing that.
    Senator Bond. I look forward to talking with the 
appropriate staffers on your team about that because there's 
much that we can.
    Thank you.
    Secretary Clinton. Thank you.
    Senator Leahy. Thank you very much. Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman, and welcome, 
Madam Secretary. It's wonderful to see you back, and let me 
just begin by thanking you for the very admirable way that you 
have represented our country. Many of us are extremely proud. I 
know it's a very, very difficult job that you have and you do 
it very well on our behalf.
    I also want to follow up with what Senator Bond said, that 
I specifically appreciate your partnership with Secretary Gates 
to marry the hard power of our military with the smart power of 
our diplomacy over the long run. I believe that is going to pay 
huge dividends and it's been missing in the last several years 
and you have really filled the bill there.
    I also want to acknowledge, as Senator Mikulski said, thank 
you for always putting women in the forefront of this debate 
because, as you know, women can be the drivers of economic 
growth and social stability around the world. They're often 
left out at our peril because no plans really work without them 
being at the table and I think often they're left out, but with 
your leadership, they have not been.

                                ORPHANS

    In one particular area, Madam Secretary, I wanted to ask 
you some questions about something you and I have worked on for 
many years together and that is the rights of the world's 
children, particularly orphans. This has been in the news from 
day one in Haiti, but it really should be news all over the 
world because conservative estimates have about the number 
pegged at somewhere about a 163 million orphans. We don't know 
the real number. We know that there are some issues with those 
definitions. UNICEF's definition is a little bit different than 
other definitions.
    But my point is this or my question is this. Senator Inhofe 
and I and other members in a bipartisan way have introduced a 
bill called The Families for Orphans Act which is pending 
before the Foreign Relations Committee of the Senate now. This 
bill would establish in the State Department an opportunity to 
focus on the plight of orphans and to promote the simple but 
profound concept that children belong in families. They don't 
belong in institutions. They can't raise themselves on the 
streets. If we want to stop trafficking, if we want to stop 
exploitation of children, prostitution of children, the best 
thing to do would be to put them under the watchful eye and 
care of a family. So that's what our bill attempts to do.
    Could you give us your views about our efforts there, if 
you're familiar with the specific aspects of this bill, please 
comment, but what are your general views about what we could do 
to focus our efforts and the world's efforts to really connect 
orphans to families that need them or children that need 
families?
    Secretary Clinton. Well, Senator, let me start by 
acknowledging and thanking you for your passion about this. You 
and I have both worked together on this and talked over many 
years about it, but you've been the leader. You have really 
demonstrated a heartfelt commitment to the world's children in 
so many different aspects.
    I share that commitment and I am looking for the best way 
forward, how we can realize the positive results that we both 
see, because I share your conviction that, you know, the best 
place for a child is in a family and it may not be a family 
with a mother and a father, it might be grandparents, it might 
be older siblings, it might be aunts or uncles or even in some 
societies extended families, and so there are three areas that 
I think we have to focus on.
    One, there is in many parts of the world no capacity for 
absorbing orphans and no real sense of adoption or fostering in 
any organized institutional way. So I think we need to up our 
outreach to provide education, technical capacity, to help 
countries because in some countries adoption is really against 
the culture and so if they're not some blood connection, the 
child has nowhere to go, and I think there's a slow change in 
this but we have to do more in a public diplomacy outreach way 
and I'd like to work with you on that.
    Second, in times of crisis, we have to have our systems in 
place, we certainly saw that in Haiti, because there's a lot of 
misunderstanding, there's confusion in any disaster. So we're 
working on kind of a lessons learned from--from disasters, from 
conflict situations about what more can be done, and we need 
high-level advocacy.
    We have a Children's Office in the State Department. It 
would be, you know, my preference that we sort of build that up 
because I want it embedded. I don't want it to be--I don't want 
this to be an add-on. I want it to be permeate what I'm trying 
to do with women, is to permeate the Department so that women 
are part of the policy. If you're serving in Europe or Africa 
are part of the policy. If you're doing outreach in Angola, we 
are just going to try to permeate.
    I want the same attitude about children. So we need--we 
need better education, more technical capacity, more direction 
and support, and I'd like to work with you to make sure that 
what we're doing will actually have the results that we both 
seek.
    Senator Landrieu. And I appreciate that, and I thank you 
for pointing out that in many countries of the world there 
isn't the same urgency or appreciation for the strength of 
families that exists in America, but just because people can't 
appreciate that doesn't necessarily mean that it's not the 
right thing and I appreciate your commitment.
    One figure that I want to throw out today because these 
figures are hard to come by and some people throw up their 
hands and say the problem is overwhelming, we can't address it, 
but I want to leave you with these numbers. If you just took 50 
percent of the estimated orphans, Senator, Secretary Clinton, 
that would be roughly 70 million children.
    There are 2.5 billion families in the world. So if only 
2\1/2\ percent of families in the world, only 2\1/2\ percent 
opened up their homes and their hearts, there would be no 
orphans left in the world. So while these numbers seem 
overwhelming, when you put them in perspective to how many 
parents would adopt, how many families want to open up their 
homes, how many churches, synagogues and mosques are willing to 
step up, it's just the government enterprises have to get 
themselves better organized.
    So I know you're a great leader in this area. I look 
forward to working with you, and I know that your position is 
generally against institutional care and for care in families.
    So thank you very much and thank you, Mr. Chairman, for 
your leadership on this issue, as well.
    Senator Leahy. Thank you very much, Senator. We all know 
the amount of time and effort you have spent on this issue and 
I applaud you for it.
    Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman. Madam 
Secretary, I've got three areas that I'm going to mention and 
I'm hopeful that you'll be able to respond to at least one of 
them and if we don't get a second round, Mr. Chairman, I would 
hope that the people that are here would respond to them to me 
in writing.
    First of all, I want to congratulate you on putting 
together a great team. I don't know of any Secretary of State 
that's had more on their plate than you have and I do 
understand that you can't do it alone.
    I also applaud the fact that you have created two Deputy 
Secretaries, one for management and one for policy. As you 
know, I've been critical of the former administration because 
they didn't pay enough attention to management.
    I want to tell you that the most important--one of the most 
important things you've done for your people is the issue of 
location pay----
    Secretary Clinton. Yes.
    Senator Voinovich [continuing]. And I hope that that is 
reflected in this budget. The Foreign Relations Committee 
hasn't yet set out their vision, I guess, for the next 5 years, 
but that's important.
    Second of all, I'd like to say that where the Visa Waiver 
Program has worked, they have less work than they had before 
because of that program.
    And last but not least, the Embassies. I visited a couple 
of countries and they're really pleased with those Embassies 
and I think it's important to the countries because it 
indicates to them that the United States is really interested 
in them and their future.

         ASSISTANCE FOR EUROPE, EASTERN EUROPE AND CENTRAL ASIA

    Last week I was in Slovenia, Croatia, Bosnia, Macedonia, 
Kosovo, and Serbia with Senator Shaheen, and I know you're 
focused on Iraq and Iran and Afghanistan, but probably more 
than maybe some other Secretary of State, I know that you're 
interested in that region. We have spent a lot of time, a lot 
of money, and I'm concerned that if we don't pay attention to 
it, all of the progress that we have made may be--may be for 
naught.
    The good news, when I visited these countries, they didn't 
mention the FMA or IMET, but what they did mention was the 
State partnership that they have with our states. This wasn't 
in this trip but when I was in Latvia the last time, the 
Latvian group going to Afghanistan had the Michigan National 
Guard serving under it and I know that the Ohio Guard is doing 
a fantastic job in Serbia today. Just to hear their Defense 
Minister talk about that partnership, it just gives me goose 
bumps.
    Second of all, you know that their budgets are not very 
good. They've got the same problems we have, but they're 
helping us, many of them, in Afghanistan and Kosovo, and they 
care about the regions.
    It's interesting. Each of these countries, you know, 
they're concerned about themselves, but they realize they have 
a symbiotic relationship with the other countries that--that 
are there and their vision is my vision, that they all get in 
the European Union (EU), they become part of the North Atlantic 
Treaty Organization (NATO), and then become part of the 
EuroAtlantic Alliance, and a couple of things they're concerned 
about.
    One is EU membership. They know that there's fatigue today 
in the European Union and many of them were using it as an 
incentive to get them to do some things they wanted to do but 
they're afraid that they'll never in the European Union.
    Most of them were concerned about Bosnia. Put in a 
nutshell, the Butmir Process has not worked. No progress will 
be made on that, they think, and this is the consensus, till 
after the election, but what they're worried about is that in 
the election, they'll poison the well so that after the 
election, the issue of changing the Constitution to give it 
more flexibility is not going to occur and they argue 
strenuously for Bosnia getting into the European Visa Waiver 
Program and they also think it's very important that some 
indication of their getting IPMAP is--is--or MAP is going to--
is going to happen.
    And their concern is that Dodik right now and his 
president, one of the three presidents is in favor of--of NATO 
membership, but after the election, they think possibly this 
thing would just blow up and then we'll have a black hole there 
in that part of the world.
    In addition to that, they're all concerned about Kosovo 
because you know the court's going to decide one way or the 
other on Kosovo and when I talked with Prime Minister Thaci, I 
said, ``You ought to be thinking about what's going to happen 
here,'' and I talked to the Serbs. ``You've got to think about 
what's going to happen on the ground,'' and I think it's real 
important that the State Department encourage them to do that.

                              AFGHANISTAN

    The last part of this deals with--with Afghanistan. I had--
I was honored that Holbrook spent a couple hours. I went over 
there and spent--I was absolutely impressed with what they're 
doing, but I don't think that we have been candid enough with 
the American people about the commitment that we're going to 
have to make in Afghanistan if we intend to be successful.
    Now you've mentioned some of the things that you're doing, 
but this is not going to be next year or the year after. This 
is maybe 5 to 10 years. It could even be more than that if 
we're going to create an environment where the Taliban, who--
you know, it's with them, you know, it's Alakbat, okay. That's 
what you're dealing with and so you're going to have to really 
do a lot of work there to counter that and get people to feel 
good about it and you're also going to have to make--and you 
should level with the American people. Okay?
    The last time around, if you remember, we were there is 
that we did not level with the American people about the 
commitment that we're going to have to make. We're just kind 
of--and we need to put it out. This is a commitment we're going 
to have to make. The Europeans, by the way, also want to know 
about the commitment in terms of military and in terms of 
their--what do you call them--P----
    Secretary Clinton. PRTs.
    Senator Voinovich. PRTs, and I congratulate you on getting 
them all together. They don't feel like we're just telling them 
what to do. There's a consensus and you've got to keep doing 
it, but I think it's really important that--that we level with 
the American people and the world about what kind of commitment 
we're going to have to make to be successful in Afghanistan.
    And last but not least, I'm concerned about whether 
Karzai's going to do his thing and if you recall in terms of 
Iraq, we laid out a whole list of things they promised to do 
and then we used metrics to see whether or not they did them or 
not, and I would think that, rather than having it come from 
Congress, that you'd give some serious consideration to saying 
here's what they did, we're going to monitor their progress so 
that you can keep us informed and the American people that 
they're doing what they're supposed to do because if they don't 
do what they're supposed to do, we're in--we're in big trouble.

         ASSISTANCE FOR EUROPE, EASTERN EUROPE AND CENTRAL ASIA

    Secretary Clinton. Well, Senator, I don't think there's a 
thing you said that I disagree with and I thank you for your 
interest and focus on southern Europe.
    We are very concerned, as well, about the direction we see 
Bosnia heading. We need to have more attention paid. We need to 
partner with the Europeans so that they are committed. We are 
obviously a strong supporter of the countries in southern 
Europe going into the EU. We think it has a lot of benefits for 
the countries but also the broader effort for integration in 
Europe and the TransAtlantic Alliance. But we also think, with 
respect to NATO, that we have to make clear what it would take 
to get MAP and then move Bosnia forward.
    I think, you know, Senator, that your attention to these 
issues is something that I'd like to take more advantage of 
because you have been consistently concerned and involved. I 
share your wariness about what happens after the court decision 
in Kosovo and I think I'd like to follow up with you to make 
sure that we convey to our Serbian friends and our Kosovar 
friends that this has to be managed in the right way.

                              AFGHANISTAN

    And, finally on Afghanistan, I agree that we have to be as 
candid as possible. We can't lay down a clear path forward and 
say this is the way it's exactly going to be, but we can 
certainly set the general direction and we have said 
consistently that our, you know, our goal is to transition 
military security to the Afghans and we've seen some real 
progress under General McChrystal and General Caldwell in 
improvements in Afghan security, both Army and police 
recruitment and retention and performance, but we are going to 
have a long-term civilian relationship and we think we need 
that. We think that's going to be in America's interests, and I 
agree with you that we need to make that as clear as we can, 
and we want also to use the metrics that we've developed that I 
would hope have been shared with you, but if not, we will, as 
to how we're going to try to hold the Karzai Government 
accountable.
    Senator Voinovich. Thank you.
    Senator Leahy. Senator Specter.
    Senator Specter. Thank you, Mr. Chairman. Madam Secretary, 
thank you for taking on the job and the hard work and 
successful work you're doing. We miss you in the Senate but we 
like to see you where you are.

                                 SYRIA

    Thank you for the call from your Deputy Bill Burns about 
his trip to Syria.
    The question on my mind that I alerted him to this 
yesterday as to whether the stalemate might be broken between 
Syria and Israel on negotiations if the President were to 
invite them to the Oval Office.
    Back in 1995, Senator Hank Brown and I were in India and 
Prime Minister Rao brought up the subject of his interest in 
having the subcontinent nuclear-free and asked us to convey 
that message to Prime Minister Bhutto whom we saw the next day 
and we made a recommendation to President Clinton to consider 
calling them in.
    I had recalled the tremendous success that President 
Clinton had with Yassir Arafat and Shimon Peres and Rabin that 
memorable day on the White House Lawn.
    Would you give consideration to that process? I have gotten 
to know the Assads, both the father and the current president, 
and I think the right nudge could push them to the table. We 
came very close in 1995, came very close in 2000. The Turks 
have been in the process of mediating, but would you consider 
that?
    Secretary Clinton. Well, Senator, I certainly will look at 
anything that might break the stalemate. I'm not sure that that 
would be acceptable or doable to all of the parties involved, 
but certainly our goal is to help facilitate a resumption of 
talks between Israel and Syria. We think it's absolutely 
necessary for Israel's security and future to try to move the 
whole region toward a more peaceful state. So we'll certainly 
take--take any idea you have under consideration because you 
have been--I don't know how many times you've been to Syria by 
now.
    Senator Specter. Eighteen.
    Secretary Clinton. Eighteen. It's more than anybody else 
that I personally know. So we take what you say and that's why 
Under Secretary Burns called to report to you. We take what you 
say, you know, very seriously and we'll certainly consider it.
    Senator Specter. I have been concerned about the gridlock 
in Congress for many reasons, but from what I have read and 
heard, it has had an impact on our stature internationally.
    The President came on with a great promise and, I think, 
did materially change the world's view of the United States for 
a number of reasons and I think not only has President Obama 
been diminished but so has the presidency and for that matter 
so has the ability of governance by the Congress of the United 
States, very, very problem-some, and we ought to be backing up 
the President on matters that he has to deal with of such 
gigantic importance.
    I read your statement across the board, Iran and North 
Korea and the Mid East and Afghanistan and everywhere.
    May the record show an affirmative nod? We trial lawyers 
use that procedure sometimes not being sure what the answer 
will be.
    What do you--what do you think?
    Secretary Clinton. Well, Senator, I have great affection 
and admiration for the Senate. The 8 years I was privileged to 
serve here were extraordinarily meaningful to me, but 
unfortunately I have to agree with you.

                      SENATE CONFIRMATION PROCESS

    The gridlock over nominations is particularly troubling. 
We're now, you know, what, more than 1 year into a new 
administration and whether you agree or disagree with a 
particular policy, a president deserves to have the people that 
he nominates serving him and I would earnestly request the 
attention of this committee to filling the USAID appointments. 
We finally got Dr. Shah nominated and confirmed. There was no 
delay on that, and I thank you for it, but he has no team and 
we've got to get that moving as quickly as possible.
    But I--I have to confess that when it came to some 
Assistant Secretary positions, some ambassadorial positions, it 
became harder and harder to explain to countries, particularly 
countries of significance, why we had nobody in position for 
them to interact with.
    So I--I think that, as we move forward, there are many 
things to argue about and I am the strongest advocate of 
people, you know, arguing out positions in a civil way that 
hopefully sheds more, you know, light than smoke, but on the 
question of nominations, I hope that we all can move more 
quickly and particularly on the AID front and the ambassadorial 
front.
    Senator Specter. Well, I will help you with that, but, 
Madam Secretary, beyond the confirmations, is my perception 
right or wrong that what has happened on gridlock goes beyond 
that? The weakening of the President? Everybody reads the 
public opinion polls. He's not able to project the same kind of 
stature and power that he did a year ago because we're--because 
he's being hamstrung by--by the Congress and it has an impact 
on foreign policy which we really ought to do everything we can 
not to have partisanship influence.
    Secretary Clinton. Well, Senator, I think there is 
certainly a perception that I encounter in representing our 
country around the world that supports your characterization. 
People don't understand the way our system operates. They just 
don't get it, and their view is--does color whether the United 
States is in a position, not just this President but our 
country is in a position going forward to demonstrate the kind 
of unity and strength and effectiveness that I think we have to 
in this very complex and dangerous world, and, you know, we're 
always going to have differences between the executive and the 
legislative branch.
    Having served on both ends of Pennsylvania Avenue, that's 
par for the course. That's democracy. You know, we're not going 
to do anything that will undermine that, but I do think we have 
to be attuned to how the rest of the world sees the functioning 
of our Government because it's an asset. It may be an 
intangible asset but it's an asset of great importance and as 
we sell democracy and we're the lead democracy in the world, I 
want people to know that we have checks and balances, but we 
also have the capacity to move, too.
    So it is--it is a concern of mine, and I--I hope that we 
can figure out a better way to address it.
    Senator Specter. No more questions, Mr. Chairman, but a 
comment.

                                  IRAN

    On Iran, I hope you will figure out something that we can 
get the Chinese to go along with, which is tough enough, to get 
some sense out of Iran because that boiling pot is not going to 
simply boil forever.
    And the final comment is I know you've done a great deal on 
the three hikers in Iran, one of whom lives in the Philadelphia 
suburbs, Joshua Fattal, but whatever in addition can be done, 
it would be greatly appreciated in many quarters.
    Secretary Clinton. Thank you, sir.
    Senator Specter. Thank you, Madam Secretary. Thank you, Mr. 
Chairman.
    Senator Leahy. Thank you. I'm going to yield back to 
Senator Bennett, but on Iran, I'm going to leave with you and 
your staff an op-ed in the New York Times by Roger Cohen about 
what we prevent from going to Iran. One of the things he 
suggests we shouldn't be preventing is the equipment they might 
need to get on the Internet. That's kind of a layman's 
description of it.
    I would look at that especially as they're working so hard 
to block the Internet, anything we can do there which will get 
around the government's censorship would be helpful.
    Secretary Clinton. If I could, Mr. Chairman, I just want to 
respond to Mr. Cohen's column. It references a pending license 
that was held up in the Treasury Department. That has now been 
moved, perhaps there's a cause and effect there, and it is now 
in the State Department and we intend to act on it 
expeditiously.
    Senator Leahy. As the old serials on radio would say, my 
work here is done.
    Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman, and I 
join, Madam Secretary, my colleagues in welcoming you back to 
your old stomping grounds. Seeing you on the other side of the 
table is a different kind of reaction, but we're always happy 
to see you, regardless of the circumstance.
    Coming as late in the questioning as I do, I won't rehash 
many of the things that have been said by my colleagues, but I 
will not let the opportunity to mention Iran and the Iran 
Sanctions Act go unchosen. I won't have to add anything to the 
things that have been said, but I believe that's extremely 
important, whatever you can do to see to it that the Russians 
and the Chinese are helpful to us here. I won't go into 
territory about what I think may be happening with both Russia 
and China because I don't want to say anything that makes any 
particular headlines.
    But I understand from reading history that Ronald Reagan 
used to drive Mikhail Gorbachev crazy by quoting the old 
Russian aphorism ``Trust but verify,'' and Gorbachev finally 
said to Reagan in an outburst, ``You keep saying that,'' and I 
think he did keep saying that and we should keep saying that.
    So with respect to Iran and what the Russians and the 
Chinese are doing, just remember the Russian proverb that an 
American president enjoyed so much.
    So I will turn to two subjects that have not been raised, 
both of which are enthusiasms of mine that I've been involved 
with in the subcommittee while I've been on it. The first one 
is the Millennium Challenge Corporation and the second one is 
micro lending and micro enterprise.

                    MICROLENDING AND MICROENTERPRISE

    If I can start with the second first, just I'm very proud 
of the fact that as long as I've been on this subcommittee, the 
pressure for micro lending has always been strong and the 
number has always gone up and I don't think there's anything we 
can do that makes more sense in the poor parts of the world 
than encourage micro lending.
    I have some of the articles that have been produced by 
women who have received micro loans. They offered to make me a 
deal. I said no, I don't want a discount, I'll pay the full 
price for this because it's still very low and I want you to be 
as encouraged as you can.
    Would you talk to Secretary Geithner to talk about 
increasing U.S. support at the World Bank? I've talked to the 
World Bank about this and I get lots of encouraging words back, 
but I'm not sure there's been as much movement at the World 
Bank as perhaps there should be and I hope that the State 
Department will continue to be as supportive and increase as 
much as they possibly can in these budgetary times support for 
micro lending.
    Do you have a comment on that before we turn to the 
Millennium Challenge Corporation?
    Secretary Clinton. Well, Senator, I share your enthusiasm. 
I've worked in micro enterprise since 1983 in Arkansas. I 
championed it when I was First Lady and I supported programs, 
along with you and others, when I was a Senator and we are very 
focused on micro enterprise and we're also looking at some new 
ways of accomplishing the goals of the Micro Enterprise Results 
and Accountability Act of 2004.
    We are looking at how we can fund institutions more 
effectively, leverage the money, and the World Bank is a big--
has a big role in this. So I will gladly pass on your comments 
to Secretary Geithner.
    Senator Bennett. Yeah. My own experience with the World 
Bank, as I say, is they talk a good fight but they get carried 
away with, well, we can do this, we can do that, and all these 
other things with respect to financial services, and--and 
that's wonderful, but in the meantime make the loans.
    Secretary Clinton. Right.
    Senator Bennett. Don't study this thing to death----
    Secretary Clinton. Right.
    Senator Bennett [continuing]. And look at possibilities. I 
want the possibilities to come true, but in the meantime let's 
make the loans.

                    MILLENNIUM CHALLENGE CORPORATION

    All right. The Millennium Challenge Corporation (MCC), I 
met with the new CEO whom I find very impressive, and the 
concern that many of us have with respect to the Millennium 
Challenge Corporation is that the current administration might 
take steps to curb its independence and one of its values, I 
think, has been that it is an independent agency with strong 
guidance from a board of directors which you chair.
    But can it maintain its independence or is there still 
conversation about folding it into something else that would 
make it more part of the State Department bureaucracy or the 
AID bureaucracy, and the budget is the lowest request that 
we've had since it began. I'd like you to address those two 
issues.
    Secretary Clinton. Well, Senator, I do chair the board and 
I'm very, very proud and happy to do so and I have publicly 
applauded the Bush administration for both MCC and PEPFAR which 
I think were significant advances in how we think about and do 
development.
    There have been no conversations that I have been part of 
or that I'm aware of about curbing the independence of the MCC. 
I think that there are, as you know, some legislative fixes 
that need to be done so that compacts can be extended, so that 
money can be rolled over, and that the mission of the MCC 
really focused on the kind of conditions-based aid that will 
change behaviors and increase capacity can be supported more 
effectively.
    So I--I am a strong advocate of the MCC. I think actually 
some of the lessons that we have learned from the MCC are part 
of our QDDR process and will be influencing how we do aid 
elsewhere, but, you know, it won't surprise you, I'm not 
telling you anything you don't know, that there is a division 
of opinion within the Congress concerning the MCC. There are 
very strong supporters and there are very strong detractors.
    But I think that on balance the MCC has proven itself. I 
think its--its independence has been beneficial, but I do want 
it to be seen as part of our overall efforts, not that it's 
going to be in any way undermined, but that it is part of how 
we deliver aid. It's not, you know, some add-on that is stuck 
out in left field. It is something that is integral to what the 
United States Government is doing and it's a model that I 
happen to hold in high regard.
    Senator Bennett. Well, I recognize there are some strong 
supporters and some strong opponents. Put me down as a strong 
supporter, and my--my goal is--is not to fund monuments 
overseas. We go overseas and we see U.S. money going to create 
something which then isn't maintained or doesn't provide any 
long term. I want to fund movement, movements toward the kinds 
of developments that are long term and become sustaining, and I 
think the MCC has that particular vision.

    So I applaud your support and if you need any support on 
this side in this subcommittee, why, put me down as one who's 
available.
    Secretary Clinton. Well, Senator, I just want to make sure 
that the record accurately reflects, thanks to the good 
information from my team here, we're actually increasing the 
MCC budget. We have a 15 percent increase over fiscal year 
2010. We've asked for $1.279 billion. That's a $174 million 
over fiscal year 2010. So we're increasing the MCC budget by 15 
percent.
    Senator Bennett. Oh, I'll get back into that then. Thank 
you. I appreciate that.
    Secretary Clinton. If you have any questions, please call 
us.
    Senator Bennett. I will.
    Secretary Clinton. We'll walk through them with you.
    Senator Bennett. Thank you.
    Senator Leahy. Thank you, Senator Bennett. Senator 
Brownback.
    Senator Brownback. Thank you, Mr. Chairman. Thank you, 
Madam Secretary. Appreciate you being here, appreciate the way 
you represent us around the world and your high energy levels. 
I'm sure it takes every bit of it.
    Secretary Clinton. Yes, it does, Senator.
    Senator Brownback. I've got a couple of items I want to run 
through with you, all of which you're familiar with, but a 
couple really need your action.

                            INTERNET FREEDOM

    We've appropriated to the State Department I think it's $20 
million for Internet firewall, getting through the Internet 
firewall. I was at your speech that you gave on this recently 
over at the Newseum. Congressman Wolf and I wrote you about 
this in 2009. Senators Specter, Casey, Kauffman, Kyl, and I 
wrote you about this.
    We've allocated the money to the State Department but State 
Department hasn't given any of it to the Global Internet 
Freedom Consortium. This is the group I found the most 
effective in doing this. They believe they could get a capacity 
in the anti-firewall area from 1.5 million now people that can 
get through these firewalls to 50 million users a day with the 
amount of money we put forward.
    I got two letters here to you from basically Chinese 
dissident groups and Iranian dissident groups saying would you 
please allocate this money to the Global Internet Freedom 
Group?
    There's a recent Washington Post report from an unnamed 
senior administration spokesman saying the reason they're not 
going to the Global Internet Freedom Consortium is because the 
Chinese Government would ``go ballistic'' if this were done. 
These are--a number of these are Chinese dissidents that are 
operating in these firewall items but they've been very 
successful on rudimentary, no help from the U.S. Government and 
with it, they can smash through the Iranian firewall and 
probably the Chinese firewall, as well, and I just would really 
urge you to look at it.
    I'm going to give you these two letters----
    Secretary Clinton. Good. Thank you, sir.
    Senator Brownback [continuing]. From those groups because 
that's in your wheelhouse already. You've spoken about it. 
You've got the money. We need to get it to a good group.

                    DEMOCRATIC REPUBLIC OF THE CONGO

    Second, I know you've been to Congo a few months back. 
That's been a personal interest of mine and Senator Durbin's, 
as well. I think we have the chance here to defund the militias 
that are--that are really just wreaking havoc all over Eastern 
Congo but the key is the--the minerals, conflict commodities. 
It's the--it's--it's the blood diamonds issue, only got four 
commodities you're dealing with, and I think at the core of the 
issue is that--that we require companies that are going to sell 
products into the United States, they've got to have a license 
on the products, a license on the minerals coming out.
    We want you to sell the minerals, Congo. We want you to be 
able to get the income, but on an item like coltan that's in 
cellphones that Congo has 80 percent of the African coltan and 
then it comes out and these militias, this is the way they fund 
themselves is they kind of operate the concessions or let 
people come and go, and then that funds the soldiers.
    If we could just require licensing on minerals that come 
out of Congo, I really think--and this by the big companies, I 
really think it would defund the militias and much of this goes 
away, not all of it but a lot of it. In the blood diamonds case 
in West Africa, this thing mostly defunded the militias which 
is what we got to do. We got to get the money away from the 
militias and there's a bill in both the House and the Senate. 
We have companion bills in each House that would do this.
    We've worked for several years to work with the companies, 
with the government, you know, that--that this is a way that 
could do this without hurting Congo and without hurting the 
businesses. So I think we've found how to do it, but we really 
need your backing and support and I don't know of anything that 
could--could help that war-weary place and it's--it's 
probably--it's hard to say, but this probably is the worst 
suffering in the world right now, is in--is in Eastern Congo 
and it's big, it's big. I mean, it's 60 million people in 
Congo.

                                 SUDAN

    The third item is Sudan. I was pleased to see this recent 
agreement signed on Darfur. I'm going to watch and see if it--
if it actually holds, but Southern Sudan, as you know, is going 
to be voting fairly soon on whether to move out of the Union 
with Northern Sudan. They've been--you know they've had a 
conflict for a long period of time.
    I would really hope that State Department and the White 
House could start working with Southern Sudan more like a 
country and helping them get established and visible. I've 
thrown out, you know, that if the President or if you could 
meet with the leadership of Southern Sudan, the President could 
meet in the White House with them as a statement of support for 
them.
    They've got--I've been urging them, saying why don't you 
get a basketball team together and start traveling in America 
with the Southern Sudanese. They've got--you know, the Dinka 
Tribe dominated and they're very tall. They've got 10 guys, Mr. 
Chairman, over seven feet tall playing basketball in Southern 
Sudan.
    So I'm saying just show up. You may get beat up by 40 
points but everybody's going to say where did these guys come 
from and I thought--I told them, I said, ``I don't know of a 
better way to get on the view screen in America faster than 
showing up with four guys over seven feet tall playing 
basketball.''

                              MIDDLE EAST

    Anyway, just if you could work with them, I think it's 
really an important phase, and I want to finish my comments 
with you on this. This is--this is a really tough one, I know, 
but I think it's time for us to review our Embassies in Israel 
and review again with the depth of review moving it from Tel 
Aviv to Jerusalem. Long issue, old issue. I know all of the 
thorns that are around it, but it seems to me that now is a 
good time to do this, that we're starting to talk about a two-
state solution, have for a couple years.
    Another key issue is the final status of Jerusalem. This is 
a negotiation just between us and the Israeli Government. I 
think it would be a very strong statement. It's the only 
capital in the world where we don't put our Embassy in the 
capital city. It would be obviously well received by the 
Israelis. It might irritate the Iranians. I'm okay with 
irritating the Iranians right now with everything that they're 
doing. I realize it has broader impact, but I think, you know, 
these things have timings to them, as you know better than 
anybody, and I think this is ripe now for a discussion to 
begin, particularly when we've had now a couple years of 
discussion about a two-state solution.
    I think we need to be clear that we believe Jerusalem's the 
capital of Israel and we're going to--we're going to act that 
way.
    So I thank you for considering these comments and would 
love to work with you on any of them.
    Secretary Clinton. Well, we will get back to you on all of 
them, Senator, because each and every one of them is very 
important. I appreciate your concerns about them.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Leahy. The hearing record will remain open until 
Monday, March 1, for the submission of any written questions 
for the Secretary. I know we've gone beyond the time that was 
allocated for the hearing.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Patrick J. Leahy

    Question. I was surprised that the budget recommends a cut of $87 
million from the fiscal year 2010 level for aid for refugees. Given 
what we know about the pressures on this account, aren't you 
essentially forcing us to rob funds from other accounts to be sure that 
the most vulnerable people are not disproportionally hurt?
    Answer. Supporting humanitarian assistance to and the protection of 
refugees, internally displaced populations, other conflict victims, 
stateless people, and vulnerable migrants remains a top Administration 
priority. While the President's fiscal year 2011 MRA request of $1.605 
billion is lower than the fiscal year 2010 appropriated level of $1.693 
billion, it represents a 9 percent increase over the fiscal year 2010 
MRA request of $1.48 billion. To assist in meeting humanitarian 
requirements in fiscal year 2011, the Administration also requested $45 
million in the Emergency Refugee and Migration Assistance (ERMA) Fund 
to meet urgent and unexpected needs. The Administration will continue 
to monitor worldwide humanitarian needs closely.
    Question. You have requested another $25 million to support Jewish 
migrants to Israel, which is the only instance in which we carve out an 
amount of funds for a designated group of refugees. The Congress has 
consistently supported this. Would you support similar carve outs for 
other designated groups of migrants, for example, Somalis who seek 
refuge in Yemen, and if not why not?
    Answer. The Humanitarian Migrants to Israel program provides a 
critical service to Jewish migrants to Israel. While the Administration 
appreciates congressional support for this program, we would not 
support similar carve outs for other populations that we assist. The 
Migration and Refugee Assistance (MRA) account is a humanitarian 
contingency account that serves the needs of refugees and conflict 
victims worldwide. Given the fluid and ever-changing nature of 
humanitarian situations, the flexibility provided within the MRA 
account to respond to needs as they arise is critical to ensuring the 
effectiveness of this assistance.
    Question. You are requesting a $25 million cut in aid for Europe, 
Eurasia and Central Asia. These include the former Soviet republics, 
where democracy is being threatened every day. Given the importance of 
strengthening our relationships with the people of these countries, why 
does cutting these programs make sense?
    Answer. We agree with you that strengthening our relationships with 
the people of the countries of Eurasia and Central Asia is critically 
important to the people of the United States. We recognize the 
backsliding that has occurred in the establishment of democracy in 
these countries--from flawed elections to stifling of media outlets.
    We believe that the Administration's request for AEECA funding is 
appropriate and reflects the needs of this region relative to critical 
priorities in other parts of the world. The fiscal year 2011 request of 
total assistance (all accounts) for Europe, Eurasia, and Central Asia 
reflects only a 2.5 percent reduction (compared to the fiscal year 2010 
estimate). The proposed allocations for fiscal year 2011 programs in 
the democracy and governance area in the Assistance to Europe, Eurasia, 
and Central Asia (AEECA) account represent only a 2.3 percent reduction 
from the fiscal year 2010 estimate--slightly less than the overall 3.4 
percent reduction in the account as a whole.
    Though some needs in the region have increased, other areas require 
fewer resources. Some nations in the region are beginning to make real 
progress on economic and political reform. In addition, other nations 
have significant energy wealth which they are applying to support their 
own development, and which require our continued diplomatic efforts--
but not much more money--in order to try to bring human rights and 
other important issues to the fore. Thanks to prior U.S. investment 
some non-governmental organizations and legacy institutions are now a 
sustained presence supporting democratic and economic reform in many 
countries.
    Finally, past investments in building the capacity of local 
organizations have allowed us to utilize indigenous expertise for 
program implementation, thereby permitting some cost savings within the 
fiscal year 2011 level. Moreover, we are using our experience to be 
more strategic in selecting the most cost-effective interventions and 
are leveraging more sources of other USG and donor funding to 
complement our assistance. In short, we believe that the levels of 
funding in the fiscal year 2011 AEECA request will permit us to 
continue to promote the transformation of these countries into market-
based democracies respectful of human rights and committed to the rule 
of law.

                  AFGHANISTAN-PAKISTAN CIVILIAN SURGE

    Question. You are requesting an increase of $1.4 billion for the 
Economic Support Fund. The bulk is it is for Afghanistan, Pakistan, and 
Iraq, which is separate from the $1.8 billion you have requested for 
Afghanistan, $344 million for Pakistan, and $517 million for Iraq in 
the supplemental.
    I understand the motivation to increase aid to these countries 
given what is at stake, but we have seen how difficult it is to spend 
money effectively. The previous Administration wasted billions in top-
down programs, and measured results by the so-called ``burn rate''--how 
fast money was spent, often through big contractors and corrupt 
governments. You are asking for a lot more money, and that means 
spending bigger and faster. Shouldn't we spend less, go slower, work 
from the ground up--in other words, fundamentally change the way we 
spend money in these countries?
    How much are we spending through Afghanistan's central government, 
and given press reports that top Afghan officials, including President 
Karzai's family, are getting rich and buying mansions in Dubai, are 
these the people we should be working with?
    Answer. We have provided over $700 million to the Karzai government 
between fiscal year 2002-2009. We are using this assistance to build 
Afghan government capacity, which will help the Afghan government gain 
the trust of its people through the delivery services. This direct 
assistance is also transferring ownership and responsibility of our 
assistance to Afghanistan to the Afghan people.
    The Afghanistan Reconstruction Trust Fund (ARTF) is our primary 
vehicle for channeling resources through the Government of the Islamic 
Republic of Afghanistan's (GIRoA) budget. This mechanism, which we 
monitor carefully, strengthens GIRoA's capacity to prioritize, direct 
and allocate resources. The ARTF also improves aid effectiveness by 
serving as a collective platform for donor funding, reducing the need 
to deal with all donors bilaterally. The governance and fiduciary 
framework for the ARTF has strict systems in place to increase 
accountability, transparency, and safeguards to ensure proper oversight 
of U.S. taxpayer (and donor) resources.
    We review the financial management, procurement and expenditure 
systems of key ministries to help them increase their capacity to 
accept U.S. direct assistance. Assessments (financial and procurement) 
to determine Ministries' ability to account for and manage funds and 
execute services are conducted at Ministries we intend to fund with 
direct assistance. Ministries are recertified every 3 years. The USAID 
controller leads this effort.
    At the same time, we are taking a multi-pronged approach to 
tackling corruption in Afghanistan. The U.S. government, with the 
broader international community, is prepared to help the Afghan 
government implement its strategy with programs designed to: (1) 
improve the transparency and accountability of Afghan government 
institutions to reduce corrupt practices; (2) improve financial 
oversight; (3) build Afghan capacity to investigate, prosecute, 
sanction and/or remove corrupt officials from power; and, (4) help 
Afghans educate the public about efforts to reduce corruption and 
improve the resources available for the public to demand and 
participate in transparent and accountable governance. Initiatives 
already underway include the Major Crimes Task Force, the Anti-
Corruption Unit at the Attorney General's office, and new programmatic 
support for the High Office of Oversight. We are also working with the 
Afghan Parliament to ensure ethics training is part of orientation for 
new members of parliament, and oversight assistance training is 
provided for members working on the national budget.
    Strengthening the Government accountability and service delivery is 
a key component of our larger strategy for stabilizing Afghanistan. 
Along with our diverse counter corruption initiatives, our programs to 
provide qualified civilian technical advisors and put in place sound 
auditing and payment transmission systems will be an important step 
toward stemming corruption and achieving our larger national security 
goals in Afghanistan.
    Question. Talking about ground up approaches to development, you 
have probably read or at least heard of Greg Mortenson's book ``Three 
Cups of Tea'' about building schools in Pakistan and Afghanistan. His 
schools, with the support of local villagers, cost a fraction of the 
schools we build and they are not destroyed by the Taliban. His 
approach may not be the answer for everything we are trying to do, but 
what have we learned from Mortenson's experience and how are we 
applying those lessons?
    Answer. Two key components of Greg Mortensen's approach to building 
schools in Pakistan and Afghanistan are community buy-in and long term 
investment. Both concepts continue to ground USAID education 
programming in Afghanistan and Pakistan as we move forward implementing 
USG strategy in this politically strategic region. The involvement of 
the community is a critical aspect of sustainable development in the 
education sector; USAID provincial programs in education incorporate 
input of local leadership and provide support for school management 
committees and parent teacher councils. In addition to fostering 
community involvement, USAID/Afghanistan and USAID/Pakistan demonstrate 
a long-term commitment to education by building capacity of government 
agencies on the district, provincial, and Federal levels and of 
nongovernmental organizations. These combined efforts to improve access 
to, quality, and governance in education throughout both countries, 
particularly in underserved areas and those vulnerable to extremism.
    I would also like to provide you with a bit of background on 
USAID's construction of schools in both Afghanistan and Pakistan. Since 
2002, USAID, in conjunction with the Ministry of Education (MoE), has 
built or refurbished over 680 schools throughout Afghanistan, at a 
total cost of $58 million. The preferred school design of the MoE is an 
eight-classroom school. As a Government agency, USAID follows the 
direction of the host government's MoE.
    The MoE estimates that an eight-classroom primary school costs 
approximately $160,000, while the cost of high schools differs greatly 
based on their size and the equipment to be provided. Construction 
costs can vary significantly depending on a number of factors, 
including remoteness of location, difficulty of terrain, land 
availability and the security environment.
    Without knowing the particulars--including size and location--of 
Greg Mortenson's schools, it is difficult to compare construction 
costs. One of the key factors could be that Moretnson may be using 
local materials, such as mud or brick, and that the school may not be 
earthquake-resistant. Indeed, traditional Afghan construction is very 
inexpensive but does not produce the types of buildings that will last 
over time nor stand up to earthquakes. To the extent possible, USAID 
uses local materials if they meet International Building Code (IBC) 
standards, however, some traditional materials are often not long-
lasting and not of a high quality.
    As of 2008, all USAID-funded buildings must be constructed to IBC 
standards. We are not aware of any other donor in Afghanistan requires 
these higher standards, but we believe it is essential that U.S. 
Government funded buildings adhere to these international standards in 
areas that are prone to earthquakes, and so we accept the higher costs 
and longer timeframes necessary to construct high quality buildings for 
school children and their teachers.
    The cost of construction for USAID-funded schools in Pakistan 
ranges from 2,100-5,600 Pakistani Rupees per Square foot (U.S. $25-
$66). USAID-constructed schools are built to the Zone Four Earthquake 
Rating (the highest possible) and apply the internationally accepted 
Uniform Building Code.
    Question. There have been articles in the New York Times and 
Washington Post about secret prisons in North Korea. It described 
horrific conditions, where prisoners--mostly critics of the regime or 
their relatives--are worked and tortured to death. That was disturbing 
enough, but the article also said that U.S. policy is focused on the 
nuclear issue, and that human rights and specifically the treatment of 
political prisoners is not a significant part of the discussion. Is 
that correct?
    Answer. The United States remains deeply concerned about the human 
rights situation in North Korea, including its labor and political 
prison camps. Human rights are a top priority and addressing human 
rights issues will have a significant impact on the prospect for closer 
U.S.-DPRK ties.
    The State Department's annual Human Rights Report reports that an 
estimated 150,000 to 200,000 persons, many of whom die from torture, 
starvation, disease, and exposure, are held in a type of political 
prisoner camp known as the kwan li so. As noted in both the 
Department's Human Rights Report and Trafficking in Persons Report, the 
North Korean regime reportedly continues to use forced labor as part of 
an established system of political repression.
    The Department currently funds a number of programs which seek to 
increase the free flow of information into and out of North Korea, 
document human rights abuses, including those occurring in political 
prisoner camps, and build the capacity of defector-led organizations to 
protect the human rights of all North Koreans. Additionally, the 
Department of State will allocate approximately $3.5 million in fiscal 
year 2010 for programming to promote democracy, rule of law, and human 
rights in North Korea.
    We also continue to work though multilateral organizations, such as 
the U.N. Human Rights Council (HRC), and bilaterally with other 
governments, including our regional partners, to improve human rights 
in North Korea. We are currently cosponsoring a resolution at the U.N. 
HRC, which specifically censures the use of torture and political 
prisoner camps. We see human rights as an integral part of the United 
States' North Korea policy, and will raise our concerns at every 
appropriate opportunity in the Six-Party Talks framework.
    Ambassador Robert King, the Special Envoy for North Korean Human 
Rights Issues, oversees North Korean human rights issues as a part of 
the Office of the Special Representative for North Korea Policy and 
participates in all relevant discussions in accordance with 
congressional intent.
    Question. I think there is a lot of concern that despite Senator 
Mitchell's efforts, negotiations on a peace agreement between Israel 
and the Palestinians have not produced the results we had hoped for. A 
year has passed, and Israel continues to expand settlements in the West 
Bank and the Palestinians continue to fight among themselves.
    Are those of us who believe a peace agreement is necessary to the 
success of our broader foreign policy goals in the region overstating 
its importance? If real progress is not made this year, do you think we 
should rethink our approach?
    Answer. Comprehensive Middle East peace remains important to 
broader American foreign policy goals in the region. When Prime 
Minister Netanyahu and President Abbas met in Washington on September 
2, 2010 to launch direct talks, they agreed to pursue a framework 
agreement within twelve months. That remains the goal.
    Unfortunately, we have not made as much progress as we or the 
parties would have liked. We knew this effort would be difficult and 
that we would hit hurdles; and we are always assessing the merits of 
our approach and seeking ways to promote progress toward the two state 
solution in the most realistic way possible, knowing the risks and 
constraints of the environment in which we operate. Both parties have 
asked for continued U.S. engagement with the parties and that is what 
we intend. Moving forward we will engage both on the core issues of the 
conflict and with a deepened commitment to Palestinian state-building, 
and step up the American approach including by offering new ideas and 
bridging proposals as necessary.
    Question. The Administration is putting together a supplemental 
request for relief and reconstruction in Haiti. A lot of people here 
will want to support that. The American people have shown tremendous 
generosity in helping the Haitian people during this disaster, and we 
want to help Haiti rebuild--hopefully to a better place than they were 
before the earthquake.
    But money, without effective leadership, will not solve Haiti's 
problems. While the current government is an improvement over the past, 
it was barely functional before the earthquake and will be unable to 
play a leadership role for the foreseeable future. There is a need for 
effective leadership, whether by the United Nations, United States, or 
some coalition of international donors and agencies. Given the amount 
of foreign aid wasted or stolen in Haiti, any long term reconstruction 
strategy, for Congress to support it, needs to be credible. The Haitian 
Government obviously needs to be consulted and involved, but a strategy 
whose success depends on the performance of the government would not be 
credible.
    Do you agree or disagree, who is in charge of rebuilding Haiti, is 
there a strategy, and how do we avoid the mistakes of the past?
    Answer. A key guiding principle of the USG strategy in Haiti is 
that the ultimate responsibility for rebuilding the country rests in 
the hands of the sovereign nation of Haiti and the Haitian people. It 
is our responsibility to see that U.S. Government resources spent 
toward accomplishing the reconstruction of Haiti are effectively 
managed, and transparently administered with proper oversight while we 
are helping Haiti to rebuild. There are a number of proposed mechanisms 
being discussed among Government of Haiti officials, multilateral 
institutions and bilateral donors for the management of reconstruction 
resources that would entail Haitian leadership along with credible 
systems of transparency and accountability. The United States strongly 
supports the development of mechanisms for oversight and management of 
the reconstruction program that will promote the effective, transparent 
and accountable use of resources.
    Question. There have been reports that funds have been cut from 
other disaster relief programs in order to support the Haiti relief 
operation. Is this correct, are funds for Sudan or other humanitarian 
crises being cut?
    Answer. Since IDA is a contingency account used to respond to 
natural and complex disasters world-wide, its flexibility allows OFDA 
to program funds as necessary to meet emergencies. While a significant 
amount of IDA funding is being directed to respond to the devastation 
from Haiti earthquake, the impact to other OFDA programs can be 
minimized if a supplemental is approved in a timely fashion (no later 
than the third quarter of the fiscal year).
    Humanitarian needs in Haiti can be met with current IDA resources, 
but funding availabilities for other programs world-wide may be 
temporarily reduced. USAID is hopeful that the IDA account will be 
replenished by a supplemental, which will allow OFDA to restore other 
programs to originally planned levels. In the mean time, OFDA will work 
with partners to meet critical needs with currently available funding 
and avoid programming gaps.
    However it should be noted that if a supplemental does not 
materialize, or is not available until late in the fiscal year, there 
will unfortunately be major impacts to OFDA's programs world-wide.
    Question. The $1.4 billion Merida Initiative, which Congress 
funded, was to be for 3 years. But for fiscal year 2011 you are 
requesting another $292 million for Mexico for the same purposes. Is 
this part of a longer term strategy with Mexico--sort of ``Merida 
Plus'', and if so, where can we get a copy of the strategy, who was 
consulted about it, how many years is it for, how much will it cost, 
and what results do you predict if the demand for illegal drugs in the 
United States, and the flow of guns from the United States, continues?
    Answer. The Merida Initiative was announced in 2007 as a 
partnership among the governments of the United States, Mexico, and the 
countries of Central America to confront the violent national and 
transnational gangs and organized criminal and narcotics trafficking 
organizations that plague the entire region. To date, Congress has 
supported this Initiative with $1.324 billion in funding for Mexico. 
The fiscal year 2011 budget request includes $310 million for Mexico--
$292 million in INCLE, $10 million for ESF, and $8 million in FMF.
    Following extensive Department discussions, including within the 
interagency community, and especially with Congress, we have now 
broadened our focus to include the Caribbean under the Caribbean Basin 
Security Initiative, renamed our Central America efforts as ``CARSI'' 
(the Central America Regional Security Initiative), and are refocusing 
on ways to improve citizen safety--something consistently ranked high 
among societal concerns in all countries of the region.
    Beginning with the Merida Initiative and moving ``Beyond Merida'' 
in Mexico, the United States is forging strong partnerships to enhance 
citizen safety in affected areas by fighting drug trafficking, 
organized crime, corruption, illicit arms trafficking, money-
laundering, and demand for drugs on both sides of the border.
    At bilateral working group meetings leading up to the March 23rd 
Merida U.S.-Mexico High Level Consultative Group, the governments of 
the United States and Mexico agreed on new goals to broaden and deepen 
our cooperation to effect lasting change. As a result of these new 
goals, we are accelerating our efforts to support and strengthen 
democratic institutions in Mexico (especially police and judicial 
institutions) and civil society organizations. We are also expanding 
our border focus beyond interdiction of contraband to include 
facilitation of legitimate trade and travel; and we are cooperating in 
building strong communities resistant to the corrupting influence of 
organized crime. As discussed in recent briefings with congressional 
staff, future programs to increase Mexican capacity and to 
institutionalize our partnership will focus on four goals:
  --Disrupt Organized Criminal Groups.--The United States and Mexico 
        will continue to collaborate to disrupt and dismantle organized 
        criminal groups. We will do so by focusing our efforts on 
        intelligence collection and analysis, training and equipping 
        special units, enhancing investigative capacity, conducting 
        targeted work against money laundering, improving interdiction 
        capability, building effective command and control centers 
        across Mexico, and developing effective task forces.
  --Institutionalize Reforms to Sustain Rule of Law and Respect for 
        Human Rights.--The United States will partner with Mexico to 
        help institutionalize justice-sector reforms to sustain the 
        rule of law and respect for human rights. We will continue 
        large-scale institution building projects with security and 
        judicial institutions at the Federal level and expand these 
        efforts to include additional Federal agencies and to State and 
        local institutions. The goal of these efforts is to support 
        sustainable changes in the judiciary to strengthen the rule of 
        law, promote respect for human rights, and engage with civil 
        society.
  --Create a 21st Century Border.--Our goal is to create efficient, 
        economically competitive border crossings along the U.S./
        Mexican border that ensure ``secure two-way flows'' of 
        travelers and trade. We will also work to improve enforcement 
        cooperation between ports of entry. Our immediate law 
        enforcement challenge is to greatly reduce the flow of drugs to 
        the north, and guns and bulk cash to the south.
  --Build Strong and Resilient Communities.--Mexico will take the lead 
        to enhance the rule of law, promote respect for human rights, 
        and create a culture of lawfulness by targeting specific areas 
        for building community organizations, reducing demand for 
        drugs, encouraging civil society participation, creating 
        sustainable economic opportunities, and promoting community 
        cohesion and violence reduction strategies. The United States 
        will support specific, geographically focused programs that 
        advance these goals.
    The United States and Mexican governments agree in principle to 
this framework for cooperation and are working together closely to 
determine the scope of action within each programmatic area. Broadly, 
and within this context, we are moving away from equipment purchases, 
such as aviation, and into an engagement that reinforces progress by 
institutionalizing Mexican capacity to sustain the rule of law and 
respect for human rights, build more responsive and transparent 
institutions, promote full civil society participation, transform the 
nature of our borders, and provide intensive technical assistance and 
training. We will also encourage enhanced cooperation with regional 
partners, including along Mexico's southern border with Guatemala and 
Belize. The $310 million fiscal year 2011 request for Mexico, along 
with considerable GOM efforts in these areas, complements the 
comprehensive and balanced USG strategy on our side of the border to 
reduce drug demand by focusing on prevention, treatment, and 
enforcement, and expanded efforts stop illegal arms and bulk cash 
flowing south into Mexico.
    We are hopeful that we can strengthen U.S. national security by 
helping the Calderon Administration break the power of the drug 
trafficking organizations and institute lasting institutional reforms 
that will continue into future Mexican Administrations. Assistance 
under the Merida Initiative, and other regional efforts throughout the 
Hemisphere, is strategically targeted to make an impact on the need for 
improved citizen safety and security. As we move forward, we will 
continue to assess progress and the impact of our assistance. We 
especially look forward to continued and regular dialogue with Congress 
as an integral part of this ongoing review.
    Question. I and other Members of Congress, and the Administration, 
have urged the Mexican Government to conduct a credible, transparent, 
and thorough investigation of the murder of American citizen Bradley 
Will, and the 17 other Mexicans who were killed in Oaxaca in 2006. 
Instead, the Mexican Government arrested and accused an innocent man of 
killing Mr. Will, and he languished in prison until a court finally 
ordered his release. Can you assure me that you will insist that these 
cases be thoroughly and credibly investigated?
    Answer. The Department of State has and will continue to raise the 
case of the death of American citizen Bradley Will with the Government 
of Mexico. We have made it clear to the Mexican Government that we 
expect a thorough and credible investigation of all evidence by Mexican 
authorities with a view to identifying and prosecuting the individual 
or individuals responsible for this heinous act.
    On the issue of other Mexican citizens who were killed in Oaxaca in 
2006, we have raised these as part of our regular dialogue regarding 
human rights issues with the Government of Mexico.
    Question. For years, there has been talk about the need to reform 
the foreign aid budget. There has been any number of commissions, 
studies, reports and countless recommendations, all with little effect. 
This Administration has its own studies underway, at least one at the 
NSC and your Quadrennial Diplomatic and Development Review (QDDR). 
Given the strong views in Congress and the special interests with a 
stake in the status quo, what do you hope to accomplish this year to 
make foreign aid more efficient and effective?
    Over the years, USAID has seen its autonomy decrease, as it lost 
control of its budget and no longer has a policy office. Whole pieces 
of foreign aid have been shifted to the State Department or the 
Millennium Challenge Corporation. In my opinion, USAID's effectiveness 
has been weakened as a result. I will also ask USAID Administrator Shah 
this question when he testifies next month, but what steps do you plan 
to rebuild USAID and restore some of its autonomy?
    Answer. To make foreign aid more efficient and effective, State and 
USAID work closely with other agencies in the field, under the 
direction of the Chief of Mission, to coordinate our assistance 
activities. In Washington, we are taking specific steps to ensure close 
coordination. For example, under our Global Health Initiative, we are 
working collaboratively with USAID and Health and Human Services to 
review all of our associated health programs in a number of countries. 
We will enter into new long-term partnerships building on prior U.S. 
international health programs and work with our 80 partner countries to 
strengthen health systems and improve sustainable health outcomes, with 
a particular focus on women, children and newborns.
    The fiscal year 2011 request is critical to helping USAID become 
the world's premier development agency. The request includes resources 
for hiring an additional 200 officers at USAID and--under the strong 
leadership of Administrator Shah--for building a robust policy, 
planning and evaluation capacity. USAID is playing a leading role in 
the management of priority development initiatives such as working to 
improve global health and food security around the world. In each of 
these areas USAID will show that it can have impact, make tough choices 
about how resources are used to get the most bang-for-buck, and serve 
as a whole-of-government platform that invites in other partners to 
maximize efforts against specific goals and outcomes.

                             CLIMATE CHANGE

    Question. The Administration committed at Copenhagen to 
contributing a total of $1 billion over 3 years in new funds to protect 
tropical forests, improve forest management, and increase carbon 
sequestration in tropical forests. I strongly support this, and it 
builds on what this subcommittee has been doing for years to protect 
tropical forests. How do you plan to meet the $1 billion commitment by 
fiscal year 2012?
    Answer. In Copenhagen, the United States and five other developed 
countries collectively pledged $3.5 billion over the 2010-2012 periods 
for REDD+ (Reducing Emissions from Deforestation and Degradation) 
activities, with the United States pledging $1 billion as its share of 
the total. We are on a path to meet that commitment.
    The fiscal year 2010 appropriation included $233 million in 
``Sustainable Landscapes'' for forest-related climate change funding 
for State, USAID, and Treasury. This includes a ``core'' allocation of 
$153 million, as well as $80 million in USAID biodiversity funding that 
has direct climate benefits. The fiscal year 2011 request for State, 
USAID, and Treasury includes $347 million for sustainable landscapes.
    In addition to this fiscal year 2010 and 2011 ``core'' funding from 
State, USAID, and Treasury, additional USAID activities, as well as 
assistance activities by MCC and possibly other USG agencies, 
contribute to our climate change goals. We are currently reviewing 
those assistance portfolios to identify other existing or planned 
fiscal year 2010 and 2011 assistance activities that meet the REDD+ 
criteria and contribute toward our Copenhagen REDD+ pledge.
    We are confident the Administration's fiscal year 2012 budget 
request, still to be formulated, combined with the fiscal year 2010-11 
assistance mentioned above, will allow us to meet the $1 billion 
commitment.
    Question. The budget request proposes adding American Centers, 
expanding English language programs, increasing public diplomacy 
programs to Muslim-majority countries, expanding the initiative 
specifically for Pakistan, and increasing the Department's efforts with 
the Internet and other electronic media tools. This subcommittee has 
been very supportive of the Department's public diplomacy programs, 
particularly the educational and cultural exchange programs. What are 
the Department's priorities for public diplomacy programs, what gives 
you confidence that these programs are working and should be expanded, 
and how can we be sure that educational and cultural exchange programs 
will continue to grow?
    Answer. First of all, thank you and the rest of the committee 
members for your continued support of public diplomacy.
    The core mission of public diplomacy is to support the achievement 
of U.S. foreign policy goals and objectives, advance national interests 
and enhance national security by informing and influencing foreign 
publics and by expanding and strengthening the relationship between the 
people and government of the United States and citizens of the rest of 
the world.
    To that end the Under Secretary for Public Diplomacy and Public 
Affairs, Judith McHale, after an 8 month review of the current state of 
public diplomacy and public affairs, has just recently rolled out a 
strategic framework for public diplomacy. After consulting with members 
of the hill, NGOs, representatives from academia, and Public Affairs 
Officers, Under Secretary McHale found that in significant ways our 
public diplomacy was working well to advance America's interests. But 
the review also revealed a great degree of consensus about what needs 
to be changed to align it to current priorities and guide our efforts 
going forward.
    As part of this review, we identified five strategic imperatives: 
to pro-actively shape global narratives; expand and strengthen people-
to-people relationships; counter violent extremism; better inform 
policy-making; and, redeploy resources in strategic alignment with 
shifting priorities. Moving forward, we are taking steps to ensure that 
all our activities support these requirements.
    Creating or maintaining American Centers, increasing English 
language training, appropriately using Internet technology and social 
media and increased engagement in Muslim majority countries are all 
means by which we can better achieve the strategic imperatives laid out 
above.
    As noted in your question, a great deal of our public diplomacy 
efforts have been focused on Pakistan. Last summer, Under Secretary 
McHale, working closely with our Embassy in Islamabad, Special 
Representative for Afghanistan and Pakistan Richard Holbrooke, USAID 
and DOD, drafted the Pakistan Communications Plan, a copy of which will 
accompany this response.
    The Pakistan Plan has four broad goals: expand media outreach, 
counter extremist propaganda, build communications capacity, and 
strengthen people-to-people ties. Our plan links elements of 
traditional public diplomacy with innovative new tools. For instance, 
recognizing that extremist voices dominate in some of Pakistan's media 
markets, we instituted a rapid response unit and a 24-hour multilingual 
hotline for the Embassy to respond to attacks, threats, and propaganda 
from the Taliban, al Qaeda, and their sympathizers. This approach 
reversed a previous approach of not actively countering such 
propaganda. It has been an uphill battle but, as our voice gets more 
frequent play, the impact on the discourse in Pakistan's media has been 
noticeable.
    As we strengthen our people-to-people ties with Pakistanis, our aim 
has been to increase positive American presence on the ground in 
Pakistan. To do this we are focusing on more exchanges, more presence, 
more Lincoln Centers, more face-to-face meetings with engaged citizens 
in Pakistan, and more non-official contacts between Pakistanis and 
Americans in Pakistan.
    A key component of face-to-face engagement is our educational and 
cultural exchange programs for which I have every confidence that these 
programs will continue to play an increased role in the success of our 
foreign policy objectives. Exchange levels have increased significantly 
in the last couple of years and we are looking to increase that trend 
while ensuring that resources are being placed strategically and 
appropriately and that proper oversight and evaluations are being 
carried out.
    Under Secretary McHale and I agree that in this day and age it is 
critical that we engage with foreign publics like never before. It is 
the relationships built upon year after year that matter and that 
ultimately help us to better realize our foreign policy objectives.

                   EFFECTIVE OVERSIGHT OF CONTRACTORS

    Question. Over the past several years, the Department's Inspector 
General and the Special Inspectors General for Iraq and Afghanistan 
have identified systemic problems in the Department's contract 
management, including inadequate oversight of the contractor's work, 
overpayments to contractors, and delayed project completion.
    What changes, within what timeframe, is the Department implementing 
to address these problems, which are responsible for the waste of 
millions of dollars?
    Answer. The Department of State is committed to strengthening our 
contract management processes. In the last 2 years, the Office of 
Acquisitions Management (A/LM/AQM) created a strategy and established a 
business process for audits of A/LM/AQM contracts. We developed a close 
and professional working relationship with the Defense Contract Audit 
Agency (DCAA) and the Defense Contract Management Agency (DCMA) which 
are the Department's audit agencies for major programs. We also issued 
an A/LM/AQM operational policy pertaining to audit services to ensure 
staff is aware of the policy. This strategy ensures that the Department 
meets contract administration responsibilities required by the Federal 
Acquisition Regulations (FAR). During fiscal year 2009, the Department 
initiated 12 external audits of significant programs. In addition to 
financial audits, we initiated a series of business system audits to 
review contractor accounting and internal controls, billing systems, 
estimating systems, labor system controls, subcontractor systems, and 
property management systems in conjunction with audits of specific 
contracts on a pre-award and post-award basis. The Quality Assurance 
Branch works closely and successfully with contracting officers, the 
Office of Inspector General, and program offices to obtain 
documentation, provide answers to audit related questions, support 
negotiations, and reach settlement agreements.
    Since 2008, A/LM/AQM has also significantly improved our contract 
close-out process. A/LM/AQM designed an effective business process and 
formed a team of close-out specialists, trained to identify contractual 
and budget issues, perform contract analysis, and to reconcile and 
document obligations and payments. This team is developing standard 
operating procedures for all of our contract managers to follow and is 
training their colleagues in A/LM/AQM on our new business process. In 
fiscal year 2010, as of February 24, 2010, nearly 500 contracts have 
been closed out, with $16.5 million in deobligations of unliquidated 
funds.
    The Department is continuing to examine other improvements to 
contract oversight through the Quadrennial Diplomacy and Development 
Review with USAID acquisitions offices.
    Question. The fiscal year 2011 budget request includes $3.1 billion 
for Department of State operations in Pakistan, Afghanistan, and Iraq. 
This includes a significant increase in civilian staff throughout these 
countries. Given the severe security constraints on State Department 
and other U.S. Government civilians in these countries, how are you 
going to use these people effectively and at the same time ensure their 
safety?
    Answer. Achieving progress in Afghanistan, Pakistan, and Iraq will 
require continued dedication and sacrifice not only by our military 
personnel, but also by the more than 2,000 U.S. government civilians 
currently serving in those countries. While security remains a concern 
in many parts of Afghanistan, Iraq, and Pakistan, the civilian increase 
can still be used effectively, without compromising civilian safety or 
our mission. For example, the increase in Afghanistan, coordinated by 
the Office of the Special Representative for Afghanistan and Pakistan 
and the Deputy Secretary of State for Management and Resources, 
includes top experts from 10 different U.S. government departments and 
agencies. Many have previous experience in Afghanistan or Iraq. In 
Afghanistan, these experts contribute to the mission in the field, 
especially in the East and South where a majority of U.S. combat forces 
are operating and many of the additional 30,000 forces announced by 
President Obama are deploying. They work alongside our military forces 
in critical districts where ISAF is focusing its efforts in 2010, and 
partner with Afghans to enhance the capacity of national and sub-
national government while helping to rehabilitate Afghanistan's key 
economic sectors.
    In Afghanistan, U.S. civilians move into dangerous areas only after 
ISAF has completed clearing operations, which allows the Afghan 
government, U.S. civilian experts and ISAF to deliver an integrated 
package of basic services.
    Question. I held a hearing in the Judiciary Committee recently 
about the roles of State Department, the Department of Homeland 
Security, and Federal Bureau of Investigation in the Christmas Day 
bombing attempt, and what changes are needed to prevent a similar 
incident from occurring again. At that time, the Department of State 
indicated that the visa process was under review to determine what 
improvements and changes are needed.
    What is the status of the Department's efforts to improve the visa 
process, and what if any improvements are included in the fiscal year 
2011 budget request?
    Answer. We took immediate action to improve the procedures and 
content requirements for Visas Viper cable reporting that will call 
attention to the visa application and issuance information that is 
already part of the data that we share with our national security 
partners. All officers have been instructed to include complete 
information about all previous and current U.S. visa(s) when a Visas 
Viper cable is sent. This instruction includes guidance on specific 
methods to comprehensively and intensively search the database of visa 
records by conducting a wide-parameter, ``fuzzy search,'' leveraging an 
existing search capability, when searching our comprehensive repository 
of visa records in the Consular Consolidated Database (CCD). Searches 
conducted in this manner will identify visa records despite variations 
in the spelling of names as well as in dates of birth, places of birth, 
and nationality information. Visas Viper cables sent after December 
2009 contain this more complete information.
    Since the Presidentially ordered Security Review, there have been 
exigent changes in the thresholds for adding individuals to the 
Terrorist Screening Database, No Fly, and Selectee lists. The number of 
revocations has increased substantially as a result. As soon as 
information is established to support a revocation, an entry showing 
the visa revocation is added electronically to the Department of 
State's Consular Lookout and Support System (CLASS) and shared in real 
time with the DHS lookout systems used for border screening.
    The State Department has broad and flexible authority to revoke 
visas and we use that authority widely to protect our borders. Since 
2001, we have revoked more than 57,000 visas for a variety of reasons, 
including over 2,800 for suspected links to terrorism. Currently, we 
are reviewing the procedures and criteria used in the field to revoke 
visas and will issue new instructions to our officers. Revocation 
recommendations will be added as an element of reporting through the 
Visas Viper channel. We have provided additional guidance to the field 
on use of the broad authority of visa officers to deny visas on 
security and other grounds. Instruction in appropriate use of this 
authority has already been a fundamental part of officer training for 
years.
    We have been actively using this revocation authority as we perform 
internal reviews of our data against watchlist information provided by 
partner agencies. We are reviewing all previous Visas Viper submissions 
and cases that other agencies are bringing to our attention from the No 
Fly and Selectee lists, as well as other sources. In these reviews, we 
have identified cases for revocation and also confirmed that 
substantial numbers of individuals in these classes hold no visas and, 
of those few who did, a great many were revoked prior to the current 
review.
    We are implementing a new generation of visa processing systems 
that will further integrate information gathered from domestic and 
overseas activities. We have enhanced our automatic check of CLASS 
entries against the CCD as part of our ongoing process of technology 
enhancements aimed at optimizing the use of our systems to detect and 
respond to derogatory information regarding visa applicants and visa 
bearers. We are accelerating distribution to posts of an upgraded 
version of the automated search algorithm that runs the names of new 
visa applicants against the CCD to check for any prior visa records. 
This enhanced capacity is available currently at 83 overseas posts, 
with the rest to follow soon.
    We are deploying an enhanced and expanded electronic visa 
application form, which will provide more information to adjudicating 
officers and facilitate our ability to detect fraud. We are working 
with our interagency partners on the development and pilot-testing of a 
new, intelligence-based Security Advisory Opinion (SAO) system that 
will make full use of the additional application data.
    The fiscal year 2011 budget for Consular Affairs includes 
significant resources to fund ongoing and new activities for the Visa 
Office. All activities will be funded with fee revenues included in the 
new schedule of fees. These activities include: Global Visa System 
creation, advanced biometric search capabilities, datasharing with 
relevant agencies and other advancements.
    Question. Do you think that adding Department of Homeland Security 
Visa Security Units at overseas embassies would improve the security of 
the consular visa issuance process?
    Answer. The Department of State has a close and productive 
partnership with the Department of Homeland Security (DHS), including 
the Visa Security Program (VSP) of Immigration and Customs Enforcement 
(ICE). Over the past 7 years both agencies have increased resources 
significantly, improved procedures and upgraded systems devoted to 
supporting the visa function. We support the assignment of Visa 
Security Officers to selected overseas posts where they work together 
with Consular Officers and Assistant Regional Security Officer-
Investigators (ARSO-I) to advance the nation's border security 
initiatives in the following areas: extending the border overseas; 
capitalizing on the visa process to identify national security threats; 
identifying unknown threats; sharing information and conducting liaison 
activities; providing training and advice; and investigating terrorism, 
human trafficking, alien smuggling, marriage fraud.
    We work closely with the ICE Visa Security Units (VSUs) established 
abroad and with domestically based Visa Security Program supporting 
those units. VSUs currently operate at 14 visa adjudicating posts in 12 
countries. Since January 19, 2010, we have received requests from ICE 
to open four additional VSUs and to augment staff at two existing VSUs. 
The Chiefs of Mission have approved the four new VSUs and one request 
for expansion with one request for expansion pending.
    Question. An article in the February 23rd Washington Post describes 
problems in moving forward with the planned Security Training Facility 
in Maryland. The most troubling issues mentioned in the article include 
missteps by Federal officials, poor communication with the local 
communities affected by the Training Facility operations, and the State 
Department's acknowledgement that there hasn't been adequate analysis 
on whether building a single facility is more cost-effective than the 
current leasing of various different sites.
    The article also questions the economic impact of the project for 
the local community and States that the Department acknowledges that 
there may be delays due to the public opposition and possible legal 
challenges.
    What is the State Department doing to address these problems and 
have you determined whether building a single facility is the most 
cost-effective approach to providing security training to its 
employees? If not, shouldn't that have been done well before this 
point?
    Answer. The Department of State (DoS) and General Services 
Administration (GSA) recognize and understand the concerns of Queen 
Anne's County residents regarding this proposed project. It is our goal 
to work in conjunction with the citizens of this community to ensure 
that the proposed facility benefits the surrounding area and any 
adverse impacts are minimal.
    To that end, project overview and public scoping meetings were held 
in early January, marking the beginning of the public participation 
process. Additional public meetings were conducted on February 16 and 
February 23, and the public comment period was extended from January 
15, 2010 until March 12, 2010. In those meetings, we shared the 
evaluation criteria guiding the selection of a preferred site, provided 
general background information about the purpose and need of the 
project, and requested feedback from local residents and community 
groups about what issues should be studied and what areas may need to 
receive a greater level of attention during the National Environmental 
Policy Act (NEPA) process.
    The NEPA process is the tool by which the public is invited to 
comment and identify impacts that they believe may result from the 
proposed development. The comments will be part of the NEPA analysis 
that will be published in the draft Environmental Assessment (EA). Upon 
publication of the EA, the public will have another opportunity to 
participate in a 30-day comment period. The findings will be used to 
modify the plans and operations for the facility to avoid or mitigate 
any impact. Development of the site cannot, and will not, begin until 
the NEPA process is completed.
    Additionally, the DoS and GSA accepted numerous invitations from 
local organizations and community groups for open discussions, and are 
also working to establish community liaison positions that will 
strengthen the dialogue with the local community and continue it on a 
more regular basis. We also invited the public to submit feedback on 
the proposed training center at any time, by calling the dedicated 
phone line at (215) 446-4815 or emailing F<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="73322027305d1a1d151c331400125d141c055d">[email&#160;protected]</a>
    According to a 2007 DoS Office of the Inspector General report, the 
Bureau of Diplomatic Security's (DS) training facilities are not 
adequate to accommodate the Bureau's training. The dispersal of 
instructors and students among different facilities throughout the 
greater Washington, DC, metropolitan and surrounding areas is a barrier 
to effective team building, communication, and operational efficiency. 
The operating cost to conduct training at the current patchwork of 19 
facilities exceeds $19 million annually. Students and instructors 
shuttle between facilities that extend from West Virginia to the 
Maryland suburbs at a significant productivity cost to employees. 
Several off-site annexes used for training are sub-standard facilities.
    The Department, over a 15-year period, has pursued possible 
locations for a consolidated training facility in Maryland, Virginia, 
and Washington, DC. DS collaborated extensively with other agencies 
(Drug Enforcement Agency, Customs and Border Protection, Federal Law 
Enforcement Training Center, Federal Bureau of Investigation, 
Department of Defense and others) to discuss facility sharing and 
opportunities for co-location. During this process, DS learned that 
these agencies were training at maximum capacity, and could not offer 
exclusive scheduling opportunities. Furthermore, they could not 
accommodate our highly specialized programs or our diverse and 
voluminous student population (Foreign Service Officers, Foreign 
Service Nationals, etc.) and unique curriculum (i.e., aggressive 
driving/ambush/kidnap scenarios, weapons of mass destruction and 
medical courses, explosives, heavy firearms, etc.).
    DS also vigorously explored expanding existing facilities. DS 
concluded that existing facilities have been expanded to capacity and 
unable to meet the demands of an increase in Foreign Service and other 
personnel who will serve in high/critical threat environments based on 
an expected augmentation of U.S. foreign affairs reconstruction and 
stabilization efforts in failing or transitioning states/regions.
    Question. Were existing sites, including local military facilities 
with excess space capacity, considered and evaluated as part of the 
decisionmaking process? If so, which sites were considered and what 
were the reasons for deciding to instead build a new site? If existing 
sites were not considered, why not?
    Answer. The Bureau of Diplomatic Security (DS) has been pursuing 
space for a consolidated training facility for more than 15 years. This 
search has included seeking available land for purchase or exclusive 
use from other Federal agencies, operating military bases, and military 
bases scheduled to close as a result of the 2005 Base Realignment and 
Closure (BRAC) recommendations, as well as facility sharing and 
opportunities for co-location. Other agencies with whom DoS has 
approached over the years to share their facilities include the Drug 
Enforcement Administration, Customs and Border Protection, the Federal 
Law Enforcement Training Center, Federal Bureau of Investigation, 
Department of Defense, and others.
    In addition to seeking new land, DS also vigorously explored 
expansion of existing facilities, but concluded that those facilities 
are already at full capacity. Over the past several years, some of the 
following Federal/military/or commercial facilities have been 
investigated as potential sites for a consolidated DS hard skills 
training center:
  --Camp Dawson, WV;
  --National Conservation Training Center, WV;
  --Summit Point Raceway Associates, WV (Privately owned land-lease 
        with DoS-owned buildings);
  --Aberdeen Proving Ground, MD;
  --Agricultural Research Center, Beltsville, MD;
  --Indian Head Naval Surface Weapons Center, MD;
  --Fort AP Hill, VA;
  --Quantico Marine Base, VA;
  --Federal Law Enforcement Training Center, Cheltenham, MD;
  --Fort Pickett, VA; and
  --U.S. Army Research Facility, Blossom Point, MD.
    None of the agencies or locations listed above were able to 
accommodate the highly specialized programs (i.e., driving tracks, 
firing ranges and mock-urban environments), student populations 
(Foreign Service Officers, Locally Employed Staff, etc.), and 
relatively unique curriculum and mission needs of DS.
    Therefore, during the summer of 2009, a search for other available 
land was initiated by the General Services Administration (GSA), Region 
3/Philadelphia, on behalf of the Department. Following a search of 
declared excess Federal property and commercially listed private lands, 
both GSA and the Department concurred additional site options were 
needed. GSA posted an announcement seeking interested parties on the 
Federal Business Opportunities website (www.fbo.gov) on June 29, 2009.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye

    Question. Madame Secretary, as briefly mentioned, Hawaii will have 
the great honor of hosting the Asian-Pacific Economic Cooperation 
(APEC) 2011 Leader's Meeting. My constituents have expressed some 
concerns about anticipated security-related expenses that will be 
associated with this event. It is my understanding that last year's 
Group of Twenty Summit, which was hosted by Pittsburgh, Pennsylvania, 
resulted in cost overruns incurred by the State and local governments. 
The APEC 2011 Leader's Meeting will be quite an undertaking, and it is 
my hope that the State of Hawaii can look forward to the full 
cooperation of the Department of State and all the other coordinating 
Federal agencies. Would you please speak to the interagency 
cooperation, coordination, and cost-sharing anticipated between the 
various Federal agencies and Hawaii's local government?
    Answer. The Department of State is the lead coordinating agency for 
U.S. participation in the Asia Pacific Economic Cooperation forum 
(APEC), and will work with a strong interagency team to arrange the 
hosting of APEC in 2011. Of the $89 million anticipated spending by 
State in fiscal year 2011, we expect that over one-half will be spent 
in Hawaii. The majority of the APEC 2011 meetings will take place 
during fiscal year 2011, and much of the Hawaii costs will also be 
incurred in fiscal year 2011. However, Leaders Week security costs will 
fall in the fiscal year 2012 budget period. Diplomatic Security 
officers have briefed officials in Hawaii on obtaining National 
Security Special Event Status and have requested that Hawaii prepare a 
budget of anticipated costs. Governor Lingle has also discussed the 
matter with Secretary Napolitano, and the Departments of State and 
Homeland Security will coordinate closely in this matter. The State 
Department looks forward to working closely with Congress, the 
interagency team and officials in Hawaii to ensure successful meetings 
in 2011.
    Question. The East-West Center was created by Congress 50 years ago 
to promote the relationship between the United States and its neighbors 
throughout and across the Pacific Ocean. I appreciate the support the 
Department has expressed for public diplomacy, and a commitment to 
promoting the concept of citizen diplomacy. These are key concepts 
promoted by the East-West Center and facilitated by its exchanges and 
educational programs. The Center is a key stakeholder and participant 
planning and preparing for the APEC 2011 Leader's Meeting. As the 
Center looks forward to its next 50 years, how do you see the Center's 
extensive alumni network throughout Asia and the Pacific region, 
exchange programs, capacities, and partnerships complementing efforts 
by the Department, and how might its tremendous resources be further 
utilized?
    Answer. The Department of State greatly values the East-West 
Center's achievements in strengthening relationships between the United 
States and the Asia-Pacific region, and in addressing global issues. 
The Center is providing important support to our efforts to prepare for 
the United States' hosting of APEC in 2011, particularly preparations 
for the 2011 APEC Economic Leaders' Meeting.
    For 50 years, the East-West Center has played a vital part in 
bridging cultural, educational, political, economic and social 
distances between the United States and the Asia-Pacific region. I 
appreciated the opportunity to speak at the Center as part of its 
anniversary celebrations, and to engage with students who will be among 
the next generation of leaders in promoting stronger U.S.-Asia-Pacific 
relations.
    The East-West Center has served as an important forum for meetings 
between senior U.S. officials and leaders from the Asia-Pacific region, 
including the Heads of State of many Pacific islands nations. It also 
brings together journalists, security experts, educators and other 
professionals in many fields that are important to our relationship. 
Its 58,000 alumni, organized into 50 chapters, form a significant 
international network of influence, and our Embassies help to support 
the efforts of these alumni overseas.
    As the United States further develops our partnerships in the Asia-
Pacific region, the East-West Center offers a unique venue and 
expertise to foster cooperation and encourage the sharing of ideas. The 
Center's efforts to promote broader systemic and globalized thinking in 
the Asia-Pacific region helps build a common understanding of issues 
and values among publics and professionals, facilitating the State 
Department's work. We anticipate that the Center will become an even 
more valuable part of the overall U.S. public diplomacy effort in East, 
South, and Southeast Asia and the Pacific in the coming years, and we 
look forward to continued collaboration with this important 
institution.
    Question. The Asia-Pacific region continues to gain more attention 
in the media, whether due to economic, trade, or security matters. With 
the benefit of having a year in your position as the Secretary, I am 
curious how you see the U.S. role in the region growing, adapting, and 
changing in the next few years?
    Answer. The United States' revitalized relationship with the Asia-
Pacific region will continue to grow in the next few years. We have a 
strong interest in continuing our economic and strategic leadership, 
and Asia has a strong interest in the United States remaining a dynamic 
economic partner and a stabilizing influence.
    We will remain a resident power in the region contributing to the 
stability that makes economic progress possible. Our economies will 
remain inextricably linked. American companies export $320 billion in 
goods and services to the Asia-Pacific region every year, creating 
millions of jobs. We will continue to work through APEC with other 
regional economies to foster free and open trade and investment and 
growth that is more inclusive, balanced, and secure.
    We will enhance our partnerships with our friends in the Asia-
Pacific region to meet global security and humanitarian needs. We will 
continue to work together to help prevent nuclear proliferation, 
support our common interests in Afghanistan, combat piracy off the Horn 
of Africa and more.
    Our people-to-people links will continue to grow with more than 13 
million Americans tracing their ancestry to that part of the world. 
Hundreds of thousands of students from the Asia-Pacific region study in 
the United States, and the number of American students is increasing at 
universities in Asia.
    The next few years will present the possibility for greater 
regional cooperation. We are building the architecture to meet the 
challenges faced by the region. Our alliance relationships with Japan, 
South Korea, Australia, Thailand, and the Philippines are among the 
most successful bilateral partnerships in modern history and will 
remain the cornerstone of our regional involvement. We are building 
toward launching a Comprehensive Partnership with Indonesia and will 
continue to strengthen relationships with other key players, including 
China. We are also exploring strengthened multilateral cooperation 
across the region.
    Question. Last April I shared with you my concerns regarding the 
Western and Central Pacific Fisheries Commission (WCPFC) and 
specifically, the importance of bigeye tuna (BET) to Hawaii's economy.
    The Hawaii longline fleet has been under limited entry regulation 
for 15 years while other nations (including China and Taiwan) have 
increased their number of boats by 50 percent and increased their 
fishing exponentially by entering into multiple charter agreements with 
other nations--which are not closely tracked. The WCPFC established a 
BET quota of 4,200 metric tons for the U.S. longline fleet for 2006-
2008. For 2009-2011 that quota was reduced to 3,750 metric tons. The 
purse seine industry in the United States also catches BET, often 
taking more as unwanted bycatch than the longline industry takes as a 
target species.
    Our longline industry has informed us repeatedly about the 
challenges associated with operating within this quota, particularly in 
light of the fact that China and Taiwan do not appear to be honoring 
the quota limits. To that end, the fishermen in Hawaii have taken the 
initiative to map out potential charter agreements with Guam, American 
Samoa, and the Commonwealth of the Northern Mariana Islands in order to 
legally take additional catch and ensure a steady supply to the 
American market. However, the WCPFC has not adopted mutually agreed 
upon parameters for charter agreements, and there is currently no 
governing mechanism for how they are entered into or agreed upon, which 
is something we encourage the WCPFC to take up at future meetings.
    Our challenges are twofold: How do we secure meaningful enforcement 
measures to ensure that all WCPFC signatories abide by their quota 
while supporting the efforts of our domestic industry to provide a high 
quality, reliable supply of fresh seafood to the American market? Even 
though the Regional Fishery Management Organizations such as the WCPFC 
focus on international issues, I urge State to work with the National 
Oceanic and Atmospheric Administration to take into account the effect 
of international negotiations on domestic industry. How can State 
assist with moving this forward?
    Answer. The Department of State works closely with NOAA on issues 
related to the Western and Central Pacific Fisheries Commission 
(WCPFC). Both agencies take seriously the responsibility of making 
decisions that affect U.S. economic interests, and our negotiators work 
diligently to balance those interests with the conservation imperatives 
and priorities in the most equitable manner possible. In particular, in 
recognition of the special circumstances surrounding the operation of 
the Hawaii-based U.S. longline fleet, our negotiators, on two separate 
occasions, fought for and secured special accommodations for that 
sector of the industry, which were described in detail in a May 4, 2009 
letter to you from Assistant Secretary Verma. Together, these 
provisions ensure that reductions in the quota for the U.S. Hawaii-
based fleet are significantly less than the cuts faced by the fleets of 
other developed States.
    Even so, we fully recognize the challenge in working to ensure that 
all WCPFC participants abide by the quotas for bigeye tuna pursuant to 
WCPFC Conservation and Management Measure 2008-01. At this time, we 
have no evidence to indicate or to suggest that other WCPFC members, 
including those mentioned in your question, are exceeding their 
established quotas. At the same time, we recognize that the process for 
monitoring of catches and collection of information is still under 
development and the information available to us to assess the current 
situation is imperfect. A large part of our response to the challenges 
you have identified must be to continue to strengthen the programs 
within the WCPFC for monitoring, control and surveillance of fishing 
activities to ensure a greater level of transparency in fishing 
operations in the region.
    The WCPFC took an important step in this direction at its December 
2009 meeting with the adoption of a measure to monitor and regulate the 
transshipment of fish caught in the WCPFC Convention Area. Under this 
measure, all transshipments of fish by longline vessels will be 
observed and recorded by an observer on board either the fishing vessel 
or the carrier vessel receiving the fish. (Similar provisions apply to 
other fleets.) In our view, this measure closes a significant gap in 
our ability to monitor catches and ensure compliance with agreed 
measures. Unreported transshipment of fish is one way that vessels can 
avoid having catches counted against their national quotas. We will 
also continue to push for higher levels of observer coverage on foreign 
longline fleets, recognizing the U.S. fleet operates with the highest 
level of coverage of any fleet in the region.
    The issue of charter operations is one that we are considering 
carefully. Under certain circumstances, charter operations can provide 
an effective and legitimate means for small island developing States 
and territories to develop their domestic fisheries without incurring 
large capital expenditures. At the same time, we are concerned that, 
without clear rules and guidance on the nature and extent of allowable 
charter operations, such operations could allow some fishing States to 
increase their catches without having that catch count against their 
national quota, but instead against the quota of a small island 
developing State or territory, with little direct link to the 
development of the domestic fishery in the State or territory in 
question. Under this latter scenario, the catch limits for some distant 
water fishing nations would have little meaning and the conservation 
benefits of CMM 2008-01 would be significantly diminished.
    Finally, another way to address concerns about the status of bigeye 
tuna, is to explore ways to reduce catches of juvenile bigeye tuna in 
the tuna purse seine fishery, especially the fishery associated with 
fish aggregating devices or ``FADs.'' At present, different groups are 
exploring various options with respect to the development of different 
fishing gear and techniques to reduce catches of juvenile bigeye tuna. 
WCPFC members are looking to the United States for leadership in this 
endeavor. In our view, although this work is expensive and would 
require a multi-year funding commitment, the United States should seek 
to join these ongoing efforts and contribute to them in a material way.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

    Question. Madame Secretary, as you are aware, on April 1, 2008, the 
Hague Convention on Intercountry Adoption went into full force in the 
United States. Since that time, the number of intercountry adoptions 
has decreased dramatically from over 22,000 in 2004 to just over 13,000 
last year. For the most part, this is because countries of origin have 
shut adoption processes down due to concerns of fraud and abuse. It has 
been my experience that governments in these countries are both willing 
and wanting to receive guidance from the United States in building a 
system of intercountry adoption that is both safe and effective. What 
is the State Department currently doing to meet this need?
    Answer. The reasons for the decline in numbers of intercountry 
adoptions vary from country to country. The United States is only one 
of several receiving countries experiencing such a trend. However, 
since the United States adopts on a greater scale than all other 
countries, the decline in raw numbers is larger. The majority of 
intercountry adoptions into the United State occur from a handful of 
countries of origin. When those few countries of origin alter their 
intercountry adoption practices and requirements, the impact on our 
overall numbers is disproportionately large.
    Over 70 percent of the reduction in fiscal year 2009 was in the 
number of children adopted from Guatemala, where the Guatemalan 
National Council on Adoption announced in September 2008, that it would 
not accept any additional adoption cases, because, among other things, 
the Government of Guatemala has not yet met its obligations under the 
Hague Convention on Intercountry Adoption (the Convention) and has not 
yet put into place the required safeguards. This year, due to our 
strong interest in encouraging Guatemala's efforts to reform its 
adoption system, and pending a determination about whether the program 
is consistent with Convention standards, the United States has asked to 
participate in a limited 2 year Guatemalan pilot program to allow for 
the adoption of a number of special needs children.
    Nearly 20 percent of the fiscal year 2009 reduction in intercountry 
adoptions was from China, which is making fewer children eligible for 
intercountry adoption, while the numbers of prospective adoptive 
parents from traditional receiving countries has been increasing. As a 
result the wait time for healthy young children is increasing. However, 
the wait time for older children and those with special needs remains 
low. Russia and Vietnam also registered notable declines. The 
Department remains in close contact with the governments of Russia and 
Vietnam on adoption matters.
    The United States takes a multi-faceted approach in working with 
other countries on adoption issues. The Convention is an important tool 
in helping the United States promote intercountry adoption practices 
that focus on the best interests of each child. The accreditation 
process for adoption service providers who wish to operate in 
Convention countries establishes clear, strong, enforceable standards. 
Although the accreditation process is only a few years old, it is our 
judgment that U.S. efforts in accreditation have ``raised the 
performance bar,'' and helped to improve the standard for services 
provided in non-Convention as well as Convention adoptions.
    As the U.S. Central Authority for the Convention, the Department of 
State encourages and supports implementation of best practices in child 
protection and welfare in order to achieve Convention goals of 
incorporating intercountry adoption in an integrated child protection 
and child care system. As a matter of policy, we take every opportunity 
to encourage all countries to take the necessary steps toward joining 
and properly implementing the Convention. For example, the Kyrgyz 
Republic, which is not party to the Convention, halted intercountry 
adoptions in 2008 over concerns of corruption and fraud in the adoption 
process. The Department has engaged the Kyrgyz government at the 
highest levels on numerous occasions to encourage the strengthening of 
safeguards in the adoption process and accession to the Convention. In 
addition to these efforts, we have advanced the issue through outreach 
programs that included sending a U.S. adoption expert to the Kyrgyz 
Republic last year, and sponsoring an adoption-themed study tour to the 
United States for senior Kyrgyz officials.
    Another country not party to the Convention is Vietnam. Adoptions 
from Vietnam were suspended in 2008. However, the United States remains 
in frequent contact with the government of Vietnam on adoption matters. 
Discussions have focused on the broad range of child welfare 
responsibilities encompassed by the Hague Adoption Convention, the 
principles underlying the Convention, and the practical requirements 
for implementing procedures that the Convention requires.
    Cambodia is a member of the Hague Adoption Convention, but due to 
fraud, irregularities, and an insufficient legal framework to provide 
safeguards for the protection of children, the former Immigration and 
Naturalization Service (INS) suspended adoptions from Cambodia on 
December 21, 2001. Despite accession to the Convention in 2007, the 
Royal Government of Cambodia (RGC) has been unable to implement Hague-
compliant procedures necessary to meet its treaty obligations. Working 
in cooperation with the Hague Permanent Bureau (HPB), as well as with 
several receiving countries, the United States has sought to provide 
assistance for Cambodia's establishment of implementing legislation 
necessary for an ethical and transparent adoption program that meets 
Convention standards. The United States has supported efforts by the 
HPB and joined a receiving country Working Group comprised of 
Convention states to provide coordinated input on Hague law and 
procedures to the RGC. The United States also supports UNICEF's 
continuing work with the RGC to implement law, as well as improve and 
strengthen the child welfare system in Cambodia. As part of a multi-
country assistance grant to UNICEF, the USAID Displaced Orphan's and 
Children's Fund (DCOF) is providing approximately $1 million for this 
purpose.
    Finally, the United States supports the work of the Hague Permanent 
Bureau as it responds to inquiries from countries on intercountry 
adoption issues. The Department has an ongoing and active record of 
sponsoring and participating in the work of the Hague Conference on 
Private International Law's Inter-Country Adoption Training and 
Technical Assistance Program (ICATAP). Created in 2007, ICATAP provides 
assistance directly to governments that are planning to ratify or 
accede to the Convention, or have already done so but are experiencing 
difficulties with implementation. The United States contributed 
$200,000 in 2008 to the Hague Permanent Bureau's Supplementary Budget, 
which funds ICATAP and other child welfare programs.
    Question. As you know, one of the founding principles of the Hague 
is that children are best served in a family. Under what is called its 
principle of subsidiarity, convention countries agree to pursue family 
reunification and domestic adoption before allowing a child to be 
adopted by a family in another country. Convention countries also agree 
that institutionalization and long term foster care are not considered 
permanent and should therefore not be used as long term solutions. 
Madam Secretary, I am concerned that while it appears to be U.S. policy 
that intercountry adoption should take precedence over long term foster 
care and institutions, our practice appears to be quite the opposite.
    Can you confirm that it is in fact the U.S. policy that long term 
foster care and institutionalization are not long term solutions and 
should therefore not be given preference over intercountry adoption?
    Answer. Yes, that core Convention principle reflects our policy as 
well. In situations where children will not be reunited with their 
families, permanency planning should be undertaken as quickly as 
possible. Long-term foster care or institutionalization is not in the 
best interests of children. The principle of subsidiarity as expressed 
in the Convention stands for the principle that national adoption be 
given precedence over intercountry adoption. However, the practice of 
stopping intercountry adoptions pending the development of a viable 
national adoption system or enactment of long-term child care reform, 
in most cases runs contrary to the core ``best interests of the child'' 
principle of the Convention.
    Question. As you know, one of the many challenges in addressing the 
needs of orphan children in Haiti is the lack of a universally accepted 
definition of what is an orphan. In fact, the often cited estimate that 
there were 380,000 orphans in Haiti prior to the earthquake include 
children who had one living parent and/or extended family. What can the 
United States do to assist the Government of Haiti in developing the 
data necessary to better understand what children's precise needs are?
    Answer. The United States is actively assisting the development of 
the data necessary to better understand children's precise needs by 
providing expert technical assistance to the U.S. mission child 
protection team, technical assistance and transport for GOH/UNICEF 
assessments of the needs of children in hundreds of orphanages in the 
Port au Prince area, and by supporting nationally representative 
surveys such as periodic Demographic and Health Surveys (DHS) and a 
recent survey of child trafficking, restaveks, and child victims of 
violence.
    The figure of 380,000 is the UNICEF estimate of the number of 
children under 18, before the earthquake, who had lost one or both 
parents. Of this number, 330,000 children had lost one parent and 
50,000 had lost both parents. The great majority of these children were 
living with the surviving parent (if a single orphan) or with extended 
family members, usually a grandparent or aunt or uncle.
    Prior to the earthquake, only 67 of an estimated 600 residential 
care centers (referred to as ``orphanages,'' though many of the 
children have one or both parents living) had been registered with the 
Government of Haiti (GoH). Because a majority of these centers were 
unregistered, there is little official data or statistics on children 
living in these conditions. Approximately 300 of these centers were 
located in Port-au-Prince and the surrounding earthquake-affected area.
    The USG is supporting the GoH and UNICEF to map and build a 
database of children's residential care centers to facilitate stronger 
oversight through registration and monitoring in the future. As of 
March 1st, the UNICEF-led Child Protection Sub-cluster (CPSC) had 
completed assessments in 280 residential care centers. More than 17,000 
children were residing in 205 of the assessed centers. The remaining 
assessed centers were found to be no longer hosting children.
    With USAID support, Haiti carried out Demographic and Health 
Surveys in 1994-1995, 2000, and 2005-2006. The 2005/6 survey included 
information for children under 18 about whether the parents are alive, 
whether the children live with their parents and the relationship to 
other members of the household. The United States can assist the 
Government of Haiti to conduct another such survey as soon as possible, 
preferably with additional questions about the changes in these 
relationships following the earthquake. If possible, the survey should 
be accompanied by special data collection on children who live in 
residential care centers.
    Question. The UNHCR stipulates 2 years as a ``reasonable period'' 
for the tracing of and reunification with parents or other surviving 
family members. Understanding the detrimental effects of prolonged 
institutionalization, particularly for children ages 0 to 5, what is 
the United States plan for ensuring that children are not placed in 
institutions for significant portions of those 2 years?
    Answer. The duration of the tracing process varies per child and is 
largely influenced by prospects for success, as well as the age and 
specific needs of the child and the circumstances of the child's 
interim care placement. It is the USG's view that it would be 
inappropriate to mandate 2 years of tracing before decisions about 
long-term placement and care are made, particularly for young children. 
With adequate resources, we believe that the GOH capacity could be 
developed so that, when a child is identified as currently not living 
with a family, a ``best interests of the child'' determination (BID) 
could be made for each child. Once a BID is completed, then placement 
decisions about short and long-term care could be made concurrently.
    The following are priorities that USAID aims to address for child 
protection in Haiti:
  --Assist reunited families to remain intact and viable through social 
        and economic support;
  --Reduce the number of children abandoned (as measured by new 
        admissions to orphanages);
  --Increase the number of children in family-based interim and long-
        term care in communities (e.g. family reunification, kinship 
        care, foster care, small group homes, supervised independent 
        living for older children, adoption);
  --Reduce the number of children living in orphanages; and, improve 
        the quality of care for children living in orphanages awaiting 
        a family placement; and
  --Strengthen the capacity of the Government of Haiti to build and 
        lead a national child protection program based on international 
        standards, robust monitoring and evaluation, an expanded cadre 
        of professional social and child welfare workers.
    Question. As you are well aware, U.S. Federal law requires that 
State and local officials who place children in foster care are to 
pursue the primary goal of family reunification, while at the same 
time, developing an alternative permanency plan for the child. If the 
family reunification efforts fail, then the alternate plan will already 
be in place and well on its way to completion. This practice, which is 
called concurrent planning, is intended to reduce the total period of 
time a child will remain in out of home care before being permanently 
placed with a family. Is this an approach that the United States might 
encourage its international partners to consider adopting so that 
children in Haiti are not spending unnecessary time in non-permanent 
situations?
    Answer. Yes, we are aware of and support the concept of concurrent 
planning for children in care. We note that the main problem in Haiti 
before and after the earthquake is that the GOH does not have a 
functioning child welfare system, including the sophisticated social 
work capacity required to engage in case-by-case analysis of each 
child's situation and needs so that, if needed, a concurrent plan could 
be written, approved, and executed. Now that so many children are in 
need of emergency care, such as food and shelter, the immediate 
priority has been to focus on those needs first.
    Question. Long term solutions to the issues facing Haiti's orphan 
children will undoubtedly require the mobilization and coordination of 
both traditional and non-traditional partners. Have you given any 
thought about how you might mobilize faith based, corporate and 
professional partners around the goal of providing families for orphan 
children?
    Answer. Yes, a great deal of thought has been given to the 
mobilization of such partners. Faith-based partners in particular have 
long played a central and seminal role in assisting children and are 
well positioned to scale-up such services. USG agencies are currently 
working with a variety of faith-based partners in Haiti to address the 
needs of orphans and vulnerable children.
    Question. This year will mark the third year of the 10-year 
memorandum of understanding between Israel and the United States on 
important military assistance to Israel. The President's budget request 
for FMF to Israel--$3 billion--is the amount noted in the MOU and we 
are appreciative of the President's ongoing commitment to ensure Israel 
has the tools it needs to defend itself. What do you perceive to be the 
security threats Israel faces today? How will this assistance help to 
enhance security and stability in Israel and throughout the region?
    Answer. Support for Israel's security is a cornerstone of our 
Middle East policy. Israel faces potential threats from a number of 
sources, including terrorist organizations such as Hizballah and Hamas, 
as well as states including Iran. Our Foreign Military Financing (FMF) 
memorandum of understanding is intended to contribute to Israel's 
ability to defend itself from these regional threats by committing the 
Administration to seek congressional approval to provide Israel $30 
billion in FMF over a 10-year period, beginning in fiscal year 2009. 
The United States provided Israel with $2.55 billion for fiscal year 
2009, and forward-funded $555 million of Israel's $2.775 billion fiscal 
year 2010 FMF allocation via the fiscal year 2009 Supplemental 
Appropriations Act.
    Israel uses this assistance both to procure U.S.-origin defense 
articles, ranging from ammunition to advanced weapons systems and 
training, and to develop and support its own defense industry. U.S. 
assistance will help ensure that Israel maintains its qualitative 
military edge over potential threats, preventing a shift in the 
security balance of the region, and safeguarding U.S. interests. Our 
assistance is also aimed at building Israel's confidence to make 
historic concessions necessary for comprehensive regional peace.
    Question. The President's request included $400.4 million in 
economic assistance for the West Bank and Gaza ``to strengthen the 
Palestinian Authority as a credible partner in Middle Eastern peace and 
continue to respond to humanitarian needs in Gaza.'' The request also 
states that this assistance ``will provide significant resources to 
support the stability of the PA, economic development of the West Bank, 
and increase the capacity of the PA to meet the needs of its people.'' 
Can you tell us how these funds will be disbursed? What specific 
projects will be funded and through what specific mechanisms? What 
portion of these funds will be used for humanitarian assistance in 
Gaza? Are you confident that there are safeguards in place to ensure 
this assistance reaches its intended recipients and does not land in 
the hands of Hamas or benefit Hamas? If yes, can you please provide an 
explanation of the safeguards in place?
    Answer. The Department's $400.4 million request in fiscal year 2011 
for the West Bank and Gaza Economic Support Funds (ESF) program 
supports the Palestinian Authority's (PA) development and institution-
building priorities through the following bilateral economic support:
  --Up to $200 million in direct budget support to the PA.
  --$72.5 million for the delivery of basic education, health, and 
        water services.
  --$81.4 million in programs to help develop the environment for 
        growth in the Palestinian private sector.
  --$15.5 million in food, medical, and other humanitarian assistance 
        for Palestinians in the West Bank and Gaza.
  --$31 million to enhance democratic reform, respect for human rights 
        and the rule of law, and increase civic engagement.
    The more than $400 million ESF requested in fiscal year 2011 will 
continue support for priority reform and institution-building 
priorities identified by the PA, and will be disbursed primarily 
through either new or existing USAID and MEPI contracts or grants with 
international organizations, U.S. non-governmental organizations, and 
local vetted organizations. As noted above, the Administration has 
requested $15.5 million for humanitarian assistance in the West Bank 
and Gaza for fiscal year 2011. At this stage, USAID cannot predict the 
exact amount that will be spent on humanitarian assistance in Gaza 
versus the West Bank. The decision on funding for Gaza will be based on 
the changes in the situation and the evolving needs.
    The United States has installed safeguards that will ensure that 
our funding is only used where, and for whom, it is intended, and does 
not end up in the wrong hands. USAID and MEPI provide all project 
assistance through International organizations, U.S. non-governmental 
organizations and local vetted organizations. Before making an award of 
either a contract or a grant to a local NGO, USAID or MEPI, as 
appropriate, checks the organization against information in U.S. 
government databases. USAID and MEPI also check these organizations and 
the organization's principal officer, directors, and other key 
individuals through law enforcement and other systems accessed by 
USAID's Office of Security. All NGOs applying for grants from USAID and 
MEPI are required to certify, before award of the grant will be made, 
that they do not provide material support to terrorists. These 
organizations also work with local organizations through sub-grants. 
All local sub-grantees are likewise vetted to ensure no terrorist 
connections.
    Once an award has been made, USAID and MEPI have established 
procedures to safeguard U.S. investments and ensure the transparency 
and integrity of U.S. assistance. In order to ensure that funding 
through local and U.S. NGOs is used only for agreed upon purposes, all 
NGOs are required to submit quarterly financial reports on how funds 
are spent. Also, all direct USAID grantees, contractors, and 
significant sub-grantees and subcontractors' local costs are audited by 
USAID's Inspector General on an annual basis. In addition, the 
Mission's vetting procedures are the subject of regular GAO audits.
    Before transferring U.S. taxpayer dollars to the PA as budget 
support, the Secretary of State certifies that the PA maintains a 
Single Treasury Account; has eliminated all parallel financing 
mechanisms outside of the treasury account; and established a single 
comprehensive civil service roster and payroll. The PA is only 
authorized to use budget support funds for purposes approved by USAID. 
In 2008 and 2009, U.S. budget support was tied to specific PA 
expenditures, i.e., payment of debt to Israeli energy or utility 
companies and private sector financial institutions providing credit 
for purchases from these companies. Vetting of specific private sector 
creditors is a prerequisite to disbursements of funds. Funds are 
transferred into a separate local currency sub-account of the PA's 
Single Treasury Account, and USAID had access to all information 
pertaining to the separate sub-account in order to monitor funds. The 
PA must notify USAID in writing when disbursements are made from the 
separate sub-account, including the amount disbursed and the recipient. 
The Regional Inspector General also audits each cash transfer. We 
anticipate using the same process for fiscal year 2011 budget support.
    In addition to tight USG procedures and controls, the PA, under 
Prime Minister Fayyad, has undertaken substantial economic and fiscal 
reforms that have increased transparency and accountability. The PA's 
budget, including revenue sources and actual expenses and commitments, 
is publicly available on the Ministry of Finance's website. In 
addition, the Ministry of Finance (MOF) has taken a number of 
additional steps to increase fiscal oversight and streamline budget 
execution, including by establishing a General Accounting Department 
and a Computerized Accounting System to link the MOF to line ministries 
and ensure that funds are used for their intended purpose.
    Question. The President also requested $150 million for security 
assistance for the Palestinian Authority, indicating these funds will 
support reform of the Palestinian security sector. This is an increase 
of $50 million over last year's funds. Please explain the reason for 
this increase.
    Answer. The Bureau of International Narcotics and Law Enforcement 
(INL) will use most of the $50 million increase in funding over fiscal 
year 2010 levels to train, equip and garrison an additional Special 
Battalion of the Palestinian Authority's (PA) National Security Force 
(NSF). The total fiscal year 2011 request of $150 million provides 
enough funds to train, equip, and garrison three Special Battalions. 
This level of funding will bring us to our goal of training and 
equipping a total of 10 battalions (including one in reserve) and 
garrisoning nine.
    INL will direct a portion of this additional request to provide 
training, equipment, infrastructure, and technical assistance to 
prosecutors, investigative police, and prison officials in the Justice 
and Corrections Sectors to complement our security force programs.
    Question. In December, you acknowledged that efforts to engage Iran 
in negotiations on its nuclear program had not had the desired results, 
saying, ``I don't think anyone can doubt that our outreach has produced 
very little in terms of any kind of positive response from the 
Iranians.'' Iran continues to enrich uranium, test missiles and work on 
its heavy water reactor. The global community cannot sit idly by as 
Iran continues to build a nuclear weapons capability. Can you provide 
us with an overview of the Administration's strategy to prevent Iran 
from obtaining and using a nuclear weapon?
    Answer. The Administration remains committed to its dual-track 
strategy to address Iran's pursuit of a nuclear weapons capability, 
which ultimately presents Iran with two choices: It can fulfill its 
international obligations under the Nuclear Non-Proliferation Treaty 
and to the U.N. Security Council and International Atomic Energy 
Agency, or it can face increasing international pressure and 
condemnation for its activities.
    At the moment, our focus is on getting the international community 
to consider new multilateral sanctions, while also implementing all 
existing U.N. Security Council resolutions through national measures. 
We believe that these kinds of multilateral pressures can most 
effectively underscore to the Iranian government the cost of defying 
the international community. They are also the most difficult for Iran 
to evade.
    We also continue to work independently and with our allies to take 
measures to deny Iran access to the technology and know-how it needs to 
develop further its nuclear program, while underscoring our continued 
support for a peaceful nuclear energy program in Iran. We are also 
working with our partners to prevent Iran from abusing the 
international financial system to facilitate its proliferation 
activities.
    Finally, we are working with our counterparts on the IAEA Board of 
Governors to support the IAEA's investigation into Iran's nuclear 
program and compliance with its obligations. Through the IAEA's 
investigation, we have learned much concerning Iran's activities and 
many questions have been raised that reinforce our concern regarding 
the nature of Iran's nuclear intentions. We support fully the IAEA's 
efforts to address those questions.
    Question. As part of the administration's sanctions effort, will 
the State Department begin to implement the Iran Sanctions Act (ISA) by 
making determinations about companies investing in the Iranian 
petroleum sector?
    Answer. The Department of State takes its obligations under the 
Iran Sanctions Act (ISA) very seriously and we have reviewed many 
reports of potentially sanctionable activity under the Act. In addition 
to this ongoing process, we recently conducted a preliminary review of 
a number of reported activities that were mentioned in a letter sent 
from 50 Members of the House to President Obama in October and a letter 
sent to me by Senator Kyl and 10 other Senators in November. During the 
course of this review, we found the activities of some companies to be 
problematic and therefore warranting more thorough consideration under 
the standards delineated in the ISA. We are continuing to collect and 
assess information on these cases.
    We work aggressively on three fronts to ensure that our review of 
such reports is serious and thorough and that we have a rigorous 
process in place for implementation of the ISA. First, we raise in our 
bilateral engagement with numerous countries the need to strengthen our 
cooperation in promoting a united front for restricting investment in 
Iran's energy sector. Second, we supplement our efforts by working with 
our Embassies overseas to collect information on potentially 
sanctionable activity. Finally, we review with the intelligence 
community reports of activities of some companies that warrant further 
scrutiny under the ISA. Through these mechanisms we ensure that 
credible reports are examined fully while reports with no substance are 
put to rest. It is worth noting that the Iranian government, in its 
efforts to deny its increasing international isolation, promotes and 
publicizes all manner of transactions and purported investments that 
may or may not have any truth to them.
    If the Secretary makes a final determination that sanctionable 
activity has occurred, Congress will be notified promptly.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg

    Question. We saw with the Sean Goldman case that international 
parental abduction is a major problem. Although we were able to secure 
a positive outcome in that case with your help, many other parents are 
still struggling to bring their children home and it is clear that the 
current system falls short. What are you doing to improve the 
Department's ability to locate and help safely return American children 
who are victims of international parental abduction?
    Answer. The Department has designated the Office of Children's 
Issues (CI) in the Bureau of Consular Affairs as the U.S. Central 
Authority for the Hague Convention on the Civil Aspects of 
International Child Abduction (Hague Abduction Convention) and to work 
with parents and our posts abroad on cases of international parental 
abduction to countries that are not Hague partners. CI works to reunite 
parents with abducted children and has expanded in size as the number 
of international parental child abductions has grown. In the last year 
alone, the Department has hired 21 new employees in the Office of 
Children's Issues to work exclusively on abduction cases, bringing 
total staff for the issue of abduction to over 70 employees spread 
among five issue-specific and geographic branches. In addition, the 
management structure of CI has been expanded and a number of new 
higher-graded positions have been introduced. The CI Director is a 
member of the Senior Foreign Service. A Senior Advisor will also be 
added to provide senior management with analysis and policy 
recommendations. Additionally, in the fall of 2009, CI added a 
Diplomatic Security officer to its staff to strengthen its cooperation 
with law enforcement authorities. These additional resources will 
enable CI to continue to broaden its prevention-related activities, 
improve its ability to locate abducted children abroad, ensure 
consistently high levels of service among case workers, improve 
training, and carry out more vigorous bilateral and multilateral 
engagement with countries that are parties to the Hague Abduction 
Convention, and those that are not.
    These bilateral and multilateral efforts are critical to resolving 
cases of international parental child abduction. As the Goldman case 
with Brazil demonstrated, complying with the Hague Abduction Convention 
and returning children remains an ongoing challenge for some countries. 
When countries fail to comply with the Hague Abduction Convention, the 
Department, in coordination with other treaty party countries and the 
Hague Conference on Private International Law, offers technical 
assistance and guidance. The Department participates in and helps to 
sponsor judicial seminars on the Convention in party countries across 
the globe. In the last few years alone, the Department has participated 
in judicial conferences or training in Argentina, Brazil, Chile, 
Colombia, Costa Rica, the Dominican Republic, El Salvador, France, 
Israel, Mexico, Panama, Paraguay, and Spain.
    The Department has seen how its diplomatic efforts can produce 
positive results. As recently as 2007, for example, Germany was one of 
the most difficult countries from which to recover an abducted child. 
But active engagement with Germany through quarterly bilateral meetings 
has resulted in consistent and prompt action by German courts. Germany 
has returned 17 children to the United States over the past 2 years.
    Intensive cooperation with other Convention countries has also been 
critical to enhancing our ability to stop abductions before they 
happen. When the Department becomes aware that a parent may be in the 
process of abducting a child from the United States to another country, 
it works with U.S. law enforcement to stop the departure from the 
United States. Once the abductor is on the way to another country, the 
Department works with officials in other Convention countries to 
intercept the taking parent, if possible. In 2009, these efforts 
resulted in the prevention of 147 abductions from the United States to 
61 different countries.
    The Department is engaged in multilateral efforts to obtain better 
cooperation from countries that are not parties to the Convention. In 
Japan, for instance, our ambassador has recently joined his 
counterparts from Australia, Canada, France, Italy, New Zealand, Spain, 
and the United Kingdom in a persistent effort both to encourage Japan 
to recognize foreign custody orders and to adjust its laws so that 
Japan can join the Hague Abduction Convention. The Department will 
continue and increase these efforts with Japan and around the world in 
the coming months.
    The Department's abduction staff is expert in the field, speaks 21 
different languages, and works closely with embassies and consulates 
around the world to do everything the Department legally can to assist 
parents in preventing abduction and recovering their children. CI has 
developed resources for left-behind parents that are easily accessible, 
regardless of a parent's immigration status, English-language 
capability, or financial situation. These include: information on our 
website at travel.state.gov; a 24-hour toll-free number for parents; 
lists of attorneys abroad and in the United States; a language line for 
parents who do not speak English; law enforcement liaison; and victim 
assistance resources. The CI Staff are available to assist 24 hours a 
day, 7 days a week, worldwide. An improved website focused on 
international child abduction and intensified outreach programs in 
domestic and international fora are contributing to public awareness of 
both the problem and of resources to combat it.
    The Department assisted in the return of 422 children to the United 
States from other countries during fiscal year 2009. During the same 
period, 132 children were returned from the United States to their 
countries of habitual residence. More detailed information about 
international parental child abduction cases and the Department's work 
to resolve longstanding cases will appear in the Department's upcoming 
2010 Report to Congress on Compliance with the Hague Convention on the 
Civil Aspects of International Child Abduction. Previous reports can be 
found online at www.travel.state.gov/childabduction.
    Question. Eighty-five years ago, Haiti's tropical forest covered 60 
percent of the country. Today, that number has fallen to less than 2 
percent. As we work to fight global warming, this environmental 
degradation has serious implications for Haiti and the world. What role 
will environmental issues such as reforestation play in the long-term 
recovery plan for Haiti?
    Answer. Root causes of environmental disaster in Haiti include 
acute poverty, rapid population growth and unplanned urbanization. In 
the short term, it is critical to convert hillsides to tree-based 
perennial agriculture to improve soil conservation. Lessons learned 
from decades of reforestation programs demonstrate that, if a tree has 
value, a farmer is likely to maintain and manage it; if not, it will 
likely disappear. Therefore, strengthening tree crop value chains is an 
approach with proven ability to restore degraded landscapes.
    USAID/Haiti's Watershed Initiative for National Natural 
Environmental Resources (WINNER) Project, an agricultural and watershed 
management program, applies best practices such as this. WINNER is 
already active in the Cul-de-Sac watershed where Port-au-Prince is 
located, as well as the Cabaret, Mirebalais, Archaie and Gonaives 
regions of Haiti. Prior to the January 12, 2010 Haiti earthquake 
disaster, the United States planned to invest $126 million in the 
project over the next 5 years. WINNER is strengthening the value chains 
for tree crops and focusing on tree crops with high value (such as 
mango) as these are effective incentive to hillside farmers to plant 
and manage perennial crops.
    In addition to tree crops, the USG strategy in Haiti also includes 
plans to promote cleaner and more efficient cooking technologies, such 
as liquid petroleum gas (LPG), to decrease charcoal consumption and 
reduce the rate of deforestation and environmental degradation. After 
completing a rigorous assessment of the potential market for improved 
cooking technologies, the USG will implement a program that will 
address market barriers such as high upfront costs or lack of awareness 
and achieve large-scale reduction of charcoal consumption over a 5-year 
period. Beneficiaries are likely to include households, food vendors 
and energy-intensive businesses such as laundries and bakeries.
    Finally, a Programmatic Environmental Assessment will be conducted 
for proposed earthquake reconstruction activities, which will pay close 
attention to addressing these issues across the mission's portfolio of 
projects.
    Question. I applaud President Obama's immediate rescission of the 
Mexico City Policy, also known as the Global Gag Rule, upon taking 
office. What impact did the previous 8 years of this policy have on 
women's health? What impact does uncertainty surrounding this policy 
have on organizations' ability to address these critical health 
challenges?
    Answer. During the period in which the Mexico City Policy (MCP) was 
in place, all family planning funds were successfully programmed with 
an emphasis on the countries with the greatest need. This included 
funds that might have otherwise gone to international non-governmental 
organizations (NGOs) that chose not to work with USAID while the policy 
was in place.
    More than 450 foreign NGOs elected to accept assistance subject to 
the MCP and received USAID funding. USAID programs demonstrated 
continued success during this period--shown by an increase in modern 
family planning use among married women from 33 to 39 percent between 
2001 and 2008 in 38 countries with USAID-assisted family planning 
programs which have data over this period. Since the rescission of the 
MCP, the USG has had the opportunity to reengage with additional 
experienced and qualified family planning providers working at the 
grassroots level, furthering our work to meet the growing demand for 
voluntary, safe family planning and other critical health services. We 
expect that should this situation change, these organizations would 
reassess their decision to work with USAID.
    Question. Aid programs too frequently focus on one problem and fail 
to provide the integrated approach necessary for successful 
development. What is the Administration doing to better integrate U.S. 
development programs on food security, health, the environment, and 
family planning?
    Answer. USAID has made great strides in establishing mechanisms to 
ensure that its development activities are undertaken within the 
framework of a comprehensive and integrated development approach, which 
employs strategic multi-sector synergies for improving performance and 
producing greater results. For example, the Agency's new USG Global 
Hunger and Food Security Initiative (GHFSI) is multi-disciplinary and 
being developed and undertaken with a cross-cutting sector approach 
that includes the direct participation of development experts from a 
wide variety of sectors--including agriculture, environment, nutrition, 
maternal and child health, education, infrastructure, gender, and 
family planning and reproductive health. Similarly, one of the 
principles of President Obama's new Global Health Initiative (GHI) is 
integration with other sectors to ensure a cross-cutting sector 
approach that will benefit from the development linkages within USAID 
and across the USG. In addition, USAID's Global Climate Change Agency 
Policy Coordinating Committee (APCC) is working closely with the GHFSI 
APCC, the GHI Interagency Team and the Agency's Extended Water Team to 
identify integrated approaches to the four programs. Designed to 
address the unique settings of each development and humanitarian 
challenge, this comprehensive integrated management structure 
strengthens USAID's development efforts, and particularly, the Agency's 
new initiatives both in Washington and the field.
    Under the GHI and in the Agency approach generally, USAID is 
engaging in smart integration to maximize gains from development funds. 
Using an increasingly integrated and coordinated approach, several 
principles derived from experience serve as a guide. These principles 
focus on:
  --Country-led coordination and strategic decisionmaking on 
        integration of services is required for the sustainability of 
        development;
  --All partners--public and private--are important in maximizing 
        achievement of outcomes in limited resource settings;
  --Integration of U.S. programs must be based on specific country 
        circumstances;
  --Integration and coordination have a cost--they add a level of 
        complexity and administrative burden to programs that must be 
        weighed against the urgency of rapid results;
  --Resources are required to research, monitor and evaluate the 
        expected causal relationship between increased integration and 
        outcomes;
  --In order to build country capacity for integration, systems and 
        structures (such as the health system) should be a deliberate 
        focus of U.S. assistance with documentation on the impact on 
        outcomes; and
  --Critical assessment of other multilateral and bilateral investments 
        and increased coordination will be essential to the achievement 
        of ultimate success.
    Question. I was pleased to see the increase in funding for the 
Clean Technology Fund and the Strategic Climate Fund. How will these 
two programs address the national security threats caused by global 
warming?
    Answer. Climate change poses a significant threat to the national 
security of nations around the globe. Variations in weather patterns 
caused by rising temperatures threaten to create dangerous changes in 
the climate system, increasing floods and droughts, altering natural 
resource availability, and creating conditions likely to cause regional 
conflict and destabilize security situations throughout the world. 
Given the urgency of the climate challenge and the threats it poses to 
national security, it is essential to be able to mobilize and disburse 
climate assistance quickly and effectively. The CIFs, which were 
launched just 2 years ago as a partnership of developed and developing 
countries, are doing just that.
    The Clean Technology Fund and the Strategic Climate Fund (together, 
the Climate Investment Funds or ``CIFs'') have become an essential 
pillar of the international community's effort to mobilize funding to 
help developing countries mitigate their greenhouse gas emissions and 
adapt to the effects of climate change. With $6.3 billion pledged so 
far, the CIFs constitute the largest multilateral fund dedicated to 
climate assistance. Funds mobilized under the CIFs are being utilized 
to help those countries which are most vulnerable to the effects of 
climate change increase their resilience and capacity to adapt to its 
effects which will in turn reduce national security concerns caused by 
effects like changes in natural resource availability. Those funds 
mobilized to mitigate greenhouse gas emissions are working to directly 
address climate change by limiting the increase in temperature rise and 
reducing the source of the problem which poses such extensive national 
security concerns throughout the world.
    Question. As you have stated, the Middle East Peace process has 
effectively stalled. How do you plan to reestablish the trust of the 
parties and move the peace process forward?
    Answer. We are pursuing a two-pronged approach toward comprehensive 
peace based on the two-state solution: first, to encourage the parties 
to enter direct negotiations to reach an agreement on all permanent 
status issues; and second, to help the Palestinians build their economy 
and the institutions that will be necessary when a Palestinian state is 
established. The two objectives are mutually reinforcing. Our goal is 
to re-launch direct, bilateral negotiations between Israel and the 
Palestinians as soon as possible with a 24-month timeline for their 
successful conclusion. We expect that all concerned will demonstrate 
the leadership to make bold commitments and take bold actions to make 
peace possible.
    Question. We saw with the Sean Goldman case that international 
parental abduction is a major problem. Although we were able to secure 
a positive outcome in that case with your help, many other parents are 
still struggling to bring their children home and it is clear that the 
current system falls short. What are you doing to improve the 
Department's ability to locate and help safely return American children 
who are victims of international parental abduction?
    Answer. The Department has designated the Office of Children's 
Issues (CI) in the Bureau of Consular Affairs as the U.S. Central 
Authority for the Hague Convention on the Civil Aspects of 
International Child Abduction (Hague Abduction Convention) and to work 
with parents and our posts abroad on cases of international parental 
abduction to countries that are not Hague partners. CI works to reunite 
parents with abducted children and has expanded in size as the number 
of international parental child abductions has grown. In the last year 
alone, the Department has hired 21 new employees in the Office of 
Children's Issues to work exclusively on abduction cases, bringing 
total staff for the issue of abduction to over 70 employees spread 
among five issue-specific and geographic branches. In addition, the 
management structure of CI has been expanded and a number of new 
higher-graded positions have been introduced. The CI Director is a 
member of the Senior Foreign Service. A Senior Advisor will also be 
added to provide senior management with analysis and policy 
recommendations. Additionally, in the fall of 2009, CI added a 
Diplomatic Security officer to its staff to strengthen its cooperation 
with law enforcement authorities. These additional resources will 
enable CI to continue to broaden its prevention-related activities, 
improve its ability to locate abducted children abroad, ensure 
consistently high levels of service among case workers, improve 
training, and carry out more vigorous bilateral and multilateral 
engagement with countries that are parties to the Hague Abduction 
Convention, and those that are not.
    These bilateral and multilateral efforts are critical to resolving 
cases of international parental child abduction. As the Goldman case 
with Brazil demonstrated, complying with the Hague Abduction Convention 
and returning children remains an ongoing challenge for some countries. 
When countries fail to comply with the Hague Abduction Convention, the 
Department, in coordination with other treaty party countries and the 
Hague Conference on Private International Law, offers technical 
assistance and guidance. The Department participates in and helps to 
sponsor judicial seminars on the Convention in party countries across 
the globe. In the last few years alone, the Department has participated 
in judicial conferences or training in Argentina, Brazil, Chile, 
Colombia, Costa Rica, the Dominican Republic, El Salvador, France, 
Israel, Mexico, Panama, Paraguay, and Spain.
    The Department has seen how its diplomatic efforts can produce 
positive results. As recently as 2007, for example, Germany was one of 
the most difficult countries from which to recover an abducted child. 
But active engagement with Germany through quarterly bilateral meetings 
has resulted in consistent and prompt action by German courts. Germany 
has returned 17 children to the United States over the past 2 years.
    Intensive cooperation with other Convention countries has also been 
critical to enhancing our ability to stop abductions before they 
happen. When the Department becomes aware that a parent may be in the 
process of abducting a child from the United States to another country, 
it works with U.S. law enforcement to stop the departure from the 
United States. Once the abductor is on the way to another country, the 
Department works with officials in other Convention countries to 
intercept the taking parent, if possible. In 2009, these efforts 
resulted in the prevention of 147 abductions from the United States to 
61 different countries.
    The Department is engaged in multilateral efforts to obtain better 
cooperation from countries that are not parties to the Convention. In 
Japan, for instance, our ambassador has recently joined his 
counterparts from Australia, Canada, France, Italy, New Zealand, Spain, 
and the United Kingdom in a persistent effort both to encourage Japan 
to recognize foreign custody orders and to adjust its laws so that 
Japan can join the Hague Abduction Convention. The Department will 
continue and increase these efforts with Japan and around the world in 
the coming months.
    The Department's abduction staff is expert in the field, speaks 21 
different languages, and works closely with embassies and consulates 
around the world to do everything the Department legally can to assist 
parents in preventing abduction and recovering their children. CI has 
developed resources for left-behind parents that are easily accessible, 
regardless of a parent's immigration status, English-language 
capability, or financial situation. These include: information on our 
website at travel.state.gov; a 24-hour toll-free number for parents; 
lists of attorneys abroad and in the United States; a language line for 
parents who do not speak English; law enforcement liaison; and victim 
assistance resources. The CI Staff are available to assist 24 hours a 
day, 7 days a week, worldwide. An improved website focused on 
international child abduction and intensified outreach programs in 
domestic and international fora are contributing to public awareness of 
both the problem and of resources to combat it.
    The Department assisted in the return of 422 children to the United 
States from other countries during fiscal year 2009. During the same 
period, 132 children were returned from the United States to their 
countries of habitual residence. More detailed information about 
international parental child abduction cases and the Department's work 
to resolve longstanding cases will appear in the Department's upcoming 
2010 Report to Congress on Compliance with the Hague Convention on the 
Civil Aspects of International Child Abduction. Previous reports can be 
found online at www.travel.state.gov/childabduction.
    Question. According to the Justice Department, Teodoro Nguema 
Obiang, the forest and agriculture minister of Equatorial Guinea and 
the son of its president, has accumulated most if not all of his wealth 
through corruption while the people of Equatorial Guinea live in severe 
poverty. Nonetheless, Mr. Obiang has been granted multiple visas to 
enter the United States in violation of U.S. law and reportedly 
purchased a $35 million home in Malibu. Why has Mr. Obiang continued to 
receive visas despite U.S. anti-kleptocracy laws? What are you doing to 
enforce those laws and commitments?
    Answer. The Department of State is committed to combating 
kleptocracy and corruption internationally and to use Presidential 
Proclamation 7750 and other provisions to deny entry to corrupt foreign 
government officials. We are aware of the concerns you raise and of 
ongoing congressional interest in Mr. Obiang. Under Section 222(f) of 
the Immigration and Nationality Act visa records are considered 
confidential, and therefore I cannot comment on any individual case. 
The Department would be happy to share such relevant information in a 
closed setting.
    Combating corruption is a foreign policy priority for the 
Department. We coordinate and cooperate with other Departments to 
foster a comprehensive approach including by law enforcement and other 
agencies. In our overall international anticrime strategy we recognize 
the central role of corruption, as the ``grease'' that facilitates 
virtually all transnational illicit activities, from drug trafficking 
to terrorist financing. We take the role of Presidential Proclamation 
7750, which allows for denial and revocation of corruption foreign 
government officials and their families, very seriously. However, it is 
only one part of our Anti-Corruption Policy Framework.
    The United States has been a leader on anticorruption issues 
globally:
  --With the passage of the Foreign Corrupt Practices Act in 1977, the 
        United States was the first country to criminalize foreign 
        bribery.
  --In 1999 the USG developed and launched the premier government-to-
        government event, the Global Forum, the first-ever 
        international conference on corruption and how to combat it.
  --The first multilateral enunciation of the No Safe Haven policy for 
        kleptocrats and their ill-gotten assets occurred at Evian in 
        2003. Each G-8 summit since then has sought to deepen political 
        commitment and foster concrete action. The G-20 has also 
        undertaken similar anticorruption commitments.
  --The U.S. International Anti-Kleptocracy Strategy was promulgated in 
        2006, in part to spur greater interagency cooperation in taking 
        concrete action against kleptocrats and their assets.
  --Denial and revocation of the visas of kleptocrats continues to play 
        an important role in both of the preceding initiatives.
  --The United States supported the negotiation and implementation of 
        the United Nations Convention against Corruption (UNCAC), which 
        entered into force in December 2005, and was ratified by the 
        Senate in 2006. It now has 143 States Parties.
  --The United States supported the UNCAC as the first truly global 
        anticorruption treaty and the most comprehensive anticorruption 
        instrument. It has chapters on criminalization and law 
        enforcement, prevention, recovery of stolen assets, 
        international legal cooperation, and technical assistance. In 
        November 2009, the United States helped lead its Conference of 
        Parties to establish a comprehensive review mechanism, a 
        significant and rare accomplishment for a United Nations 
        instrument.
  --Another key treaty is the OECD Anti-Bribery Convention. The United 
        States was a leader in the OECD's push to tackle foreign 
        bribery. The OECD Convention has many similarities with the 
        U.S. Foreign Corrupt Practices Act (FCPA) and targets the 
        supply side of the corruption equation. The United States is an 
        active participant in the treaty's peer review process and the 
        Working Group on Bribery.
  --The United States also supports and participates in regional 
        treaties or initiatives in the Americas (Inter-American 
        Convention), Western and Eastern Europe (Council of Europe/
        GRECO), Middle East/North Africa, and the Asia-Pacific region. 
        These are useful to bring together countries to press each 
        other on progress and to share good practices.
  --The USG is one of the largest donors of technical assistance in 
        anticorruption and good governance. In fiscal year 2009, the 
        Department of State and USAID provided a total of over $1 
        billion in anticorruption and related good governance 
        assistance.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell

    Question. Last September, Secretary Clinton announced the 
administration's new strategy of engagement with the Burmese regime. We 
are now 6 months into the new strategy, what tangible benefits have 
come about as a result of the new approach? Has the denial of Aung San 
Suu Kyi's appeal led to a reevaluation of the engagement policy?
    Answer. Last year the Administration launched a review of Burma 
policy, acknowledging that neither sanctions nor engagement alone had 
succeeded in influencing Burma's generals to adopt a course of reform. 
The conclusions of the policy review reaffirmed our fundamental goals 
in Burma. We want a democratic, prosperous Burma that respects the 
rights of its people. To achieve that end, the administration decided 
to engage Burmese authorities in a senior-level dialogue while 
maintaining the existing sanctions regime and expanding humanitarian 
assistance.
    We understood at the outset that this process would be long and 
difficult, in particular given the regime's focus on this year's 
planned elections. We have not yet achieved concrete progress on our 
core concerns and with respect to the electoral process, the regime has 
taken a step backwards. However, our new approach has helped advance 
the interests of the United States, both in Burma and in the wider 
region. Through our senior-level dialogue, we have been able to get our 
message in directly to senior leaders in Nay Pyi Taw and we have had 
been able to meet with imprisoned democracy leader Aung San Suu Kyi for 
the first time in years. The channels of communication we developed 
through our dialogue were instrumental in securing the release of Kyaw 
Zaw Lwin (aka Nyi Nyi Aung), a U.S. citizen imprisoned on politically 
motivated charges. More broadly, our outreach to Burma and our 
determination not to allow Burma to be an obstacle to a strong U.S.-
ASEAN relationship has strengthened the position of the United States 
in Southeast Asia. We were able to hold the first ever meeting between 
the United States and ASEAN at the leaders' level and to sign on to the 
Treaty of Amity and Cooperation.
    We continue to monitor and evaluate events in Burma carefully and 
have and will continue to adjust our strategy as necessary to advance 
our policy goals.
    Question. What is the Department of State's understanding of 
Burmese nuclear capabilities and ambitions?
    Answer. We closely follow Burma's pursuit of nuclear technology, 
ostensibly for peaceful scientific applications, as well as reports 
that Burma is pursuing a clandestine nuclear program.
    Burma joined the IAEA in 1957, acceded to the NPT in 1992, and 
signed a Safeguards Agreement with the IAEA in 1995. Burma is also a 
Party to the 1995 Treaty of Bangkok that established the South-East 
Asia Nuclear Weapons Free Zone. In 1997, Burma established a Department 
of Atomic Energy and in 1998 passed an Atomic Energy Law. The IAEA 
provides training to Burmese nuclear researchers through a number of 
Technical Cooperation projects, most involving nuclear applications in 
medical research, food, and agriculture.
    After several years of bilateral discussions between Burma and 
Russia, Moscow agreed in 2007 to provide a small pool-type research 
reactor to Burma, conditioned on the reactor being under IAEA 
safeguards. While there has been little or no movement on implementing 
this agreement, Burmese students have been studying nuclear science at 
several Russian universities and institutes for several years.
    It is incumbent on Burma, as a signatory to the NPT and the Bangkok 
Treaty and as a member of the IAEA, to be transparent in all its 
nuclear undertakings and live up to its international obligations. In 
addition, we urge Burma to modify its Small Quantities Protocol (SQP) 
with the IAEA and implement the IAEA's Additional Protocol.
    Question. Please characterize the relationship between North Korea 
and Burma.
    Answer. Burma and North Korea have clearly both been subject to 
substantial international scrutiny for numerous aspects of their 
behavior, including disregard for human rights and for international 
standards on nonproliferation. We are concerned, in particular, about 
the military relationship between North Korea and Burma. U.N. Security 
Council Resolutions 1718 and 1874 requires all member states to 
prohibit the procurement by their nationals, or using their flagged 
vessels or aircraft, of conventional arms and related materiel, 
nuclear-related, ballistic missile-related, and other WMD-related items 
from North Korea. The UNSCRs also prohibit any associated technical, 
training, advice, services, or assistance. The Burmese government has 
publicly committed to enforcing UNSCR 1874 fully and transparently, and 
we have reminded the Burmese of their obligations under both UNSCRs 
1718 and 1874. We have encouraged all states, including Burma, to be 
vigilant and transparent in their dealings with North Korea.
                                 ______
                                 
           Questions Submitted by Senator Christopher S. Bond

    Question. Does the Administration support any conditionality on FMF 
assistance for Indonesia?
    Answer. Indonesia is the world's third-largest democracy. Over the 
last decade, it has undergone a democratic transformation to become a 
stable and peaceful nation. It is committed to democratic reform and 
has become an ally in promoting democracy and human rights in the 
region, including through the Association of Southeast Asian Nations. 
As part of its transformation, the Indonesian government has taken 
significant steps to reform its military, emphasizing respect for human 
rights, and generally maintained effective civilian control of the 
military. Indonesia is also an important partner of the USG on a broad 
range of issues, including combating terrorism and addressing maritime 
security threats in the region. The Department supports Indonesia's 
efforts to address these security-related areas that are of mutual 
concern to both our countries, including by providing FMF assistance.
    Given Indonesia's progress in promoting and protecting human rights 
and our close collaboration on security issues, we believe FMF 
assistance to Indonesia is warranted without conditionality.
    Question. Can you describe for us the role our International 
Affairs programs play in helping spur economic growth here at home and 
creating American jobs? How do these programs help U.S. businesses and 
entrepreneurs to remain competitive in the global market place?
    Answer. The State Department supports the efforts of U.S. companies 
and farmers to expand their business through exports. As flourishing 
international trade requires at least two parties, our efforts support 
U.S. businesses wishing to export and also help our trading partners 
develop so that those countries will have a healthy demand for those 
exports. The Department promotes U.S. exports by providing advocacy on 
behalf of U.S. companies, urging enforcement of intellectual property 
rights, and helping to develop high-potential overseas markets. State 
Department officers manage the commercial function at 96 U.S. missions 
worldwide that have no U.S. Commercial Service presence. State 
Department officers also provide vital political and economic insight 
to U.S. companies about foreign countries. U.S. Embassies and 
Consulates are key advocates for U.S. business overseas. Embassies can 
offer U.S. exporters critical country-specific insight on markets, 
assist in commercial and investment disputes, and provide expertise on 
local judicial systems. Our advocacy efforts are to ensure that 
exporters of U.S. goods and services get fair and equitable treatment 
in foreign markets.
    On the other side of the trade equation, State and USAID foreign 
assistance programs help developing country economies grow, resulting 
in increased demand for U.S. goods and services over time. More 
directly, some U.S. Trade Capacity Building (TCB) programs help 
countries streamline customs and other import administration procedures 
and improve trade-related infrastructure, thereby lowering the cost of 
U.S. products in those markets and opening up new export and job 
opportunities for U.S. suppliers. Other TCB programs help countries 
comply with their trade commitments under bilateral Free Trade Area 
agreements and the World Trade Organization, such as their commitments 
to ensure that agriculture and food safety standards are based on sound 
science.
    Question. I note with concern that funding overall for Southeast 
Asia took a $22 million cut below the fiscal year 2010 enacted level. 
Can you provide me with an overview of where some of these cuts were 
made and why a reduction in overall funding?
    Answer. The United States must have strong relationships and a 
strong and productive presence in Southeast Asia. This region is vital 
to the future of not only the United States and each of the ASEAN 
countries, but to the world's common interests: a significant and 
trade-oriented regional economy; a critical strategic location; and a 
set of countries that will be key to any solutions we pursue on climate 
change, counterterrorism, global health, and so much else. Our fiscal 
year 2011 request for Southeast Asia increased by $65 million (11.2 
percent) over our fiscal year 2010 request. While there are always more 
assistance needs in the region than we are able to fund, given current 
budget realities, this increase strongly reflects the importance of 
Southeast Asia to the Administration. Not all regions in the Department 
experienced an increase, or even a straight-line; some were reduced 
from the fiscal year 2010 request level. The Department faces difficult 
choices in allocating limited foreign assistance funding, and the 
ability to fund Frontline States necessarily requires trade-offs in 
funding in other regions, including Southeast Asia.
                                 ______
                                 
              Questions Submitted by Senator Sam Brownback

    Question. The French government has recently announced its plans to 
sell several Mistral-class helicopter carriers to Russia and a French 
company is reportedly negotiating to sell tanks as well. A Russian 
admiral, Vladimir Vysotsky, stated recently that if Russia had had a 
Mistral ship during the Georgia war in 2008 it could have won the 
conflict in 40 minutes. Baltic States such as Estonia are furious over 
the ship sale and it is a direct threat to Georgia and our national 
interests, as well as our billion dollars in rebuilding assistance. Do 
you share the concerns raised by our NATO allies? Most importantly, 
does the sale violate the Wassenaar Arrangement on Export Controls as 
well as the European Union Code of Conduct for Arms Exports?
    Answer. We understand that reports of this potential sale have 
raised concerns among some of Russia's neighbors. Inflammatory comments 
from a senior Russian military officer added to this anxiety. We would 
urge all parties to focus on efforts to promote stability in the region 
and avoid actions that could escalate tensions. I made these points 
when I met with President Sarkozy in January.
    Export control decisions in the Wassenaar Arrangement are left to 
national discretion. The European Union Code of Conduct for Arms 
Exports, to which the United States is not a party, sets criteria under 
which EU countries are obligated to assess arms export licenses. 
Implementation is an internal matter for each EU party.
    Question. As of today, Russia is continuing to build military bases 
and station elite troops in regions of Georgia not under the Georgian 
government's control. What concerns does the United States have toward 
the sale of advanced weapons to Russia that could be used in a future 
conflict against Georgia or a NATO ally?
    Answer. The United States supports Georgia's sovereignty and 
territorial integrity within its internationally recognized borders. We 
are concerned about recent Russian announcements to introduce 
additional military facilities and troops into the Georgian regions of 
Abkhazia and South Ossetia. We would regard such actions to be in 
violation of the August and September 2008 ceasefire agreements and the 
principles of sovereignty, territorial integrity, and host nation 
consent for the stationing of foreign forces. We support the ongoing 
Geneva talks, which established the Incident Response and Prevention 
Mechanisms (IPRMs) to increase communication and transparency among the 
parties to the conflict and decrease the escalation of tension along 
the ceasefire lines. We continue to emphasize the importance of re-
starting the South Ossetian IPRM.
    Russia's possible procurement of a French Mistral-class helicopter 
carrier has raised concerns among some of Russia's neighbors. While we 
recognize that arms sales are a sovereign decision for individual 
countries to make in keeping with international law and treaty 
obligations, we continue to follow these developments closely, and we 
urge all parties to focus on efforts to promote stability in the region 
and avoid actions that could escalate tensions. These points have been 
raised at high-levels with the French government.
    Question. A recent Senate Foreign Relations Committee report 
determined that the United States should move forward and rearm the 
Georgian government with the weapons it needs to defend its territory. 
Do you support this step? If not, why? If so, when will the United 
States begin the sale of arms to an ally that is deploying 1,000 troops 
to Afghanistan?
    Answer. The Administration remains committed to supporting 
Georgia's sovereignty and territorial integrity. Our security 
assistance and military engagement with Georgia is focused on 
rebuilding Georgia's defense and security architecture. This approach 
is consistent with Georgia's objectives in its NATO Annual National 
Program. It also helps Georgia advance toward NATO membership by 
supporting Georgian defense modernization and reform and improving 
Georgia's ability to contribute to international security operations. 
Our focus in the near term is enhancing self-defense capabilities 
through an emphasis on doctrine, personnel management, education, and 
training.
    Additionally, the United States is assisting the Georgian Armed 
Forces by training and equipping four infantry battalions for 
successive deployment to Afghanistan, around twice a year for 2 years. 
Georgian forces will sustain this rotation without caveats, and will 
fight alongside the U.S. Marines as part of NATO's International 
Security Assistance Force in Regional Command--South, Helmand Province, 
to conduct distributed operations in a counter-insurgency environment. 
The first Georgian battalion of approximately 750 troops began training 
September 1, 2009 and will deploy to Afghanistan in April for six 
months. Three follow-on battalions will be trained and deployed to 
Afghanistan in 7-month rotations.
    Question. In a letter exchange between Secretary Clinton and 
Senators Feingold, Brownback, and Durbin, the State Department stated 
that it had begun mapping the mineral rich zones controlled by armed 
militias in the Congo. When will this map be made available to the 
public and/or Members of Congress? The letter also indicated that the 
State Department is considering additional efforts to address conflict 
minerals in the Congo. What are these ``additional efforts'' that the 
State Department is exploring to address conflict minerals in the 
Congo?
    Answer. The map of mineral-rich zones and armed groups in the 
Democratic Republic of the Congo (DRC), which was mandated in Public 
Law 111-84, will be made available to the appropriate congressional 
committees and the public shortly.
    In terms of additional efforts, we plan to strengthen our public 
diplomacy to draw attention to the conflict minerals challenge; to 
enhance diplomatic outreach with the DRC, in the region and with 
countries in the supply chain; to intensify engagement with the private 
sector to discourage illegal minerals trade; to continue examining and 
further expand reporting on the link between illegal exploitation of 
natural resources, corruption, and human rights abuses in the State 
Department's annual human rights report on the DRC; and to contribute 
to the work of the United Nations Security Council's Democratic 
Republic of the Congo Sanctions Committee's Group of Experts (UNSC DRC 
Group of Experts) on due diligence guidelines for importers, processing 
industries and consumers of mineral products.
    Question. What are the current programs within both the State 
Department and USAID to improve the livelihood prospects of communities 
affected by human rights abuses in eastern Congo, particularly victims 
of sexual and gender based violence?
    Answer. USAID social protection programs in the Democratic Republic 
of the Congo (DRC) include economic strengthening activities for 
survivors of sexual and gender-based violence and their families. 
Economic assistance is also provided to other highly vulnerable women. 
Current programs include:
  --Program for Psychosocial Support and Reintegration of Survivors of 
        Sexual and Gender-Based Violence in Eastern DRC.--Implemented 
        by Cooperazione Internazionale (COOPI), operating in Ituri 
        District, Orientale Province and Maniema Province, funded at 
        $4,945,045 (December 15, 2008, to December 14, 2011). COOPI and 
        its local partners are providing medical, psychosocial, socio-
        economic, and legal support to 24,000 survivors of sexual and 
        gender-based violence. Through this project, 4,000 survivors 
        benefit from income generating activities each year through 
        self-help groups and women's NGOs.
  --ESPOIR: Ending Sexual Violence by Promoting Opportunities and 
        Individual Rights.--Implemented by International Rescue 
        Committee, operating in North and South Kivu Provinces, funded 
        at $7,000,000 (September 17, 2009, to September 30, 2012). IRC 
        and its local partners are providing medical, psychosocial, 
        socio-economic, and legal support to 14,500 survivors of sexual 
        and gender-based violence. IRC's sub-grant to Women-for-Women 
        International is supporting more than 6,000 women in income-
        generating activities and vocational training.
  --Program for Assistance and Reintegration of Abducted Girls and Boys 
        and Other Gender-based Violence Survivors.--In partnership with 
        UNICEF (COOPI is the implementing partner), operating in Ituri 
        District, Orientale Province, funded at $1,511,644 (July 20, 
        2006, to December 31, 2009). This program assists girls and 
        boys formerly associated with armed groups, many of whom are 
        affected by sexual and gender-based violence, with social and 
        economic reintegration. Community-based reintegration includes 
        returning to school and engaging in income-generating 
        cooperatives for vulnerable children (children who have been 
        separated directly from armed groups, as well as children who 
        encounter challenges in reintegrating with their families, 
        particularly girls and girl mothers).
  --USAID Food for Peace programs in the DRC provide livelihood 
        assistance to displaced and other highly vulnerable people in 
        North and South Kivu, areas most affected by insecurity, human 
        rights abuses, and sexual and gender-based violence. 
        Development food aid programs support individuals and small 
        farmers' associations to increase agricultural productivity 
        through training and food-for-work programs.
  --USAID Office of U.S. Foreign Disaster Assistance programs support 
        livelihood activities for vulnerable individuals in eastern 
        DRC. In fiscal year 2009, USAID's Office of U.S. Foreign 
        Disaster Assistance provided $33 million for agriculture and 
        food security, economic recovery and market systems, 
        humanitarian coordination and information management, health, 
        logistics and relief commodities, nutrition, protection, 
        shelter and settlements, and water and sanitation programs.
  --The Department of State Office of Population, Refugees, and 
        Migration provided more than $45 million in fiscal year 2009 
        for humanitarian programs for refugees and internally displaced 
        persons from and in DRC. Funding includes programs for 
        agriculture and food security, education, emergency food 
        assistance, health, protection for refugees and internally 
        displaced persons, livelihoods, psychosocial services, refugee 
        integration, sexual and gender-based violence protection and 
        response, shelter, and water and sanitation programs.
    Question. What resources, including personnel, are dedicated both 
within the State Department and USAID to the issue of conflict minerals 
in the Congo?
    Answer. The United States dedicates significant financial and 
personnel resources to address illicit mining in the Democratic 
Republic of the Congo. We have supported incorporation of the mining 
issue into the mandates of both the U.N. Mission in the Congo (MONUC) 
and the U.N. Group of Experts on the DRC. Through USAID, we support 
livelihoods programs for Congolese artisanal miners who are the great 
majority of miners nationwide. Through the U.S. Department of Labor, we 
fund programs to remove child laborers from the mines and enroll them 
in school. Embassy Kinshasa is working with the DRC Ministry of Mines 
to support the implementation of the country's 2002 Mining Code, and 
the Bureau of International Narcotics and Law Enforcement Affairs is 
training Congolese border and customs police in interdiction 
techniques.
    Question. Please explain the decrease in the State Department's 
budget request for peacekeeping operations in Sudan, an account that 
among other things is used to professionalize the SPLM and provide 
communications and other equipment for the military.
    Answer. The State Department's $42 million budget request for non-
assessed peacekeeping operations in Sudan is the same in fiscal year 
2011 as it was in fiscal year 2010. Congress appropriated $44 million, 
$2 million more than the Administration's request, for voluntary 
peacekeeping operations in Sudan in fiscal year 2010. At this time, the 
request of $42 million will be sufficient to advance the Department's 
fiscal year 2011 programs for supporting the Government of Southern 
Sudan's (GoSS) goals and objectives to transform its military, the 
Sudan People's Liberation Army (SPLA), into a professional military 
body.
    Question. Can the United States include radar for the SPLM capable 
of detecting aerial attack within its peacekeeping operations budget 
request or as part of another State Department funding vehicle?
    Answer. Section 7070(f)(5) of the fiscal year 2010 Department of 
State, Foreign Operations, and Related Programs Appropriations Act 
authorizes the provision of ``non-lethal military assistance, military 
education and training, and defense services controlled under the 
International Traffic in Arms Regulations'' to the Government of 
Southern Sudan (GoSS), provided that the Secretary of State provides 
Congress 15-days advance notice of her determination that the provision 
of such items is in the U.S. national interest. Deputy Secretary 
Steinberg made this determination on February 3, 2010, with respect to 
fiscal year 2010 funds. As a general matter, a radar system would be 
considered non-lethal assistance, although the exact configuration of 
radar and its integration into a weapons system could change this 
conclusion.
    Currently, the priority use of peacekeeping operations (PKO) funds 
supporting the development of the SPLA is as outlined in the fiscal 
year 2010 and fiscal year 2011 congressional budget justifications--
namely the transformation of the SPLA into a professional military--and 
does not include providing a radar system to the SPLA.
    Question. What resources, including personnel, is the State 
Department employing to monitor and report on human rights conditions 
throughout Sudan?
    Answer. The human rights situation in Sudan is poor, and human 
rights abuses continue to be wide-ranging. The Obama Administration is 
committed to improving the situation.
    The State Department monitors human rights abuses through a 
collaborative process that involves personnel both in the field, 
including at Embassy Khartoum and Consulate Juba, and in the United 
States. Our staff has regular contact with human rights activists, 
victims of abuse, and non-governmental organizations in Sudan. Special 
Envoy Gration also travels extensively in Sudan, and he regularly 
raises human rights issues with his high-level counterparts in Khartoum 
and in Southern Sudan. Finally, United States Government (USG) 
personnel based in Washington, DC, meet regularly with a variety of 
Sudanese diaspora, civil society, and advocacy groups to discuss human 
rights issues. We place a high value on these discussions, and we work 
to ensure that we follow-up on the information and concerns presented 
to us by these constituencies.
    The USG, through the State Department's Bureau of Democracy, Human 
Rights, and Labor, issues Country Reports on Human Rights Practices and 
the International Religious Freedom Report. The Department's Office to 
Monitor and Combat Trafficking in Persons issues the annual Trafficking 
in Persons Report. Taken together, these reports provide detailed 
information on human rights issues in Sudan. The State Department also 
continuously collaborates with the United Nations on its efforts to 
monitor the human rights situation. We have successfully worked to 
ensure that the U.N. Human Rights Council maintains a reporting and 
monitoring mechanism focused on Sudan, through the establishment of the 
independent expert on the situation of human rights in Sudan. We also 
continue to closely follow the work of the U.N. Panel of Experts on 
Sudan.
    Question. As we've seen in Darfur, many non-Arab Sudanese Muslims 
have longstanding grievances against the central government in Khartoum 
that can lead to conflict. What is the State Department doing to help 
prevent new crises among marginalized peoples and regions in Sudan?
    Answer. The United States government (USG) has a long standing 
commitment to the people of Sudan. The central Sudanese government in 
Khartoum has marginalized many groups of non-Arab Muslims throughout 
various regions within Sudan, and we have long been greatly concerned 
about the marginalization of these populations. We continue to pursue 
policies and implement programs that will help to mitigate the effects 
of marginalization by the government and promote peacebuilding and 
conflict resolution within marginalized communities. Additionally, the 
USG continues to work tirelessly to achieve the goals of the Sudan 
Strategy, including full implementation of the Comprehensive Peace 
Agreement (CPA) that ended the North-South civil war and a definitive 
end to violence, gross human rights abuses, and genocide in the Darfur 
region.
    Since the signing of the Comprehensive Peace Agreement (CPA) in 
2005, the people of Sudan have made progress in developing a stable 
political environment where residents can work and live without the 
overt threat of violence. However, parts of Darfur, Southern Sudan, the 
Three Areas and Eastern Sudan remain volatile and are flashpoints for 
destabilization. The U.S. Government is working with international 
partners to support Sudanese communities to prevent or moderate 
conflict in these flashpoints so that problems do not escalate and 
interfere with Sudan's higher political processes. The State Department 
and USAID will implement complementary programs. USAID efforts focus 
primarily on supporting state and local governments, organizations, and 
communities to manage conflict, to provide economic alternatives to 
raiding and banditry, and to implement reconciliation processes 
important to a sustainable peace in Sudan. State Department activities 
focus primarily on building state and local capacity to stabilize the 
security and political situation.
    Question. Revenue-sharing from the oil sector is a key element of 
the CPA. What is the State Department doing to ensure Khartoum lives up 
to its promises to share oil revenues with the South?
    Answer. Over the course of 2009, the United States Government (USG) 
brought together the National Congress Party (NCP) and the Sudan 
People's Liberation Movement (SPLM) to address outstanding 
Comprehensive Peace Agreement (CPA) implementation issues, including 
issues related to the sharing of oil revenues. Due to this U.S.-led 
Trilateral initiative, the two parties signed 10 Points of Agreement in 
August 2009, one of which was devoted to wealth-sharing and oil 
revenue. Following this agreement, the Government of National Unity 
(GoNU) returned approximately $52 million to the Government of Southern 
Sudan (GoSS), a sum that was incorrectly deducted from monthly oil 
revenue transfers to finance election activities. While in the past, 
GoNU payments to the GoSS had been late or partial, as of December 
2009, the parties broadly agreed that the GoNU shall transfer the full 
oil revenue amount allotted to the GoSS. As a result, all agreed-upon 
arrears have been paid to the GoSS by the GoNU.
    During the Trilateral Process, the two parties also agreed to an 
independent audit of the oil sector, to determine whether the payments 
made to the GoSS represented the full amount due under the CPA. While 
progress has been slow in obtaining approval from relevant government 
bodies for the audit to move forward, it is hoped that the audit can 
proceed after the formation of new national and regional governments in 
the wake of April's elections.
    Question. What is the State Department doing to persuade Khartoum's 
economic partners, particularly those with major investments in the oil 
sector such as China, India, and Malaysia, to use their influence to 
encourage Khartoum to implement the Comprehensive Peace Agreement (CPA) 
fully and to avoid the resumption of a destructive, and economically 
disruptive, North-South civil war?
    Answer. A key part of the U.S. Sudan strategy is reinvigorating and 
strengthening international attention to outstanding Comprehensive 
Peace Agreement (CPA) implementation issues. The United States 
Government (USG) continues to work with all international stakeholders 
to bring attention to remaining CPA issues such as demarcation of the 
North/South border and appointment of commissions for the Southern 
Sudan and Abyei referenda. Central to this is the promotion of 
sustainable economic development and stability in both Northern and 
Southern Sudan. This is an area in which China, other major investors 
in Sudan, and the United States have the same objectives. We continue 
to urge all countries, especially those with key interests in the oil 
sector, to advocate for continued attention to this matter as a central 
part of CPA implementation. U.S. officials discuss these issues 
regularly with their foreign counterparts. Additionally, we are 
engaging with all international stakeholders to coordinate 
international support for negotiations on post-referendum arrangements, 
an important component of which will be oil sector development and 
continued North/South oil revenue sharing.
    Question. The State Department's Office of International Religious 
Freedom has been without an Ambassador for International Religious 
Freedom for over a year. Given both President Obama's remarks in Turkey 
and Egypt and Secretary Clinton's remarks in Qatar regarding the 
importance of addressing religious freedom, when can we expect someone 
to be nominated for this post?
    Answer. A candidate for the position of Ambassador at Large for 
International Religious Freedom has been identified and is in the 
vetting process. We look forward to the announcement from the White 
House.
    International Religious Freedom remains a top focus for both the 
President and the Secretary of State. The Office of International 
Religious Freedom continues to pursue a robust agenda of monitoring and 
promoting religious freedom under the leadership of a Senior Foreign 
Service Officer. Religious Freedom issues are regularly raised by the 
Assistant Secretary of State for Democracy, Human Rights, and Labor, 
Michael Posner, as well as other State Department principals.
    Question. There continues to be severe and ongoing religious 
freedom violations in Vietnam, including the active suppression of 
independent religious activity and the detention and arrest of members 
of particular religious organizations for their religious freedom 
advocacy. As the State Department makes Country of Particular Concern 
(CPC) designations under the International Religious Freedom Act (IRFA) 
this year, what criteria, specific to Vietnam, will be used to 
determine whether Vietnam will be re-designated a CPC?
    Answer. The State Department applies the statutory standard found 
in IRFA Sec. (3)(11) to determine whether a country should be 
designated a CPC, and will consider CPC designations, as warranted, for 
all countries found to be, in the words of the Act, committing 
``systematic, ongoing, egregious violations'' of religious freedom.
    We are concerned about a number of religious freedom violations in 
Vietnam, including treatment during the past year of Buddhist monks and 
nuns of the Plum Village Order who were evicted from two pagodas, as 
well as the use of force against Roman Catholics in property 
restitution disputes. We are also watching closely whether the 
Government of Vietnam will fulfill its commitment to register more 
religious congregations.
    After being designated a CPC in 2004, Vietnam addressed its most 
serious violations (religious prisoners, church closings, forced 
renunciations, and the lack of a transparent registration system) and 
instituted policies and practices to protect religious freedom. The 
State Department removed Vietnam from the list in 2006 because it no 
longer fit the criteria of a CPC under the IRFA. Each year, we 
carefully monitor the status of religious freedom in Vietnam and 
reevaluate whether it merits designation as a CPC. We will report on 
further developments in Vietnam in our next International Religious 
Freedom Report, due in September.
    Question. Secretary of State Clinton has publicly spoken about the 
importance of freedom of worship. Is the Administration prioritizing 
the freedom of worship as a matter of diplomacy and if so, in what way? 
Does the Administration see any distinction between freedom of 
religion, as defined by international standards such as the ICCPR, and 
freedom to practice or worship?
    Answer. International religious freedom remains a central component 
to our promotion of human rights around the world. Promoting all 
aspects of freedom of religious belief and expression remains a high 
priority in our diplomatic efforts, as reflected in President Obama's 
Cairo speech in June, where he emphasized that ``freedom of religion is 
central to the ability of peoples to live together.'' In meetings with 
government leaders around the world, State Department officials 
consistently raise concerns regarding violations of religious freedom, 
and the annual International Religious Freedom Report is an important 
tool in that effort.
    As a matter of international human rights law, there is a 
difference between the terms ``freedom of religion'' and ``freedom of 
worship,'' and one encompasses the other. Article 18 of the 
International Covenant on Civil and Political Rights describes the 
right to freedom of thought, conscience and religion as including 
freedom to manifest one's religion or belief ``in worship, observance, 
practice and teaching.'' Freedom of worship is a component of the 
broader freedom of religion. As an informal matter, the terms ``freedom 
of religion'' and ``freedom of worship'' have often been used 
interchangeably through U.S. history, including in this Administration.
    Question. International NGOs continue to report on periodic violent 
attacks against Burmese Rohingya refugees in Thailand and Bangladesh. 
What resources are the State Department and USAID employing to offer 
assistance to the Rohingya refugees? How is the State Department 
engaging the governments of Thailand and Bangladesh regarding the 
protection of Rohingya refugees?
    Answer. We are closely following the situation of Burmese Rohingya 
refugees and asylum seekers in Bangladesh, Thailand and elsewhere in 
the region. The State Department and USAID are very concerned by 
credible reports of a growing humanitarian crisis among the 
unregistered Rohingya population residing outside of Kutupalong refugee 
camp in Bangladesh and the increased numbers of arrests and push-backs 
to Burma at the border. We are urging the Royal Thai Government to 
provide assistance to Rohingya ``boat people'' distressed at sea who 
are encountered in international waters near Thailand or within Thai 
waters, in accordance with international maritime law and practice.
    In fiscal year 2009, the State Department provided more than $2 
million in funding to several international humanitarian organizations 
to provide assistance and protection activities to both the registered 
and unregistered Rohingya populations in Bangladesh, Malaysia, 
Indonesia and elsewhere in the region. These organizations include 
ActionAid, Handicap International, Action Contre La Faim and the 
International Organization for Migration. Humanitarian assistance 
includes the provision of healthcare, water and sanitation, education, 
vocational skills training, conflict resolution, community 
mobilization, mental health and psychosocial support, gender-based 
violence prevention and response, and access to essential services for 
Persons with Disabilities. USAID implements development programs in 
Southeast Bangladesh on sectors that include population, health, 
energy, natural resource management, and democracy and governance. 
PACOM is constructing seven multi-purpose cyclone shelters and schools. 
Given the sizeable Rohingya population in Southeast Bangladesh, these 
programs also indirectly benefit the unregistered Rohingya.
    We are urging the Government of Bangladesh (GOB) to allow UNHCR to 
properly document the unregistered Rohingya population to ensure its 
protection. We also urge the GOB to respect the principle of non-
refoulement, to investigate allegations of abuse, and take actions as 
necessary. UNHCR has also gained agreement with the Government of Burma 
to expand operational space in Northern Rakhine State. Third-country 
resettlement remains an important strategic durable solution for some 
Rohingya refugees in the region. The eventual voluntary repatriation of 
refugees from Burma in safety and dignity and when conditions allow is 
also another solution. Both the registered and unregistered Rohingya, 
recognized as Persons of Concern by UNHCR, need freedom of movement and 
access to opportunities for work, which would enable them to become 
self-reliant and improve their chances for voluntary repatriation.
    The issue of the Rohingya is complex with a strong international 
dimension that requires a concerted effort by affected countries in the 
region. Thailand and Bangladesh have an important role to play in the 
Bali Process, where the Rohingya situation is being addressed 
regionally, to help combat people smuggling, trafficking in persons, 
and related transnational crimes in the Asia-Pacific region and beyond. 
The State Department continues to urge UNHCR to work in close 
coordination with IOM through the Bali Process in developing a 
coordinated regional response and comprehensive plan of action with 
affected countries to address the plight of the Rohingya.
    Question. How is the State Department engaging Japan in diplomatic 
discussions regarding International Child Parental Abduction (IPCA) 
issues? At what level are these discussions occurring? What has been 
the outcome of these discussions thus far?
    Answer. For several years, IPCA has been a high priority as the 
number of children abducted to Japan has steadily increased. Japan has 
consistently opposed signing the 1980 Hague Convention on the Civil 
Aspects of International Child Abduction. This places United States 
left-behind parents of abducted children to Japan at a great 
disadvantage given Japan's family law system and traditions.
    The Embassy and the Bureaus of Consular Affairs and East Asian and 
Pacific Affairs continue to raise this issue during meetings with 
Japanese officials at all levels. Japanese officials have consistently 
stated that:
  --The Ministries of Foreign Affairs and Justice are studying the 
        Hague Convention.
  --Japanese family law is not consistent with the Hague Convention.
  --The Diet would have to pass the required legislation to change 
        domestic law.
    However, as Japanese officials have recently begun to take IPCA 
more seriously, we have been more actively engaged on a number of 
fronts. On October 16, 2009, U.S. Ambassador to Japan Roos, and the 
Ambassadors of Canada, France, Italy, New Zealand, Spain, the United 
Kingdom, and the deputy head of mission of Australia, demarched the new 
Minister of Justice about IPCA. They urged Japan to accede to the Hague 
Convention and take measures to improve access for parents separated 
from their children. A joint press statement was issued by the eight 
embassies following the meeting. On January 22, 2010, American Citizen 
Services Chief William Christopher and staff from the Office of 
Children's Issues met with officials from Ministry of Justice to 
discuss Japan's legal statutes as they relate to IPCA, in particular 
the legal definition of domestic violence, how courts determine custody 
in divorce cases, and mechanisms used to enforce court orders.
    On January 30, 2010, Ambassador Roos, accompanied by the same six 
ambassadors and one deputy head of mission from other embassies in 
Japan, demarched Minister of Foreign Affairs Katsuya Okada about IPCA. 
The Ambassadors urged Japan to accede to the Hague Convention and to 
take measures to improve access for parents separated from their 
children. Minister Okada expressed appreciation for the meeting and 
stated that the new government must decide how to deal with IPCA. There 
was good media coverage of the meeting and the statement in both Japan 
and overseas.
    The third annual symposium on IPCA was held from March 17-18 in 
Tokyo. The symposium brought together key stakeholders and professional 
counterparts from the co-hosting nations in an expert level forum. The 
event was in response to Japanese Justice Minister Keiko Chiba's 
October 2009 expression of interest in learning about the experiences 
of Hague signatory nations.
    Our joint efforts have encouraged Japanese officials to more 
seriously consider the issue of child abduction and look for ways to 
address both accession to the Hague Convention and resolution of 
current cases. We are encouraged by the Ministry of Foreign Affairs' 
decision to establish the Division for Issues Related to Child Custody, 
and we expect this to be an avenue for discussion of individual cases.
    Question. The budget request to combat Trafficking in Persons seems 
inadequate. If the State Department and USAID were to have more 
resources devoted to combating trafficking, how would they be used?
    Answer. The Department of State (DOS) uses foreign assistance funds 
to stimulate governments to take action to combat trafficking in 
persons (TIP) through criminal justice sector improvements, trafficking 
prevention programs, and support for protection and assistance services 
to victims. Funds for these anti-trafficking programs are critical to 
fulfilling the mandate of the Trafficking Victims Protection Act (TVPA) 
of 2000 and our bipartisan policy priorities.
    Since 2006, the Office to Monitor and Combat Trafficking in Persons 
(G/TIP) which manages a portion of the State Department's anti-TIP 
funds has funded a mere fraction of the requests received, which is 
approximately $21 million of the over $288 million requested. G/TIP has 
seen a 325 percent increase in requested funds for anti-trafficking 
projects in a 4 year period from $45 million in fiscal year 2006 to 
over $288 million in fiscal year 2010. G/TIP's most recent solicitation 
resulted in 531 Statements of Interest for fiscal year 2010 funding, 
which is a significant increase from the previous year's 372 proposals.
    If an increase in funding to combat TIP were appropriated, DOS and 
USAID would look to:
  --Fund a greater percentage of the proposals received for 
        international anti-TIP projects;
  --Increase the number of innovative TIP prevention programs, 
        including TIP-specific development projects;
  --Increase the number of TIP research projects to promote greater 
        understanding of the scope of the problem and increase efficacy 
        of USG anti-TIP resources;
  --Create dedicated training and technical assistance program to 
        include recruitment and deployment of experienced counter-
        trafficking professionals in areas of victim assistance and 
        protection, rule of law, and investigation and prosecution.
    Question. How is the Senior Policy Operating Group, which the State 
Department chairs, ensuring the coordination of anti-trafficking 
funding across the State Department and United States government per 
the mandate established in the TVPRA?
    Answer. The Senior Policy Operating Group (SPOG) coordinates 
programs and policies at several levels:
  --Quarterly SPOG meetings.--G/TIP chairs quarterly, interagency 
        meetings involving every USG agency involved in anti-
        trafficking programs--DOS, DOL, DOJ, DHS, and others. The 
        quarterly meetings provide a forum for agencies to coordinate 
        anti-trafficking policies and programs.
  --SPOG Committee meetings.--The SPOG created working-level committees 
        to further its work, one of which is focused on grant-making.
  --SPOG Programs Review Process.--Before issuing anti-trafficking 
        grants or contract funds, all USG agencies submit their 
        proposed anti-trafficking actions for review by the other key 
        SPOG members. Anti-trafficking program proposals are subject to 
        a 7-day comment period, during which SPOG member agencies 
        provide comments on whether the project will duplicate other 
        USG activities, whether the project presents opportunities for 
        cooperation with other USG activities, and whether the project 
        is consistent with USG anti-trafficking policy.
  --Fiscal Year Chart on USG Spending.--At the end of each fiscal year, 
        SPOG staff gathers and organizes data on USG funds obligated in 
        that fiscal year for TIP projects.
    Question. India has arguably the world's largest Trafficking in 
Persons population, with its millions of bonded laborers. Given the 
importance of our bilateral relationship, is the State Department 
ensuring that combating trafficking in persons is conveyed as a 
strategic priority for the United States throughout all diplomatic 
discussions with the Government of India?
    Answer. The Department places great importance on the need to build 
a stronger partnership with the Government of India on addressing 
shared human trafficking concerns. We encourage the Indian government 
to research the phenomena of sex trafficking and bonded labor within 
India. Over the last year, Secretary Clinton and other senior officials 
have raised the issue of human trafficking with the Indian government 
and the Department continues to convey the priority the Obama 
Administration places on this human rights issue. We believe the 
Government of India is committed to combating human trafficking and in 
achieving faster progress against this global problem.
    Question. How is the State Department leveraging U.S. trade to 
further encourage other nations to actively combat trafficking in 
persons?
    Answer. The State Department is committed to expanding trade and 
market opportunities in developing countries to help create an 
environment not conducive to trafficking. Economic pressures make more 
people susceptible to the false promises of traffickers. Embassy 
employees worldwide provide country-specific data for the annual 
Trafficking in Persons report, as well as the Department of Labor's 
Trafficking Victims Protection Reauthorization Act (TVPRA) list of 
products made by forced labor and child labor in violation of 
international standards. Products on the TVPRA list are not permitted 
to be imported into the United States.
    Question. As Haiti has shown us all too clearly, disasters in 
general (and Haiti in particular) often necessitate expertise and 
resources specific to combating trafficking in persons in our 
protection response. What can the State Department learn from Haiti and 
how can the U.S. government best ensure preplanning is done such that 
the United States is ready to meet that need when the next disaster 
strikes?
    Answer. As past natural disasters have proved, commandeering the 
appropriate response on a wide-range of issues takes absolute 
coordination, communication, resources, and resolve.
    Specifically to trafficking in persons, the Department was actively 
involved in anti-trafficking efforts prior to the January 2010 
earthquake in Haiti. The Office to Monitor and Combat Trafficking in 
Persons funded efforts in fiscal year 2008 by its non-government 
partners to: increase public awareness; create a whole of community 
efforts with targeted interventions, economic opportunity, and 
psychological support; and address the ``restavek'' issue in country.
    We were able to translate our pre-existing efforts into response in 
the immediate aftermath of the earthquake. The Office to Monitor and 
Combat Trafficking in Persons was involved with the Child Protection 
Subcluster and it participated in a host of task forces and working 
groups to ensure a whole of government response that was both 
coordinated and concerted against trafficking.
    One of the challenges we face in combating human trafficking in 
post-natural disaster areas is the fact that many of these nations 
already are facing an uphill battle against modern slavery before the 
whole new set of post-disaster challenges emerge. We can learn from 
every experience in disaster response. Perhaps the greatest lesson in 
post-earthquake Haiti is recognizing that trafficking in persons must 
be interwoven in the disaster-response in the immediate, interim, and 
long-term plans. From the beginning, the United States Government must 
train itself to translate human trafficking and be mindful of the 
cultural contexts that increase vulnerability to TIP as a subset of the 
protection pillar of disaster response, whether it is child protection, 
protection against gender-based violence, or overall security issues. 
It cannot come days later, or after a news story breaks, but should be 
in pre-planning efforts across the board.
    Fortunately, we were aware of the increased likelihood of human 
trafficking in the days following the Haiti earthquake and worked 
around the clock to make sure we could supplement and strengthen our 
efforts. However, it is vital to ensure that the first boots on the 
ground are fully aware of the warning signs and the trends of human 
trafficking and are readily equipped to properly address this issue.
                                 ______
                                 
           Questions Submitted by Senator George V. Voinovich

    Question. I am concerned about--and would appreciate your thoughts 
on--the pace of constitutional reform in Bosnia-Herzegovina. I am 
particularly worried that the Presidential/Parliamentary campaign 
rhetoric in Bosnia this Fall will ``poison the well'' for the extension 
of NATO Membership Action Plan (MAP) to Bosnia. I know you agree that 
we must continue to push Bosnia towards NATO and the EU, and not allow 
it to become an economic and political black-hole in Europe. I'm 
heartened that, in the Republik of Srpska, Prime Minister Dodik has 
stated his support for Bosnia's membership in NATO despite great public 
opposition within his entity.
    What is your view on the possible extension of MAP--or a 
declaration by NATO of an intention to grant MAP--to Bosnia before the 
Fall elections? Senator Shaheen and I met with the leaders and foreign 
ministers of Slovenia, Croatia, Bosnia-Herzegovina, Kosovo, Macedonia, 
and Serbia during our visit to the region last week, who all believed 
that such a step would be a positive signal to Bosnia's leaders that 
NATO is serious about Bosnia's future.
    Answer. The United States continues to support Bosnia and 
Herzegovina's aspirations for NATO and EU membership and we are working 
in Sarajevo and Brussels to encourage Bosnia along its Euro-Atlantic 
integration path.
    At the December 2009 NATO Foreign Ministerial, Allies noted that 
Bosnia and Herzegovina has made substantial progress in cooperation 
with NATO and urged its leaders to work together to pursue national 
integration and improve the efficiency and self-reliance of state-level 
institutions. Allies expressed support for Bosnia and Herzegovina's 
participation in MAP once it achieves the necessary progress in its 
reform efforts, and pledged to keep its progress under active review.
    In order to successfully participate in MAP, a country needs to 
have the institutional structures in place to make timely decisions and 
implement difficult reforms. We have made clear to the leaders of 
Bosnia and Herzegovina that they must demonstrate concrete evidence of 
a sufficient capacity for political decisionmaking and a level of 
government functionality to meet the commitments under MAP.
    The next opportunity to assess Bosnia and Herzegovina's 
preparedness for MAP will come at the meeting of NATO Foreign Ministers 
in Tallinn on April 22. We will continue to encourage Bosnia's leaders 
to intensify their reform efforts and to demonstrate their commitment 
to advancing their aspirations.
    Question. The Iranian regime remains the single greatest threat to 
the peace and security of the Middle East. The neighboring nations of 
the Gulf Cooperation Council (GCC), which include the United Arab 
Emirates, Bahrain, Saudi Arabia, Oman, Qatar, and Kuwait, are valuable 
allies for the United States and have forged an important strategic 
partnership with us. The GCC represents an important bulwark against 
Iranian aggression.
    What other forms of cooperation can the United States pursue with 
the GCC to further strengthen our partnership and to enhance the 
regional security?
    Answer. The United States is actively working to strengthen our 
partnership with the GCC states via significant engagement on regional 
security, non-proliferation, alternative energy development (including 
nuclear energy and renewables), and support for economic 
diversification.
    On the political front, we consult with our Gulf partners to 
coordinate efforts to manage regional political, diplomatic, and 
security challenges, including threats posed by Iran. With respect to 
Iran, these consultations have resulted in Gulf country support for 
five U.N. Security Resolutions on Iran, increased vigilance and action 
against Iranian efforts to evade sanctions, active participation in a 
GCC-plus-3 forum (with Egypt, Jordan, and Iraq), and increased U.S. 
security and military cooperation throughout the Gulf.
    Our political dialogue is complemented by a robust security 
relationship among the U.S. and Gulf States. Using multilateral 
exercises, training, and Foreign Military and Direct Commercial Sales, 
the United States strengthens the GCC nations' capacity to defend 
against regional threats, thereby limiting their vulnerability to 
Iranian pressure.
    Similarly, we cooperate with Gulf States on counterproliferation 
issues. This growing cooperation is best exemplified by our cooperation 
with the UAE. In 2006, we initiated a senior-level bilateral 
counterproliferation dialogue (Counterproliferation Task Force or 
``CTF''). The CTF meets annually in addition to supporting working 
groups that meet throughout the year. Since 2006, we have seen the UAE 
make significant progress on counterproliferation issues by actively 
enforcing United Nations Security Council Resolutions related to Iran 
and North Korea, participating in the Proliferation Security Initiative 
and the Global Initiative to Combat Nuclear Terrorism, passing and 
implementing an export control law, and preventing transshipments of 
sensitive items from going to countries of proliferation concern such 
as Iran.
    Moreover, the United States is taking active steps, along with our 
Gulf allies, to provide a counterweight to Iran's energy strategy. We 
have encouraged our regional partners to help us reduce international 
reliance on Iranian natural resources as a way to sharpen the choice 
for Iran--opt to comply with nuclear obligations or face further 
isolation. On civil nuclear energy issues, we concluded a landmark 123 
Agreement on civilian nuclear energy with the UAE in 2009 which 
includes the highest nonproliferation standards and a commitment by the 
UAE to forgo enrichment and reprocessing on its soil. This civil 
nuclear energy agreement represents a powerful countermodel to Iran in 
demonstrating how a country can pursue civil nuclear energy and still 
meet its international obligations.
    We are also actively engaged in building commercial ties with the 
GCC nations. Using tools such as our Free Trade Agreements with Bahrain 
and Oman, proactive commercial advocacy and technical assistance on 
commercial law development, the United States is encouraging expanded 
American commercial ties in the region. Not only does this expand U.S. 
business opportunities, but it also supports Gulf States' efforts to 
diversify their economies.
    Question. The Conference Agreement for the fiscal year 2010 
Departments of Transportation and Housing and Urban Development, and 
Related Agencies Appropriations Act includes specific language stating 
that ``The Conferees support the Organization for Security and 
Cooperation in Europe (OSCE)'s initiatives to combat anti-Semitism in 
Europe and Eurasia and expect the Coordinator for United States 
Assistance for Europe and Eurasia to provide adequate funding to ensure 
continued leadership within the OSCE.''
    Madam Secretary, can you provide me in writing with specific 
details of your team's fiscal year 2010 work toward compliance with the 
expectations of the House and Senate conferees concerning U.S. 
financial support for OSCE efforts to combat anti-Semitism in Europe 
and Eurasia--including support for OSCE extra-budgetary programming 
efforts?
    Answer. The OSCE is committed to combating all forms of racism, 
xenophobia, anti-Semitism, and discrimination in the 56 participating 
States (pS). The United States supports efforts to ensure that OSCE 
commitments in the fields of tolerance and non-discrimination and 
freedom of religion or belief are implemented effectively. We believe 
the Office for Democratic Institutions and Human Rights (ODIHR) 
projects should focus on those countries where the gap between 
commitments and practices is the greatest. The United States has 
successfully insisted that ODIHR treat freedom of religion as a 
fundamental freedom as well as an issue of promoting mutual respect (as 
demonstrated during the Supplemental Human Dimension Meeting on Freedom 
of Religion in July 2009). We have successfully lobbied Chairs-in-
Office to appoint or re-confirm the three special representatives on 
anti-Semitism, anti-Muslim discrimination, and discrimination against 
people of other religions including Christianity, who track government 
activity to promote respect for religious differences and ensure the 
rights of people of all faiths in the OSCE region.
    The fiscal year 2010 appropriation levels approved by Congress will 
enable the State Department will meet all U.S. financial obligations to 
the OSCE and will also provide voluntary contributions for elections 
support, U.S. personnel on secondment to the OSCE, and extra-budgetary 
projects. OSCE funding comes from a combination of the Assistance for 
Europe, Eurasia and Central Asia (AEECA), and Diplomatic and Consular 
Affairs Program (D&CP) accounts. We expect to provide significant 
financial and extra-budgetary contributions to the OSCE in support of 
the efforts of ODIHR and the OSCE Personal Representatives on tolerance 
to combat anti-Semitism throughout Europe and Eurasia. We continue to 
encourage the OSCE and the ODIHR to attach a high priority to combating 
anti-Semitism and we will continue to support the organization's 
pioneering efforts in this area. We look forward to sending a 
delegation to a planned OSCE high-level conference on mutual respect 
and non-discrimination issues this summer and to engaging on a robust 
agenda there.
    Question. I would also appreciate from your team during the next 30 
days a written strategic plan outlining the Department of State's 
policy initiatives to combat anti-Semitism, including milestones, 
metrics, and expected future financial resource requirements from 
Congress.
    Answer. To effectively combat anti-Semitism, we are building strong 
channels of communication and collaborating with nongovernmental 
organizations. This includes greater engagement in interfaith efforts, 
active outreach among Muslim leaders, as well as reaching out to other 
groups that experience discrimination.
    The President has appointed Hannah Rosenthal as the new Special 
Envoy to Monitor and Combat Anti-Semitism. Special Envoy Rosenthal 
joined the Department of State in late November. Since that time she 
has traveled extensively both overseas and in the United States to 
advance her mandate.
    One of Special Envoy Rosenthal's goals is to work more closely with 
the Organization for Security and Cooperation in Europe. Enclosed 
please find her strategic outline to elevate and increase the 
visibility of the work that the OSCE does to combat anti-Semitism.
    On January 27, Special Envoy Rosenthal was part of the President's 
delegation to the 65th anniversary of the liberation of Auschwitz 
commemoration in Poland. Prior to the actual ceremony at Auschwitz-
Birkenau, she met with the Education Ministers from 29 countries to 
learn more about their Holocaust and anti-discrimination education. All 
29 countries reported that they are implementing curriculum and 
activities to educate about the Holocaust and to confront intolerance. 
However, the Office for Democratic Institutions and Human Rights 
(ODIHR) was not present at this gathering and none of the countries in 
attendance mentioned use of the ODIHR curriculum or expertise. 
Immediately after the ceremony, Special Envoy Rosenthal stayed on in 
Poland for several more days to better understand this situation. She 
went to Warsaw and had an excellent meeting with the staff at ODIHR, 
where she learned that ODIHR representatives had tried unsuccessfully 
to get invited to that Education Ministers' meeting. She discussed how 
we can ensure that does not happen again, how to increase ODIHR's 
visibility, and how best to get ODIHR the credit that is its due.
    ODIHR has virtually no funds for public relations and clearly needs 
people with higher visibility to talk about its mission, expertise, and 
accomplishments. To assist with this challenge, Special Envoy Rosenthal 
planned three major actions upon her return to Washington from Poland: 
a trip to Lithuania in April to discuss with the U.S. Embassy in 
Vilnius a proposal to develop a ``training the trainers'' approach to 
tolerance education; clearance for all her speeches in the United 
States and abroad to highlight the work of OSCE-ODIHR; and a new 
initiative to be rolled out at the OSCE high-level conference on 
tolerance and non-discrimination in Astana, Kazakhstan June 29-30. 
These are included in the attached outline.
    The outline was created after Special Envoy Rosenthal consulted 
with Rabbi Andrew Baker; ODIHR; Human Rights First; the 
Interparliamentary Coalition to Combat Anti-Semitism; the Co-Existence 
Trust of England; and several human rights NGOs in Poland, the United 
Kingdom, and domestically.
Increasing the Visibility of the OSCE

            Hannah Rosenthal Speech Highlights
    Meetings with over 10 NGOs in Warsaw January 28-29, 2010.
    Jewish Council for Public Affairs annual conference February 22, 
2010.
    Community Security Trust in London March 8, 2010.
    Yale Institute of Research on Anti-Semitism April 12, 2010.
    Testimony HFAC April 14, 2010.
    University, Kaunas, Lithuania April 27, 2010.
    ADL Leadership Conference May 3, 2010.
    Graduation speech Madison, Wisconsin May 15, 2010.
    Maryland Jewish Council May 27, 2010.
    Canadian Interparliamentary Council to Combat Anti-Semitism 
November 2010.

            Partnerships--promote to their members and activities, 
                    cover on websites
    Jewish Council for Public Affairs.
    American Jewish Committee.
    B'nai Brith.
    Anti-Defamation League.
    Human Rights First.
    Joint Distribution Committee.
    Simon Wiesenthal Center.

            Reiterate recommendations to governments
    Acknowledge and condemn anti-Semitism and hate crimes.
    Enact laws that address hate crimes.
    Strengthen enforcement and prosecute offenders.
    Train law enforcement.
    Undertake interagency, parliamentary and other special inquiries.
    Monitor and report on hate crimes, and ensure delineation for anti-
Semitism.
    Strengthen anti-discrimination and human rights bodies.
    Reach out to NGOs.
    Speak out against official intolerance and bigotry.
    Encourage international cooperation and joint statements.

            OSCE to publicize
    Help countries to meet obligation to collect and report hate crimes 
data to ODIHR.
    Make more visible three personal representatives.
    Expand administrative resources to support three representatives 
and provide public affairs capacity.
    Support ODIHR's Tolerance and Non-Discrimination unit
  --Ensure law enforcement program participation;
  --ODIHR convene national points of contact and NGOs to build trust 
        and cooperation between law enforcement agencies, civil society 
        groups, and victims;
  --Distribute materials and reports widely; and
  --build funding through regular OSCE budget and extrabudgetary 
        contributions.
    High-level conference on Tolerance and Non-Discrimination--June 
2010.
    Develop a ``side event'' at the OSCE high-level conference in 
Kazakhstan June 29-30 to roll-out the ``ART Initiative: Acceptance, 
Respect and Tolerance.'' SEAS and USOSCE will bring 8-10 NGOs that work 
with governments to move beyond tolerance and advance acceptance and 
respect. Highlight their ``best practices'' with easy-to-share 
demonstration models. The proceedings will be both videotaped and 
transcribed for official documents and websites for broad dissemination 
at conferences, country visits, State Department website, OSCE website, 
partners' websites, etc.
            US Government and leadership
    ART promotion.
    Bilateral discussions.
    Funding and TA expertise.
    Human Rights Report and International Religious Freedom Report 
annually.
    Clearly state our freedom of expression issues.
    Clearly state our definition of anti-Semitism (and where it is part 
of anti-Israel rhetoric and activities).
            Award/Recognition program
    Develop an annual nomination and selection process for high 
visibility recognition to individual and organizational work to advance 
ART (acceptance, respect and tolerance).
    Question. Secretary Clinton, I understand that the Department of 
State recently entered into a contract with a new provider of crystal 
stemware to be used at all American embassies.
    Could you please explain the circumstances surrounding this award 
and the process by which the new vendor was selected?
    Answer. The Department of State had a new departmental requirement 
for lead-free crystal ware design, production, inventory management and 
fulfillment services for U.S. embassies. Department officials met with 
SDI, a company that had earlier been introduced to the Department of 
State by the Small Business Administration (SBA), to discuss the 
company's capabilities in fulfilling the contract requirements.
    In accordance with complying with FAR 6.302-5, ``Other Than Full 
and Open Competition, Authorized or Required by Statue,'' the 
Contracting Officer sent an offer letter to SBA to negotiate and award 
a contract under the 8(a) program with SDI, an 8(a) program 
participant. SBA accepted the requirement into the 8(a) program and 
authorized DOS to negotiate a contract with SDI on May 18, 2008. A 
solicitation was released to the firm who then submitted a proposal.
    SDI subsequently informed the Department that they could not find a 
U.S. manufacturer of lead-free crystal, and planned instead to 
subcontract manufacturing to Orrefors/Kosta Boda, USA located in New 
Jersey. Market research conducted by the Department indicated there was 
no company that manufactured lead-free table top crystal ware in the 
United States. The Department evaluated SDI's proposal, determined it 
to be technically acceptable and that the price was fair and 
reasonable. An award for a base year and four option years was made to 
SDI on September 24, 2009, for a total ceiling for the contract of $5.4 
million (total for 12-month base year, and four 12-month option years).

                          SUBCOMMITTEE RECESS

    Senator Leahy. Thank you, Madam Secretary. This hearing is 
recessed.
    [Whereupon, at 12:21 p.m., Wednesday, February 24, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
